<html>
<title> - IMPROVING THE LITERARY SKILLS OF CHILDREN AND YOUNG ADULTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





       IMPROVING THE LITERARY SKILLS OF CHILDREN AND YOUNG ADULTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, NOVEMBER 19, 2009

                               __________

                           Serial No. 111-41

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html









                  U.S. GOVERNMENT PRINTING OFFICE
53-373 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                Barrett Karr, Republican Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Donald M. Payne, New Jersey          Michael N. Castle, Delaware,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Rush D. Holt, New Jersey             Thomas E. Petri, Wisconsin
Susan A. Davis, California           Peter Hoekstra, Michigan
Raul M. Grijalva, Arizona            Mark E. Souder, Indiana
Joe Sestak, Pennsylvania             Vernon J. Ehlers, Michigan
David Loebsack, Iowa                 Judy Biggert, Illinois
Mazie Hirono, Hawaii                 Todd Russell Platts, Pennsylvania
Jared Polis, Colorado                Cathy McMorris Rodgers, Washington
Pedro R. Pierluisi, Puerto Rico      Rob Bishop, Utah
Gregorio Sablan, Northern Mariana    Bill Cassidy, Louisiana
    Islands                          Tom McClintock, California
Lynn C. Woolsey, California          Duncan Hunter, California
Ruben Hinojosa, Texas
Dennis J. Kucinich, Ohio
Jason Altmire, Pennsylvania
Dina Titus, Nevada
Judy Chu, California






                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 19, 2009................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     3
        Prepared statement of....................................     4
    Ehlers, Hon. Vernon J., a Representative in Congress from the 
      State of Michigan:
        Statement of the American Library Association............    52
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona:
        Questions submitted for the record.......................    71
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas:
        Questions submitted for the record.......................    74
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado:
        Statement of the Colorado Department of Education........    63
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia:
        Questions submitted for the record.......................    65

Statement of Witnesses:
    Berger, Larry, co-founder and CEO, Wireless Generation.......    38
        Prepared statement of....................................    39
        Responses to questions submitted for the record..........    65
    Dore, Mary Kay, district student support services manager, 
      Summit School District, Frisco, CO.........................    12
        Prepared statement of....................................    15
        Responses to questions submitted for the record..........    66
        ``Age 21 Cost-Benefit Analysis of the Title I Chicago 
          Child-Parent Center Program''..........................    67
    Gomez, Leo, Ph.D., professor, the University of Texas Pan 
      American; officer, the National Association for Bilingual 
      Education (NABE)...........................................    29
        Prepared statement of....................................    31
        Responses to questions submitted for the record..........    70
    Henriquez, Andres, program officer, Carnegie Corporation of 
      New York...................................................    17
        Prepared statement of....................................    20
        Responses to questions submitted for the record..........    75
    Meyers, Sandra D., Ed.D., education associate, Delaware 
      Department of Education....................................    35
        Prepared statement of....................................    37
        Responses to questions submitted for the record..........    79
    Strickland, Dorothy S., professor emeritas, Rutgers, the 
      State University of New Jersey.............................     8
        Prepared statement of....................................    10

 
       IMPROVING THE LITERARY SKILLS OF CHILDREN AND YOUNG ADULTS

                              ----------                              


                      Thursday, November 19, 2009

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Payne, Scott, Holt, Davis, 
Loebsack, Hirono, Polis, Pierluisi, Hinojosa, Kucinich, 
Altmire, Chu, Castle, Petri, Ehlers, and Biggert.
    Also present: Representative Yarmuth.
    Staff present: Tylease Alli, Hearing Clerk; Calla Brown, 
Staff Assistant, Education; Adrienne Dunbar, Education Policy 
Advisor; Ruth Friedman, Senior Education Policy Advisor (Early 
Childhood); David Hartzler, Systems Administrator; Fred Jones, 
Staff Assistant, Education; Ricardo Martinez, Policy Advisor, 
Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness; Joe Novotny, Chief Clerk; Lillian Pace, Policy 
Advisor, Subcommittee on Early Childhood, Elementary and 
Secondary Education; Alexandria Ruiz, Administrative Assistant 
to Director of Education Policy; Melissa Salmanowitz, Press 
Secretary; Stephanie Arras, Minority Legislative Assistant; 
James Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Kirk Boyle, Minority General Counsel; Allison 
Dembeck, Minority Professional Staff Member; Ryan Murphy, 
Minority Press Secretary; Susan Ross, Minority Director of 
Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Kildee. Good morning. A quorum being present the 
committee will come to order. Pursuant to committee rule 12a, 
all members may submit an opening statement in writing, which 
will be made part of the permanent record. Governor, how are 
you doing?
    Mr. Castle. Good.
    Chairman Kildee. Before we begin, we expect our colleague, 
Representative John Yarmuth, a former member of this committee, 
and welcome back, John. You were a good member then, and you 
moved on to another responsibility, but your interest in this 
is undying, and I appreciate you being here this morning.
    We welcome him to attend today's hearing, and I ask 
unanimous consent for him to sit on the dais to listen to 
testimony and to ask questions. Without objection, I now 
recognize myself for an opening statement.
    I am pleased to welcome my fellow subcommittee members, the 
public and our witnesses to this hearing on improving the 
literacy skills of children and young adults.
    Only 30 percent of our fourth and eighth grade students 
tested at proficient or higher in reading on the most recent 
national assessment of educational progress. These scores do 
not reflect students failing a test, so much, but an education 
system that is failing students.
    Many of these struggling readers face a grim future without 
our help and certainly your help. You bring an expertise to 
this committee that we certainly are hungry for. Some are 
likely to become discouraged and drop out of school, while 
others will graduate unprepared for what lies ahead.
    For those who do graduate high school, about 40 percent 
will lack the literacy skills employers seek. This creates a 
serious dilemma in an economy, where the 25 fastest growing 
professions require greater than average literacy skills. We 
have taken steps to address this problem at the federal level 
investing in a handful of programs to provide intensive reading 
support for students.
    While many elements of these programs provide promise, we 
clearly have more to do. As a strong supporter of early 
childhood education, I believe we must start early. We know 
that literacy development begins early in life and is a strong 
indicator of student achievement.
    By investing in our youngest learners, we can prevent 
students from falling behind at a critical point in their 
education. We must also strengthen existing programs targeted 
at our pre-k and elementary age children to ensure they benefit 
from the most effective practices. Challenges are not always 
solved by more money. Sometimes we need to realign resources, 
and empower our educators with the skills to maximize their 
impact on student learning.
    And finally we need to pay attention to the needs of our 
adolescent readers. Researchers have documented a fourth grade 
reading slump for years. Yet federal investment in reading 
programs for grades 4 through 12 remains minimal. In order to 
reverse the high school dropout crisis, and prepare all 
students for post-secondary opportunities, we need to provide 
reading support far beyond the fourth grade.
    During today's discussion, we will hear from a panel of 
literacy experts. Some who have devoted their entire careers to 
identifying effective reading practices and others who have 
worked on the front lines turning these practices into results 
for children.
    Their perspectives are unique and cover the broad range of 
needs facing today's learners from birth through high school. I 
look forward to today's testimony and hope it provides this 
subcommittee with new perspectives as we work to reevaluate the 
federal role in literacy development.
    I now yield to the ranking member of this committee, 
Governor Castle, for his opening statement.
    [The statement of Mr. Kildee follows:]

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    I'm pleased to welcome my fellow subcommittee members, the public, 
and our witnesses to this hearing on ``improving the literacy skills of 
children and young adults.''
    Only 30 percent of our 4th and 8th grade students tested at 
proficient or higher in reading on the most recent national assessment 
of educational progress. These scores do not reflect students failing a 
test, but an education system that is failing its students.
    Many of these struggling readers face a grim future without our 
help. Some are likely to become discouraged and dropout of school, 
while others will graduate unprepared for what lies ahead. For those 
who do graduate high school, about 40 percent will lack the literacy 
skills employers seek. This creates a serious dilemma in an economy 
where the 25 fastest-growing professions require greater than average 
literacy skills.
    We have taken steps to address this problem at the federal level, 
investing in a handful of programs to provide intensive reading support 
for students. While many elements of these programs provide promise, we 
clearly have more to do.
    As a strong supporter of early childhood education, i believe we 
must start early. We know that literacy development begins early in 
life and is a strong indicator of student achievement. By investing in 
our youngest learners, we can prevent students from failing behind at a 
critical point in their education.
    We must also strengthen existing programs targeted at our pre-k and 
elementary age children to ensure they benefit from the most effective 
practices. Challenges are not always solved by more money. Sometimes we 
need to realign resources and empower our educators with the skills to 
maximize their impact on student learning.
    And finally, we need to pay attention to the needs of our 
adolescent readers. Researchers have documented a fourth grade reading 
slump for years, yet federal investment in reading programs for grades 
4 through 12 remains minimal. In order to reverse the high school 
dropout crisis and prepare all students for postsecondary 
opportunities, we need to provide reading support far beyond the 4th 
grade.
    During today's discussion, we will hear from a panel of literacy 
experts--some who have devoted their entire careers to identifying 
effective reading practices and others who have worked on the front 
lines turning these practices into results for children. Their 
perspectives are unique, and cover the broad range of needs facing 
today's learners from birth through high school. I look forward to 
today's testimony and hope it provides this subcommittee with new 
perspective as we work to reevaluate the federal role in literacy 
development.
    I now yield to ranking member castle for his opening statement.
                                 ______
                                 
    Mr. Castle. Thank you, Mr. Chairman, and thank you very 
much for this hearing on what I consider to be a very important 
subject. And I thank all the witnesses and all the other 
individuals who attended here today. I think hopefully we can 
learn a lot.
    I am pleased that the committee is examining current 
federal literacy initiatives and ways to improve the 
comprehensive skills of all children from birth through high 
school. Today, 14 percent of Americans over the age of 16, 
about 30 million people, have trouble with basic reading and 
writing skills and cannot read well enough to fill out a job 
application, follow a prescription or even read a simple 
children's story.
    Too many adults do not have the skills to find and keep a 
job, support their child's education or participate actively in 
civic life. Reading is a fundamental skill, and many of us take 
it for granted. Yet we know that reading is a skill that does 
not come naturally.
    For children who do not learn to read in early educational 
settings can easily translate into a lifelong learning 
disability. Fortunately, children who are at risk for reading 
failure can learn to read at average levels or above if they 
are identified early and provided with intensive instruction.
    In 2002, the No Child Left Behind Act was signed into law. 
The act sought to address some of these literacy issues for 
children in pre-K through the third grade by authorizing the 
Early Reading First and Reading First programs.
    In 2005, Congress created the Striving Readers program, 
which focuses on middle and high school students as part of the 
fiscal year 2005 Labor HHS Education Appropriations Act within 
No Child Left Behind.
    The success in the first 7 years of the scientifically 
based Reading First program in particular has been astounding. 
Nationally, the percentage of third graders scoring proficient 
on state reading assessments has grown nearly 8 percent, much 
faster than overall growth.
    In addition, state-reported performance data released last 
year indicates impressive gains in reading comprehension with 
improvements seen by nearly every grade and subgroup of 
students.
    Despite the clear success of the Reading First program, 
however, Congress has cut funding for this important program 
over the last 2 years and recently eliminated funding for the 
program. I am hopeful that we will reconsider this elimination 
and restore funding for this program, which continues to 
produce strong results for children.
    In a few moments, Dr. Sandra Meyers from the Delaware 
Department of Education will discuss the work my home state is 
doing in the area of literacy, particularly within the Early 
Reading First and Reading First programs.
    Delaware has long recognized that what children experience 
early in life has a direct impact on their future success in 
school and life, and I am pleased that the state is addressing 
literacy skills with several early literacy programs, such as 
Reach Out and Reading is Fundamental, Delaware Read Aloud and 
Growing Together portfolios, as well as various adult literacy 
services.
    Each of these literacy programs have demonstrated success 
in helping students develop their literacy skills. However, as 
we all know, education is not just the responsibility of our 
federal, state and local governments. It is our collective 
responsibility whether it is a parent reading to a child or a 
business reaching out to those in need in their community.
    We all have a role to play in helping people who lack 
literacy skills to overcome their difficulties. And I want to 
thank all of you here today and our witnesses in particular, of 
course, for your interest and efforts in drawing the public's 
attention to the problem of illiteracy. Thank you, Mr. 
Chairman. I yield back.
    [The statement of Mr. Castle follows:]

Prepared Statement of Hon. Michael N. Castle, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Good Morning. I would like to thank Chairman Kildee for holding 
today's hearing. I am pleased the Committee is examining current 
federal literacy initiatives and ways to improve the reading 
comprehension skills of all children from birth through high school.
    Today, 14 percent of Americans over the age of 16--about 30 million 
people--have trouble with basic reading and writing skills (IES: 
National Assessment of Adult Literacy) and cannot read well enough to 
fill out a job application, follow a prescription, or even read a 
simple children's story. Too many adults do not have the skills to find 
and keep a job, support their child's education, or participate 
actively in civic life.
    Reading is a fundamental skill and many of us take it for granted. 
Yet, we know that reading is a skill that does not come naturally. For 
children who do not learn to read, an early educational stumble can 
easily translate into a lifelong learning disability.
    Fortunately, children who are at-risk for reading failure can learn 
to read at average levels, or above if they are indentified early and 
provided with intensive instruction.
    In 2002, the No Child Left Behind Act was signed into law. The Act 
sought to address some of these literacy issues for children in pre-K 
through the third grade by authorizing the Early Reading First and 
Reading First Programs. In 2005, Congress created the Striving Readers 
programs, which focuses on middle and high school students as part of 
the FY2005 Labor-HHS-Education Appropriations Act within NCLB.
    The success in the first seven years of the scientifically-based 
Reading First program in particular has been astounding. Nationally, 
the percentage of third graders scoring proficient on state reading 
assessments has grown nearly eight percent, much faster than overall 
growth. In addition, state-reported performance data released last year 
indicates impressive gains in reading comprehension, with improvements 
seen by nearly every grade and subgroup of students.
    Despite the clear success of the Reading First program, however, 
Congress has cut funding for this important program over the last two 
years and recently eliminated funding for the program. I am hopeful 
that we will reconsider this elimination and restore funding for this 
program which continues to produce strong results for students.
    In a few moments, Dr. Sandra Meyers from the Delaware Department of 
Education will discuss the work my home state is doing in the area of 
literacy, particularly within the Early Reading First and Reading First 
programs. Delaware has long recognized that what children experience 
early in life has a direct impact on their future success in school and 
life and I am pleased that the State is addressing literacy skills with 
several early literacy programs, such as Reach out and Read, Reading is 
Fundamental, Delaware Read ALOUD, and Growing Together portfolios, as 
well as various adult literacy services.
    Each of these literacy programs have demonstrated success in 
helping students develop their literacy skills; however, as we all 
know, education is not just a responsibility of our federal, state, and 
local governments; it is our collective responsibility, whether it is a 
parent reading to a child or a business reaching out to those in need 
in their community. We all have a role to play in helping people who 
lack literacy skills overcome their difficulties, and I want to thank 
all of you here today and our witnesses in particular for your interest 
and efforts in drawing the public's attention to the problem of 
illiteracy.
    Thank you Mr. Chairman. I yield back.
                                 ______
                                 
    Chairman Kildee. Thank you, Governor. Without objection, 
all members will have 14 calendar days to submit additional 
materials or questions for the hearing record. Now, I would 
like to introduce our very distinguished panel of witnesses 
here this afternoon.
    I would hope that in the history of literacy progress in 
this country that someday someone may cite to what we hear here 
today as something that was instrumental in improving our 
literacy. So I don't want to put you on the spot and make you 
nervous, but this is a very, very important hearing.
    This is a very, very important issue, and we have asked the 
people around the country who really are expert in that. So 
your role is important, and these hearings do have effects and, 
therefore, you have a very important responsibility, and I 
appreciate you being here.
    I would like to introduce our very first witness this 
afternoon. Our first witness, Dr. Dorothy S. Strickland is the 
Samuel Dewitt Proctor Professor of Education and the state of 
New Jersey Professor of Reading at Rutgers University.
    She was formerly the Arthur I. Gates Professor of Education 
at Teachers College Columbia University. A former classroom 
teacher and learning disabilities specialist, Dr. Strickland is 
past president of both the International Reading Association 
and the Reading Hall of Fame.
    She currently serves on two National Academy of Science 
panels, one on teacher preparation and the other on 
recommendations to the administration for educational policy. 
Dr. Strickland was also appointed to the New Jersey State Board 
of Education in 2008. She received her bachelor's degree from 
Newark State College and her master's degree and doctoral 
degrees from New York University.
    I will now yield to Congressman Polis to introduce our next 
witness.
    Mr. Polis. Thank you so much, Mr. Chairman. It is my honor 
to introduce Mary Kay Dore who is a native daughter of your 
home state, Mr. Chairman. She is from Redford, Michigan, a 
suburb of Detroit.
    She graduated from DePaul University in Indiana with a 
bachelor's degree in sociology and a minor in education. She 
has been involved with special education since she was in high 
school when she worked at a summer camp for children with 
special needs.
    She then attended graduate school at Michigan State 
University where in 4 years she got a bachelor's degree in 
elementary education and a master's degree in special 
education. After finishing her graduate program, she moved to 
Breckenridge, Colorado and began her work as a special 
education teacher in Summit County School District.
    During her 13-year tenure with Summit Schools, she has 
worked at the elementary, middle and high school levels and now 
at the administrative level. Her positions have included 
resource special education teacher, severe needs special 
education teacher, district special education coordinator and 
now as a district student support services manager.
    During her time in Breckenridge, Summit County has become 
an increasingly diverse school district. Around the time she 
started Summit County was about 3 percent ELL students, and 
it's now about 22 percent ELL students, adding a new dimension 
to the literacy challenges in the district.
    She has played a significant role at curriculum development 
and response to instruction system planning and implementation 
and all other district initiatives, as well as working 
cooperatively with the Mountain Board of Cooperative 
Educational Services.
    BOCES is a cooperative agency that delivers educational 
special ed services in our state and the Colorado Department of 
Education, as well, during which time I happened to be on the 
Colorado State Board of Education while our staff there spoke 
very highly of her efforts. Yield back.
    Chairman Kildee. Thank you very much. You mentioned 
Redford. I lived on Grand River Avenue when I taught at 
University of Detroit High School many, many years ago.
    Our third witness, Andres Henriquez, is a program officer 
in the national program of Carnegie Corporation of New York 
where he leads the corporation's advancing literacy initiative. 
Prior to joining the corporation, Mr. Henriquez served as the 
Assistant Director for Strategic Planning Center for Children 
and Technology at the New York Offices of the Education 
Development Center, Incorporated.
    He has also worked at the National Science Foundation as an 
associate programming director responsible for the network 
infrastructure for education and assistant with the Research 
and Education Policy and Practice program.
    He was a researcher at Sesame Workshop and a senior 
researcher at MTV Networks. Mr. Henriquez taught for 5 years 
with the New York City Public Schools. He received his 
undergraduate degree in psychology from Hamilton College and an 
masters of education from Futures College Columbia University.
    I will now yield to Congressman Hinojosa to introduce the 
next witness. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman. It is my pleasure to 
introduce Dr. Leo Gomez. He is a professor of bilingual, 
bicultural education at the University of Texas Pan American 
University UTPA, an outstanding Hispanic-Serving Institution we 
call HSI in my congressional district that serves over 17,500 
students.
    Dr. Gomez's research has focused on instructional practices 
affecting language minority students. He has been involved 
extensively in the development, the implementation and 
assessment of two-way dual language programs.
    Dr. Gomez is the co-author of a dual language enrichment 
model that is being successfully implemented in over 60 school 
districts representing over 440 elementary schools across four 
states, which include Texas, Washington state, Nevada and 
Kansas. In Texas alone, this model is being implemented in 417 
elementary schools.
    As a nationally recognized scholar in this area, Dr. Gomez 
has an extensive list of publications. They include books, 
articles and monographs. Dr. Gomez has also made hundreds of 
conference presentations in Texas and across our nation.
    As a prominent educator, Dr. Gomez has taught in public 
schools and continues his teaching assignments at the 
university while serving as the Assistant Dean for the College 
of Education at UTPA. His entire career has been devoted to 
literacy issues, particularly for the art of teaching and 
learning in both English and Spanish.
    Dr. Gomez holds a B.A. in secondary education, as well as 
an M.A. in interdisciplinary studies from UTPA. Dr. Gomez also 
earned a PhD in curriculum and instruction from Texas A&M 
University at College Station.
    Dr. Gomez, we are fortunate that you found time in your 
busy schedule to be with us today. We welcome you to this very 
important hearing. And I yield back.
    Chairman Kildee. Thank you, Mr. Hinojosa.
    I will now yield to our committee's ranking member, 
Governor Castle, to introduce the final two witnesses.
    Mr. Castle. Thank you, Mr. Chairman. I will introduce first 
Dr. Sandra Meyers who currently serves as the Education 
Associate of Elementary Reading for the Delaware Department of 
Education where she oversees programs, such as Reading First 
for the state. Prior to working at the department, Dr. Meyers 
worked in Delaware's Colonial School District from 1991 to 
2003.
    During her 12-year tenure with the Colonial School 
District, Dr. Meyers served as the program coordinator for the 
extended summertime program, a Title I reading teacher and 
reading resource teacher, a University of Delaware instructor 
of the graduate level course preventing reading failure and a 
coach for Colonial teachers being trained in reading success 
from the start.
    Dr. Meyers is a member of the Association for Supervision, 
the International Reading Association and the Diamond State 
Reading Association. Dr. Meyers graduated from Westchester 
University with a bachelor's degree in elementary education.
    She then attended graduate school at Temple University 
where she received her master's in psychology of reading. And 
in 2006, Dr. Meyers received her doctoral degree from 
University of Delaware in educational leadership. And we 
welcome Dr. Meyers here today.
    And Larry Berger is the CEO and co-founder of Wireless 
Generation, an education company that has pioneered the 
adaptation of emerging technologies to improve pre-K through 12 
teaching and learning. Prior to launching Wireless Generation, 
Mr. Berger was president of Interdimensions, a Web solutions 
company.
    He also served as the educational technology specialist at 
the Children's Aid Society. Mr. Berger serves on the Carnegie 
Institute for Advanced Study Joint Commission on Mathematics 
and Science Education and of the Board of Trustees to the 
Carnegie Foundation for the Advancement of Teaching. And we 
welcome you here, also, Mr. Berger. Thank you for being here.
    Chairman Kildee. Thank you, Governor. Before we begin, let 
me briefly explain our lighting system here and the 5-minute 
rule. Everyone, including members of Congress, is limited to 5 
minutes of presentation or questioning. The light is green when 
you begin to speak. When you see the yellow light it means you 
have 1 minute remaining. When the light turns red your time has 
expired, and you need to conclude your testimony.
    Now, there are no ejection seats there, so you could 
certainly finish a reasonable paragraph to conclude your 
remarks. But please be certain as you testify to turn on, and 
speak into the microphones in front of you.
    And we will now hear from our first witness, Dr. 
Strickland. Welcome, Doctor.

 STATEMENT OF DOROTHY STRICKLAND, PROFESSOR EMERITAS, RUTGERS, 
               THE STATE UNIVERSITY OF NEW JERSEY

    Ms. Strickland. Good morning, and thank you for the 
opportunity to share some of the current thinking about 
literacy learning during the early childhood years. I have done 
a fair amount of research over the years. My primary 
contribution to the field has been as translator of research 
and practice. I have been a classroom teacher, learning 
disability specialist and teacher educator. I am also a mother 
and a grandmother, so I bring many perspectives to the table
    Before I begin, however, I would like to state that, 
although I believe that greater attention to literacy is 
extremely important, I also believe that early literacy should 
never be stressed at the expense of or in isolation from the 
other domains of child development.
    In fact, all of the domains of early childhood development, 
physical, social, emotional, cognitive, language and literacy 
are interrelated and interdependent. I have organized my 
comments around four questions. The first two provides the 
research and background information, and the last two deal with 
recommendations,
    Question one, what is known about the importance of early 
literacy development? And you have already expressed some of 
these ahead of me so I am glad to hear them. Early literacy 
plays a key role in enabling the kind of early experiences that 
research shows are linked with academic achievement, reduced 
grade retention, higher graduation rates and enhanced 
productivity in adult life.
    We know that literacy learning starts early and persists 
throughout life. From the earliest years, everything that 
adults do to support children's language and literacy really, 
really counts. We know that all language and literacy develop 
concurrently. What children learn from listening and talking 
contributes to their ability to read and write and vice versa.
    We know that children's experiences with the world and with 
print greatly influence their ability to comprehend what they 
read. True reading involves understanding. What children bring 
to a text whether it is oral or a written text influences the 
understandings they takeaway.
    My second question is what is needed to support young 
children's language and literacy development? And I want to 
offer just a few examples so that you will see that these are 
not extraordinary experiences, certainly not skill drill, but 
the kind of experiences found in most middle class homes.
    For example, young children need parents, caregivers and 
teachers who know that a child's capacity for learning is not 
determined at birth, who involve children's interests to local 
points of interest, and talk with them about what they see and 
do, who provide time for reading to children and talking with 
them about what is read. Ordinary, maybe, but too many children 
are denied these opportunities.
    My third question is, how can we improve existing early 
childhood programs to better support early literacy 
development? Both my knowledge of the research, and my 
experience suggests that we have come a long way in providing 
quality zero to five education in the United States, but there 
is much more to be done.
    Following are some ideas for your consideration and 
recommendations for policy and practice. First, we do need 
well-conceived standards for child outcomes, for curriculum 
content, and for teacher-caregiver preparation to establish a 
clarity of purpose and a shared vision for early literacy 
education.
    Second, comprehensive support for all children with clear 
adaptations for children with special needs. Third, support for 
early literacy development in the English language learner must 
be specified. Fourth, early literacy assessment should be age 
appropriate, and employ multiple means of collecting, 
synthesizing and making use of information.
    Fifth, program outreach should reflect respect for the 
diversity of cultures and linguistic backgrounds of children 
and their families, and include parent involvement programs 
with a strong early literacy component.
    And perhaps most important, highly capable early childhood 
professionals are needed to implement today's more challenging 
early literacy expectations. This involves knowledge of how 
young children learn and how they are best taught, knowledge 
and respect for diversity of children and their families, 
ability to foster all the domains of development and to work 
collaboratively with a variety of professionals, an effective 
use of technologies.
    All of these are important, and we need to keep in mind the 
context in which this would be done. For example, many early 
literacy professionals have implications for their own literacy 
development as well. And this is a fact that we have come to 
grips with.
    My final point has to do with my work as an evaluator of 
Early Reading First and the implications for federal efforts. 
That work largely confirms the recommendations already offered. 
For the most part, I saw exceptionally effective preschool 
programs with a high degree of emphasis on early literacy.
    My hope is that we might learn from the past, learn from 
Early Reading First, especially in the areas of assessment, 
family literacy and professional development, including 
attention to coaching. Thank you.
    [The statement of Ms. Strickland follows:]

    Prepared Statement of Dorothy S. Strickland, Professor Emeritas,
              Rutgers, the State University of New Jersey

    Thank you for the opportunity to share some of the current thinking 
about literacy learning during the early childhood years. Though I have 
done a fair amount of research over the years, my primary contribution 
to the field has been as translator of research to practice. I have 
been a classroom teacher, learning disabilities specialist, and teacher 
educator. I am also a mother and grandmother. So, I bring many 
perspectives to the table. Before I begin, however, I would like to 
state that although I believe that greater attention to literacy is 
extremely important, I also believe that early literacy should never be 
stressed at the expense of or in isolation from the other domains of 
child development. In fact, all of the domains of early childhood 
development--physical, social-emotional, cognitive, language, and 
literacy--are interrelated and interdependent. I have organized my 
comments around four questions.

    Question #1. What is known about the importance of early literacy 
development?

    Early childhood professionals have long recognized the importance 
of language and literacy in preparing children to succeed in school. 
Early literacy plays a key role in enabling the kind of early learning 
experiences that research shows are linked with academic achievement, 
reduced grade retention, higher graduation rates, and enhanced 
productivity in adult life.
    Literacy learning starts early and persists throughout life.
    In the past, our field has talked about early literacy in terms of 
what was called reading readiness, the necessary level of preparation 
children should attain before beginning formal reading instruction. Key 
factors or predictors include oral language, alphabet knowledge, 
knowledge of how the sounds of our language link to the alphabet, and 
knowledge about print. Reading readiness largely focused on targeted 
instruction in kindergarten and early first grade. While the notion of 
certain predictors has been maintained, the way we look at their 
development has changed. Today's research suggests that learning to 
read and write is an ongoing and emerging process from infancy. This is 
consistent with what has been learned from neurocognitive research 
about young learners and learning. From the earliest years, everything 
that adults do to support children's language and literacy really 
counts.
    Oral language and literacy develop concurrently.
    Although oral language is foundational to literacy development, the 
two also develop concurrently. What children learn from listening and 
talking contributes to their ability to read and write and vice versa. 
For example, young children's phonological awareness (ability to 
identify and make oral rhymes and manipulate the individual sounds--
phonemes- in spoken words) is an important indicator of their potential 
success in learning to read. Phonological awareness begins early with 
rhyming games and chants, often on a parent's knee.
    <bullet> Children who fall behind in oral language and literacy 
development are less likely to be successful beginning readers; and 
their achievement lag is likely to persist throughout the primary 
grades and beyond.
    <bullet> It is not enough to simply teach early literacy skills in 
isolation. Teaching children to apply the skills they learn has a 
significantly greater effect on their ability to read and write
    Children's experiences with the world and with print greatly 
influence their ability to comprehend what they read.
    True reading involves understanding. What children bring to a text, 
whether oral or written, influences the understandings they take away.
    The more limited a child's experiences the more likely he or she 
will have difficulty with reading. There are two kinds of experiences 
that are highly influential to literacy development: background 
knowledge about the world and background knowledge about print and 
books.

    Question #2. What is needed to support young children's language 
and literacy development?

    Young children need parents, caregivers, and teachers who:
    <bullet> Know that a child's capacity for learning is not 
determined at birth and there is a great deal they can do about it.
    <bullet> Respect and build upon the home language and culture of 
the child
    <bullet> Are aware that there are many informal and enjoyable ways 
that language and literacy skills can be developed at home and in pre-
school settings
    <bullet> Provide opportunities for children to use what they know 
about language and literacy in order to help them transfer what they 
know to new situations.
    <bullet> Take time to listen and respond to children.
    <bullet> Talk to and with children not at them.
    <bullet> Engage children in extended conversations about events, 
storybooks, and a variety of other print media.
    <bullet> Explain things to children.
    <bullet> Use sophisticated and unusual words in their everyday talk 
with children, when it is appropriate to the conversation.
    <bullet> Recognize that interesting concepts and vocabulary do not 
emerge from a vacuum and, thus, make sure to provide interesting 
content to think and talk about.
    <bullet> Involve children in trips to local points of interest and 
talk with them about what they see and do.
    <bullet> Establish a habit of raising and responding to children's 
questions about things that occur in the home environment or at trips 
to local points of interest.
    <bullet> Provide time for reading to children and talking with them 
about what is read.
    <bullet> Share a variety of types of literature, including lots of 
informational books to stimulate conversations about ideas and concepts 
beyond everyday experiences.
    <bullet> Make books accessible for children to return to on their 
own to ``pretend read''--a child's personal reenactment of the read-
aloud experience.

    Question #3. How can we improve existing early childhood programs 
to better support early literacy development?

    Both my knowledge of research and my experience suggest that we 
have come a very long way in providing quality 0-5 education in the 
United States, but there is much to be done. Following are some ideas 
for your consideration with recommendations for policy and practice.
    1. Well-conceived standards for child outcomes, curriculum content, 
and teacher/care giver preparation help establish clarity of purpose 
and a shared vision for early literacy education.
    <bullet> States and districts should establish standards for early 
literacy that are articulated with K-12 programs and reflect 
consistency and continuity with overall program goals.
    <bullet> Early literacy curricula, teaching and care-giving 
practices should be evidence-based, integrated with all domains of 
learning and understandable to staff members.
    2. Early literacy programs should be designed to provide 
comprehensive support for all children with clear adaptations for 
children with special needs.
    3. Support for the early literacy development of English language 
learners must be specified with language learning opportunities in both 
the home language and English provided where feasible.
    4. Early literacy assessment should be age-appropriate and employ 
multiple means of collecting, synthesizing, and making use of 
information to support children's overall development, improve the 
quality of care giving/teaching, and the total program.
    5. Program outreach should reflect respect for the diversity of 
cultures, and linguistic backgrounds of children and their families as 
well as support for families as children's first teachers.
    <bullet> Parent involvement programs should have a strong early 
literacy component that guides parents and care givers in providing 
appropriate early literacy experiences at home.
    6. Highly capable early childhood professionals are needed to 
implement today's more challenging early literacy expectations.
    <bullet> Standards for early childhood professionals--
administrators, teachers, caregivers, educational support 
professionals--should require that staff members be qualified to meet 
early literacy standards according to their roles and responsibilities.
    <bullet> Improved pre-service education and professional 
development to prepare and support professionals to meet increased 
demands and challenges associated with high quality early literacy 
education. Includes--
    <bullet> Knowledge of how young children learn, (including brain 
research) and how they are best taught.
    <bullet> Knowledge, respect, and support for the diversity of 
children's families, cultures, and linguistic backgrounds are important 
to early literacy Know:
    <bullet> The ability to integrate and build on all of the domains 
of a child's development--physical, social-emotional, cognitive, 
language--to foster literacy development.
    <bullet> The ability to work collaboratively with a variety of 
professionals and social agencies to meet children's needs
    <bullet> Effective and prudent use of television, digital media at 
home and in school settings--area that many are still struggling to 
understand
    <bullet> Effective use of technologies in professional development
    Note: The above must be considered in terms of the context in which 
many early childhood educators work. Low wages, stress, and the need to 
support the literacy levels of some early childhood educators have 
implications for the success of professional development.

    Question #4. What did my work, as an evaluator of Early Reading 
First, reveal about what needs to be done to improve federal efforts?

    My work with Early Reading First largely confirmed the 
recommendations already offered. For the most part, I saw exceptionally 
effective early childhood programs with a high degree of emphasis on 
early literacy. Clearly, the quality of instruction was grounded in 
high quality professional development, effective use of literacy 
coaches, and the collaborative efforts of all staff members. My hope is 
that we might learn from ERF in the following areas:
    Assessment, used wisely, can be a catalyst for positive change. 
Because ERF is a federally funded project, assessment received major 
attention. My hope is that we can distill what was learned from ERF to 
determine more effective and efficient ways to monitor children's 
ongoing progress. Particular emphasis should be placed on authentic 
types of assessment that help teachers and caregivers make use of what 
they learn and offer guidance for professional development.
    Family literacy remains an area in need of more inquiry and 
application of what is known to be effective. What families know and do 
has direct impact on young children's language and literacy 
development. The need is particularly critical in areas where children 
have the greatest need.
    Professional development (includes all personnel and the selection 
and training of literacy coaches)--Quality support for children's 
development rests in the hands of the adults that care for them. 
Effective professional development that is informed by evidence, a 
shared vision of expectations, and supported by sufficient resources, 
will produce the quality of early education that all children deserve.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Ms. Dore?

    STATEMENT OF MARY KAY DORE, DIRECTOR OF STUDENT SUPPORT 
                SERVICES, SUMMIT SCHOOL DISTRICT

    Ms. Dore. Good morning, Chairman Kildee, Ranking Member 
Castle, Representative Polis and members of the subcommittee. 
Thank you for this opportunity to speak to you today. First 
time doing this.
    I am Mary Kay Dore, District Student Support Services 
Manager in Summit School District located in Frisco, Colorado. 
I am honored to share some of the work that we have done in 
Summit School District over the past 3 years in regards to 
improving instructional practices and achieving positive gains 
for students in literacy and learning.
    Summit County is a rural resort district located 70 miles 
west of Denver in the 10-mile range of the Rocky Mountains. Our 
year-round population is approximately 25,000 residents, but 
during high tourist season the county's population can swell 
upwards of 100,000. The county has experienced growth in the 
past decade and an increase in diversity of our resident 
families.
    In 1995, there were 40 students whose native language was 
not English. In 2009, we have 864 students who speak 24 
different languages. The predominant first language for these 
students is Spanish. Poverty has also increased. In 2000, 354 
students qualified for either free or reduced lunch. In 2009, 
949 students qualified for the assistance.
    As we experienced growth in our community and 
diversification, our district saw a decline in its standardized 
test scores. As school district officials examine new student 
data, they realized the need for change in some of their long-
held practices.
    They refused to attribute lower test scores to students who 
didn't speak English well enough or whose parents were 
struggling financially. It wasn't the child's fault; it was the 
school's practices that needed to improve.
    In 2001, we formed a district instructional team or I-team, 
which included the district staff in areas of literacy, ELA, 
gifted and talented, IB, special education and technology to 
focus on students who continue to struggle academically even 
with parent involvement and school support services. We were 
inspired to challenge our own status quo and develop a Summit 
County system of multi-tiered supports for students.
    Following several years of internal fine-tuning and cross-
departmental process planning, we established a new system with 
four components we believe hold the key to improved instruction 
in student achievement.
    Number one, using formative and summative assessment data 
to drive instruction and interventions. Number two, focused 
collaborative time for teachers to discuss data, instruction 
and students. Number three, discrete progress monitoring of 
student achievement. And number four, professional development 
that is linked to that identified student need.
    This system, called response to instruction, instead of 
response to intervention, emphasized the importance of 
instruction. The team worked with the school's teachers to 
create a framework and mechanism for responding to student 
needs.
    Once every quarter the staff reviewed a body of evidence on 
each student regarding their academics and assessed who was at 
grade level and who needed further conversation. The principal 
carved out time during the school day for grade levels of 
teachers to work with their building specialists for an hour a 
week rotating through all grade levels, preschool through fifth 
grade in a 3-week rotation cycle.
    During this grade level collaborative time, universal 
screening data was reviewed and the results from formative and 
summative assessments. This gave the team the opportunity to 
look at students beyond their label and flexibly group students 
by need, even across grade level.
    This cross-departmental approach matched the professional 
with the best skills for addressing each student's needs. Data 
from benchmark assessments were critical elements of this 
process. Teachers learned how to use the data with confidence 
when discussing a student's progress with their parents.
    It helped parents better understand their child's literacy 
skills and what parents could do at home to help. Teachers use 
the data with their student to share their progress and buy 
into their learning. Literacy resource teachers also developed 
a document that housed all literacy data for a class that was 
easy to reference as shown in Appendix F.
    The school shifted to a culture of problem solving. 
Teachers began to load their toolboxes with research-based 
literacy strategies and supplemental programs for the direct 
student needs for universal, targeted and intensive levels of 
instruction. Student results were continually monitored 
determining if progress had been sufficient and if 
interventions needed to be continued or altered.
    This collaborative time and multi-tiered system of support 
structure has helped the staff continue the educational 
practices that were effective and allowed them to let go of 
programs that didn't produce results. As shown in Appendix D, 
since RTI began at Upper Blue Elementary in 2007, the school 
has consistently seen results on the Colorado reading 
assessment that outpace the district and state averages.
    As we continue today's discussion on literacy of children, 
I want to leave you with a few reflections based off my work in 
the field. First, I want to applaud you, and thank you for your 
focus on literacy and literacy instruction.
    Second, I know that we need to work with teachers in 
preparatory programs. Teachers new to the field need to 
understand systems of multi-tiered support, principles of the 
problem-solving process and be well-versed in the five 
components of literacy, including oral language development and 
its effective instruction.
    Third, schools need to shift to a systems way of thinking 
beginning with a strong universal tier of instruction that is 
linked to state standards and district curriculum. Teachers 
need time to look at data, discuss students and plan 
interventions or extensions to track their effectiveness in a 
continuous improvement cycle. This system must be able to 
discuss many computing topics. Teachers have more to complete 
with less time. We need to make the time they have more 
effective.
    Finally I have also learned that just having three-ringed 
binders on how to do something does not change a system. 
Leadership that supports cultural changes and a strong 
instructional focus are essential for continuous improvement.
    With looming budget cuts in the state of Colorado the 
already limited amount of time we have currently for teacher 
professional development and collaborative work time will 
become an increasingly difficult practice to support.
    We need to provide a setting that works for children, one 
for time and support to schools and districts so that they can 
focus on instruction, particularly in the area of literacy. We 
need to make changes if we are going to impact our children. 
And after all, isn't that our purpose? Thank you for the 
opportunity to share some of our successes.
    [The statement of Ms. Dore follows:]

Prepared Statement of Mary Kay Dore, District Student Support Services 
              Manager, Summit School District, Frisco, CO

    Good morning. Chairman Kildee, Ranking Member Castle, 
Representative Polis and members of the subcommittee thank you for this 
opportunity to speak to you today. I am Mary Kay Dore, District Student 
Support Services Manager in Summit School District located in Frisco, 
Colorado. I am honored to share some of the work we've done in Summit 
School District over the past few years in regards to improving 
instructional practices and achieving positive gains for students in 
literacy and learning.
Background of Summit School District
    Summit County is a rural resort district that is located 70 miles 
west of Denver in the Ten Mile Range of the Rocky Mountains. The county 
sits high in the Rockies at about 9,000 feet. We are home to 4 world 
class ski resorts and many other outdoor activities that attract year 
round visitors. Our year round population is approximately 25,000 
residents, but during high tourist season the county's population can 
swell upwards of 100,000. The county has also experienced a great deal 
of growth in the past several decades, and with that has come an 
increase in the diversity of our resident families. In 1995, the 
district had a total of 40 students whose native language was other 
than English. Fourteen years later, in 2009, we have 864 students who 
speak 24 different languages. The predominant first language for these 
students is Spanish. The changes in poverty echo the same trend--in 
2000, 354 students qualified for either free or reduced lunch; in 2009, 
949 students qualified for the assistance.
    Summit School District serves six towns and a little over three 
thousand students at our nine preschool programs, six elementary 
schools, one middle school, one high school, and three alternative 
programs which include diploma outreach and programming for students 
who are at risk of being expelled. Within our six elementary schools we 
have two schools that qualify for Title I Program assistance, one of 
which is a dual language school. The district is working toward full 
district authorization in the International Baccalaureate Programme. 
Summit County Schools has also been chosen as one of six districts 
statewide to participate in the Colorado Department of Education's 
CTAG, or Closing the Achievement Gap program, to address our higher 
than-state-average gap of English and non-English speaking student 
achievement.
Changes in instructional practice
    As we experienced growth in our community and an increase in our 
diversity, our district saw a decline in its standardized test scores. 
As school district officials examined new student data, they realized a 
need to change some of their long held practices. They refused to 
attribute lower test scores to students who didn't speak English well 
enough, or whose parents were struggling financially. It wasn't the 
children's fault; it was the schools' practices that needed to improve.
    The district first adopted a core literacy program K-6 and 
empowered literacy resource teachers to examine student performance on 
common literacy assessments. Two key questions surfaced:
    Why were some students making progress in the area of literacy 
while others were not?
    What could we change for the students not making the progress we 
would expect?
    In 2001, we formed a district Instructional Team, or Iteam, which 
included the district staff in the areas of literacy, ELA, gifted and 
talented, IB, special education and technology to focus on students who 
continued to struggle academically even with parent involvement and 
school support services. After listening to national leaders and 
speakers in literacy and language development, early intervention for 
at-risk students, and Response to Intervention, we were inspired to 
challenge our own status quo and develop a Summit County system of 
multi-tiered supports for students.
    Following several years of internal fine tuning and cross 
departmental process planning, we established a new system with four 
components we believe hold the key to improved instruction and student 
achievement:
    <bullet> Using formative and summative assessment data to driven 
instruction and interventions
    <bullet> Focused collaborative time for teachers to discuss data, 
instruction, and students
    <bullet> Discrete progress monitoring of student achievement
    <bullet> Professional development linked to identified student need
    This system, which we called Response to Instruction instead of 
Response to Intervention to emphasize the importance of instruction, 
began its implementation at Upper Blue Elementary. The team worked with 
the school's teachers to create a framework and mechanism for 
responding to student needs. Once every quarter the staff reviewed a 
body of evidence on each student regarding their academics. Teachers 
looked at students who were at grade level and those who needed further 
conversation. The principal carved out time during the school day for 
grade levels of teachers to work with their building specialists; 
literacy, English language acquisition, special education, counselors 
and their building principal for an hour week, rotating through all of 
the grade levels preschool through fifth grade in a three week rotation 
cycle.
    During this grade-level collaborative time the team would review 
the universal screening data and results from formative and summative 
assessments. This gave the team the opportunity to look at students 
beyond their ``label (special ed, ELL, ILP)'' and flexibly group 
students by their individual needs, even across grade levels. This 
cross departmental approach matched the professional with the best 
skills for addressing each student's need.
    Data from benchmark assessments were critical elements of this 
process. Teachers learned how to use the data with confidence when 
discussing a student's progress with their parents. It helped parents 
understand their child's current literacy skills and what parents could 
do at home to help. Teachers were even using data with their students 
so students could see their progress and buy-in to their own learning. 
Literacy resource teachers developed a document that housed all 
literacy data for a class that was easy to reference. See Appendix A.
    The teachers at Upper Blue also shifted to a ``culture of problem 
solving.'' One teacher reflected that it allowed her to look at all 
students in her classroom which impacted her daily instruction and made 
her differentiate and use a variety of literacy strategies, including 
small groups, centers, read aloud, writers workshop and other 
strategies based on the needs of her students. The problem solving 
process also held her accountable for the fidelity of interventions and 
student results. This contributed an increased awareness of the need 
for differentiated instruction based on a guaranteed and viable 
curriculum that was grounded in sound instructional practice. As 
teachers worked together they strengthened their understanding of 
essential learning outcomes, linked to the state standards and 
curriculum, and most importantly how they could support all students.
    An important change that we observed was that fewer students were 
being referred for a special education evaluation. As the teams worked 
together, looking at student data, intentional interventions and their 
results, referrals became more focused; evaluations for learning and 
other disabilities now included a discussion about the need for the 
sustained intensity and duration of the interventions that were 
currently occurring with students.
    Teachers began to load their ``tool boxes'' with research-based 
literacy strategies and supplemental programs that addressed students' 
needs through universal, targeted, and intensive levels of instruction. 
Student results were continually monitored, determining if progress had 
been sufficient, and if interventions needed to be continued or 
altered. This collaborative time and multi-tiered system of support 
structure has helped the staff continue the educational practices that 
were effective and allowed them to let go of the program that didn't 
produce results.
    As shown in Appendix B, since RTI began at Upper Blue Elementary in 
2007, the school has consistently seen results on the Colorado reading 
assessment that outpace the district and state averages. At present, 
reading scores are higher than the writing scores; however, the 
building staff has been working on common writing benchmark assessments 
and writing samples that will better assess student's writing needs.
District wide work
    The district has also seen a great deal of success in implementing 
this systemic reform. For many buildings this is the first year they 
are formally beginning the school wide initiative. The Middle School 
has started to track trends, allowing it to enact innovative programs 
such as a group that engages Latino boys with the school, increasing 
their engagement and achievement. Teachers are experiencing a paradigm 
shift of moving from the ``I taught it'' point of view to the ``They 
learned it'' philosophy. At administrative team meetings principals are 
beginning to share their school data to help build professional 
development offerings for all staff members in the district. Dillon 
Valley, our dual language elementary school, is using its data in both 
English and Spanish to build appropriate interventions to increase 
student achievement. Also, our two Title I program assistance schools 
have implemented before and after school intervention groups, summer 
programming, and literacy and math nights for parents to help impact 
student achievement. The increase of systems thinking has altered the 
way we look at our students, our expectations for them and how we can 
make the difference.
Reflections
    As we continue today's discussion on the literacy skills of 
children, I want to leave you with a few reflections based on my work 
in the field.
    First, I want to applaud my own Congressman Jared Polis and 
Congressman Yarmuth for introducing H.R. 4037, the LEARN Act, which 
will hopefully give districts across the nation the much-needed 
resources to implement intensive, multi-tiered support systems for 
literacy just like the one we have implemented at Upper Blue Elementary 
School and in other Summit County schools.
    Second, I know that we need to work with teachers in higher 
education. Teachers new to the field need to understand systems of 
multi-tiered support. They need to understand the principles of the 
problem solving process when it comes to students. They need to be well 
versed in the five components of literacy, including oral language 
development and its effective instruction.
    Third, schools need to shift to systems thinking to make any 
sustainable change. This process begins with a strong universal tier of 
instruction that is linked to state standards and district curriculum. 
Additionally there needs to be systems in place that allow teachers 
time to look at data, discuss students, and plan for interventions or 
extensions and track their effectiveness in a continuous improvement 
cycle. Even though we have placed a priority on literacy, the system 
must be able to discuss many competing topics: math, behavior, science, 
bullying, and inquiry based instruction, wellness, and 21st century 
skills, just to name a few. Teachers have more to accomplish with less 
time. We need to make the time they have effective.
    And finally, I also have learned that just having binders on how to 
do something does not change a system. Leadership at the school 
building level that supports cultural changes and a strong 
instructional focus are the essential components to guide this 
difficult process of continuous improvement. With looming budget cuts 
in the State of Colorado, the already limited amount of time that we 
have currently for teacher professional development and collaborative 
work time will become an increasingly difficult practice to support. We 
need to provide the setting that works for children--one of time and 
support--to schools and districts so that they can focus on 
instruction, particularly in the area of literacy. We need to make 
changes if we are going impact our children and after all, isn't that 
our true purpose?
    Thank you for the opportunity to share some of our successes
                                 ______
                                 
    Chairman Kildee. Okay, thank you very much, Ms. Dore.
    Mr. Henriquez?

   STATEMENT OF ANDRES HENRIQUEZ, PROGRAM OFFICER, CARNEGIE 
                    CORPORATION OF NEW YORK

    Mr. Henriquez. Good morning. Chairman Kildee, Ranking 
Member Mike Castle and members of the subcommittee, thank you 
for inviting me to speak today. My name is Andres Henriquez, 
and I serve as Program Officer at Carnegie Corporation of New 
York which is a philanthropic organization established in 1911 
by Andrew Carnegie to deal with real and permanent good in this 
world.
    I am particularly proud to be serving at Carnegie 
Corporation as the foundation nears its 100th year as a 
philanthropy. Carnegie Corporation's name has been practically 
synonymous with literacy for close to a century. The 
foundation's legacy includes over 2,000 free public libraries 
established by Andrew Carnegie.
    We also funded the development and initial production of 
the PBS television series ``Sesame Street,'' now celebrating 
its 40th anniversary. Today I will speak to you about our 
recent initiative called Advancing Literacy which is working to 
expand knowledge and practices in literacy beyond third grade.
    Our work has shown that strong literacy skills beyond grade 
three is the cornerstone for success in high school and for 
college readiness and beyond. This insight grows out of an 
earlier initiative to reform high schools which we funded with 
the Bill and Melinda Gates Foundation.
    The high school reform work which was aimed at promoting 
systemic and district-wide reform in seven urban communities 
produced a critical, if unexpected, finding. Almost half of the 
entering ninth graders were reading several years below grade 
level.
    It became clear that the kinds of outcomes we wanted to 
achieve from this initiative, higher graduation rates, more 
students going on to college, more students taking advanced 
placement courses, were going to be difficult to achieve 
because of students' low literacy levels.
    The problem was not limited to these seven districts. In 
fact, I learned that eighth-grade reading scores had not 
improved in more than 30 years, and 70 percent of entering 
ninth graders were reading below grade level.
    Simply put, these high school students were not 
understanding or engaging with text. We discovered that 
struggling readers represent a substantial proportion of 
students who are dropping out of our high schools. As fourth 
graders, their scores are among the best in the world. By 
eighth grade, their scores are much, much lower. By the time 
they get to tenth grade, U.S. students' score are among the 
lowest in the world.
    The surprising conclusion from this work was that good 
literacy, early literacy especially instruction does not 
inoculate students against struggle or failure later on. And 
let me just say, while the issue is exacerbated by poverty and 
is particularly prevalent in poorer urban districts, the 
comprehension problem is also common in middle class suburbs, 
exurbs and rural areas throughout our country.
    This is a problem in every single one of your districts. It 
is clear from our nation's report card that too few students 
are reading at the most advanced level. And many students who 
do graduate from high school are not prepared for college 
coursework.
    This lack of strong literacy skills is so widespread that 
many colleges and universities have introduced remedial reading 
programs for the large numbers of freshmen unable to cope with 
the quantity and complexity of college level work.
    Seventy percent of students who take one or more college 
remedial reading course do not attain a degree or certificate 
within 8 years of enrollment.
    And this handicap extends into our workforce. Private 
industry estimates that it now spends as much as $3.1 billion 
per year to bolster the writing skills of entry-level workers. 
President Obama has pledged that by the year 2020, we will have 
the highest percentage of college graduates in the world.
    We have done a great job convincing nearly every high 
school student in the land that with a college degree comes the 
promise of career success. But it is all meaningless if those 
high school graduates don't have the fundamental literacy 
skills to succeed.
    So where does this leave us? We had thought, or hoped, that 
if you work to get a student to read with proficiency by fourth 
grade, you could call it success, and move on. If they weren't 
proficient by fourth grade, you would prevail upon that hope 
and that they would catch up in later grades.
    Yet, it is after the fourth grade that far greater demands 
are placed on student's literacy skills, and far less time is 
spent teaching literacy proficiency. At this point, students 
are no longer learning to read, but they are reading to learn. 
And that is what led us to create the Advancing Literacy 
initiative.
    The goal has been to target reading for young people in 
grades 4 through 12. Since then we have established and built 
research, policy and practice specifically in adolescent 
literacy. Our reports and our studies have created a body of 
work to better understand the literacy needs of our students.
    So why do we have this problem of adolescent literacy to 
begin with? Middle and high school students must decipher much 
more complex passages, and synthesize information at high level 
and learn to form independent conclusions based on evidence. 
They must develop special skills and strategies for reading 
text in each of the different content areas including science, 
math and history.
    The demands of literacy change and intensify quickly after 
fourth grade, text is longer and more complicated and 
vocabulary is more specialized. Additionally, students must 
grapple with the increasing importance of comprehending graphic 
representations, particularly in science and mathematics.
    There is also infrastructural issues. There is a shortage 
of qualified literacy experts to coach and teach students and 
teachers in middle grades and high schools. Teachers will argue 
that they are not literacy teachers, but teachers of content. 
So it is difficult for content area literacy instruction to 
take place.
    There is a decrease in student motivation to read as 
children progress from fourth grade through 12th grade. And 
middle and high schools are not accustomed to using assessments 
to identify, and target students who need literacy assistance.
    So what can we do? Over the last 40 years, our nation's 
adolescent literacy rates have been stagnant. Recent success in 
improving early literacy is a very good start, but good early 
literacy is only a foundation, not the whole structure. We must 
re-engineer our nation's schools to support adolescent learning 
and ambitious goals for literacy for all. And this is how we 
can get there.
    First, increase Title 1 support for middle schools and high 
schools. At the moment, only 5 percent of federal Title 1 funds 
go to middle and high schools. If the nation is to remain 
competitive, we must increase our high school graduation and 
college going rates among our most disadvantaged students. An 
infusion of resources at the secondary level focused on higher 
levels of literacy is critical to making this happen.
    Second, establish fewer clearer higher common standards. 
This will help to increase attention to reading and writing 
especially focus on comprehension that can be embedded in other 
content areas.
    Third, fully fund and expand a comprehensive pre-K through 
12 literacy continuum with specific support allocated for 
grades 4 through 12. Last week, the LEARN Act was introduced 
and was the first critical step to meet recommendations at the 
federal level.
    We acknowledge the work of Chairman Miller, Representatives 
Polis and Yarmuth for introducing this promising piece of 
legislation.
    Fourth, investigate the cost and benefits of linking the 
nation's report card to international literacy tests. While 
NAEP has been indispensible in tracking America s educational 
progress, it provides no sense of how America stands in 
relation to other nations.
    Funding and efforts to equate long-term NAEP trends with 
international literacy tests such as PISA and PROSE would allow 
us to get an instant snapshot of how our young people are 
performing vis-a-vis the rest of the world. And finally, 
increase federal funding for evidence-based research for 
adolescent literacy.
    We need to intervene and individualize instruction with 
students as soon as they have begun to lose ground. We need 
increased government-funded research at NICHD and IES that 
could demonstrate how best to assess adolescents in order to 
determine their need for intervention and support.
    In conclusion, the status quo in middle school and high 
schools in America is no longer acceptable. It is based on a 
20th century vision of the literacy skills which no longer 
guarantee success after high school.
    High school graduates today face higher expectations in the 
new global economy than ever before. I thank you for your time.
    [The statement of Mr. Henriquez follows:]

        Prepared Statement of Andres Henriquez, Program Officer,
                    Carnegie Corporation of New York

    ``The generation that is in school now, and those who will follow 
them are the people who will envision the future of our nation and 
chart our course through the 21st century and beyond. We owe it to them 
and to ourselves to ensure that they can read, write and learn at a 
high level in every classroom and every school, college and university 
throughout the United States.''
                               Vartan Gregorian, President,
                                  Carnegie Corporation of New York.
Overview
    Throughout the history of Carnegie Corporation, its presidents have 
been engaged with literacy. Andrew Carnegie's legacy includes over 2000 
free public libraries that he saw as a link ``bridging ignorance and 
education.'' Access to books and the explicit teaching of reading are 
two ways in which literacy is fostered. From the 1930's to the 1960s 
reading was increasingly taught through methods that concentrated on 
``whole words'' (or whole language), using sentences and stories that 
were closely geared to children's interests. Surprisingly, the teaching 
of reading became an intensely debated national issue in 1955, when 
Rudolf Flesch's Why Johnny Can't Read And What You Can Do about It 
(Harper) moved onto a national best-seller list. Flesch charged that 
the neglect of phonics instruction had caused a national crisis in 
literacy and that ``whole language'' was based on a flawed theory that 
required children to memorize words and guess how to pronounce a word 
they did not know, instead of sounding out the word. The ``look-say'' 
or whole-word method had swept the textbook market, despite the fact, 
Flesch alleged, that it had no support in research.
    Carnegie Corporation President John Gardner (1955-1967) saw the 
debate about reading as central to the foundation's interests, writing 
in a 1959 Annual Report, ``The question of whether Johnny can or cannot 
read-if so why, if not why not-has probably given rise to more hue and 
cry throughout the land than any other single educational issue. There 
are those who claim that today's youngsters cannot read as well as 
their parents did at their age; others state the situation is actually 
reversed. Proponents of one or another method of reading argue 
vociferously for their method and heap scorn upon other methods. 
Wherever the truth lies, it's not yet obvious, and any research which 
may shed light on this complicated problem will be to the good.'' 
Following this logic, the Corporation soon funded a key grantee, Jeanne 
Chall of the City College of New York, to help ``settle'' the reading 
debate.
    Chall spent three years visiting classrooms, analyzing research 
studies, examining textbooks and interviewing authors, reading 
specialists and teachers. She found substantial and consistent 
advantages for programs that included systematic phonics, finding that 
this approach was particularly advantageous for children from lower 
socioeconomic backgrounds. In 1967, Chall collected her Corporation-
supported research and published Learning to Read: the Great Debate 
(Chall, 1967), which became a classic. Later, after moving to Harvard 
University, Chall developed a conceptual framework for developmental 
reading stages that extended from the pre-reading stage of very young 
children to the highly sophisticated interpretations of educated 
adults. Chall's reading stages clearly distinguished ``learning to 
read'' from ``reading to learn;'' she also identified and named the 
``fourth grade slump.''
Advancing Literacy Initiative
    The Corporation's distinguished history in support of literacy--
some of which is described above--has recently extended from pivotal 
initial support for the Emmy award-winning PBS series Between the 
Lions, to the work of the International Development Division in 
strengthening libraries in sub-Saharan countries in Africa. As always, 
our work in this area includes a concern with access to books, the 
search for better methods of teaching reading, and building a body of 
knowledge about the developmental issues associated with early 
childhood and adolescence. Taking all these factors into account, 
Carnegie Corporation came to its current focus on literacy with 
enormous comparative advantage. Indeed, to many people, the name 
Carnegie Corporation is associated with the very foundations of 
literacy going all the way back to the philanthropy of Andrew Carnegie 
himself and of the Corporation in its early years; both were 
instrumental in helping to create the nation's network of free public 
libraries.
    The Corporation's Advancing Literacy Initiative was developed after 
an extensive two-year review that included consultations with the 
nation's leading practitioners and researchers. We learned that the 
teaching of reading in K-3 is well supported with research, practice 
and policy, but that these are lacking for grades beyond this point. In 
2002, Carnegie Corporation commissioned RAND to convene a small group 
of scholars and policy analysts to discuss the then-current state of 
research on adolescent literacy and help lay the groundwork for a long-
term effort directed toward supporting and improving the literacy 
skills of adolescent students in our nation's schools. The resulting 
task force on adolescent literacy produced a ``briefing book'' that 
identified and examined several topics relevant to adolescent literacy 
about which more thinking was needed.
    Despite the recognized importance of specialized literacy skills 
for adolescents, the knowledge base on this issue was at that time 
relatively small, with school instruction relying more on intuition 
than solid evidence and the institutional dissemination of best 
practices. Notable earlier reports, including Preventing Reading 
Difficulties in Young Children (Snow, Burns & Griffin, 1998) and the 
Report of the National Reading Panel (National Reading Panel Report, 
2000), had offered strong arguments and recommendations for systematic 
literacy instruction in the primary grades even though international 
comparisons suggested that the performance of American children in the 
primary grades had long been comparable to that in other developed 
nations (Martin, Mullis, Gonzalez, & Kennedy, 2003). The specific 
challenges of adolescent literacy and learning had been comparatively 
ignored in favor of the ``inoculation'' model of literacy instruction, 
wherein later problems are avoided through early efforts at prevention.
    The RAND Task Force delivered its briefing book to the Advisory 
Council on Advancing Adolescent Literacy (ACAAL), an enlarged group 
established by the Corporation, in 2004. ACAAL members then took on the 
task of working out how to expand knowledge about the topics identified 
in the briefing book by overseeing (and in some cases themselves 
producing) synthetic reports and white papers. Some of these early 
reports were widely distributed and have received considerable 
enthusiasm. ACAAL commissioned a substantial list of reports and small 
studies focused on issues as varied as comprehension assessment, out-
of-school learning, second language learners' instructional needs, 
writing in adolescence, literacy in the content areas, and standards 
for adolescent literacy coaching (see Appendix A for a complete listing 
of books and reports from the initiative). Members of ACAAL also 
contributed to teams that produced a variety of guides for policy 
makers including governors, state school boards, principals, 
superintendents, district school boards, and curriculum developers, and 
participated in adolescent literacy summits organized and promoted by 
the Alliance for Excellent Education.
    Therefore, we have chosen to focus our efforts on intermediate and 
adolescent literacy, to build research, practice and policy for 
literacy in students in grades 4 through 12. Our decision is informed 
by our grantmaking, which has helped us and the nation learn a great 
deal about children in their early, middle and adolescent years of 
development, as well as about teaching and learning and the complexity 
of school reform. What has become evident is that good school reform 
and knowledge of adolescent development are not mutually exclusive: 
they go together.
    During the last twenty years our nation's educational system has 
scored some extraordinary successes, especially in improving the 
reading and writing skills of young children in grades K-3. Yet the 
pace of literacy improvement has not kept up with the pace of growth in 
the global economy, and literacy gains have not been extended to 
adolescents in the secondary grades.
    Overall, we are failing to create highly literate, college-ready 
adults with the literacy skill sets that qualify them for employment in 
the new global knowledge economy. The most recent data shows poor 
performance by U.S. students compared to many other nations (UNESCO 
Institute for Statistics, 2007). Although U.S. students in grade four 
score among the best in the world, those in grade eight score much 
lower. By grade ten, U.S. students score among the lowest in the world.
    In addition, many of our high school graduates are not prepared for 
college-level coursework, a widespread problem that has impelled most 
colleges and universities to introduce remedial reading programs for 
the large numbers of freshmen unable to cope with the quantity of 
reading assigned to them college classrooms (NCES, 2001, 2003). 
Likewise, estimates indicate that private industry now spends up to 3.1 
billion USD (National Commission on Writing, 2004) per year to bolster 
the writing skills of entry level workers. Part of the problem is that 
societal demands for high levels of literacy have increased 
dramatically: ``The skills required to earn a decent income have 
changed radically. The skills taught in most U.S. Schools have not'' 
(Murnane & Levy, 1996)
    In other words, our adolescents are not being adequately prepared 
for the demands of higher education, employment and citizenship in the 
21st Century (American Diploma Project, 2004; Center on Education 
Policy, 2007; Lee, Grigg, & Donahue, 2007; Perie, Grigg, & Donahue, 
2005). It is a well-publicized fact that young people who fail or 
under-perform in school are increasingly likely to suffer from 
unemployment or drastically lower income levels throughout their lives 
(e.g., OECD, 2007).
    The Corporation is by helping to build the nation's capacity to 
teach and strengthen reading comprehension skills, with a special focus 
on grades 4 through 12, i.e., ages 9 through 17. Therefore, we refer to 
this effort as intermediate and adolescent literacy. The Corporation 
begins from a position of comparative advantage, having established a 
knowledge base of theory and effective practice in early learning and 
education systems reform.
    The marketplace for employment is governed by a new knowledge-based 
economy, requiring better educated, highly literate and technologically 
fluent high school graduates. The causes of the weakness in 
intermediate and adolescent literacy are poorly understood, but current 
research suggest several reasons why students do not maintain the gains 
they make in earlier grades:
    <bullet> A shortage of qualified literacy experts who can coach and 
teach literacy for students and teachers in the middle grades;
    <bullet> A lack of capacity, time and will for middle and high 
school teachers to teach literacy within their content areas;
    <bullet> A lack of reinforcement of comprehension of 
``informational text'' in early reading;
    <bullet> A lack of strategies at the end of the third grade for 
pupils to deal with a rapid shift from narrative text to expository 
text;
    <bullet> A lack of systemic thinking in schools about literacy 
beyond age eight;
    <bullet> Decrease in student motivation to read as children 
progress from fourth grade through twelfth grade;
    <bullet> Middle and high school designs that lack the capacity to 
identify and target students that need literacy assistance;
    <bullet> Little awareness by parents and community groups that 
literacy instruction needs to continue after children have learned the 
basic skills of decoding words and following a simple narrative.
    We believe there is strong evidence that schools with a focus on 
literacy (reading and writing) are associated with improved academic 
performance and successful academic outcomes for students. At the 
Corporation, we are making grants aimed at having a profound influence 
on adolescent literacy by directing national attention to the issue, 
bringing together the best talent in the field to address the issue, 
and supporting needed research and innovative practices (See Carnegie 
Council on Advancing Adolescent Literacy Time to Act: An agenda for 
advancing adolescent literacy for college and career readiness and 
other corresponding reports at: http://www.carnegie.org/literacy/tta).
    Good early literacy instruction does not inoculate students against 
struggle or failure later on. Beyond grade 3, adolescent learners in 
our schools must decipher more complex passages, synthesize information 
at a higher level, and learn to form independent conclusions based on 
evidence. They must also develop special skills and strategies for 
reading text in each of the differing content areas (such as English, 
Science, Mathematics and History)--meaning that a student who 
``naturally'' does well in one area may struggle in another.
    We have a strong knowledge base of reading instruction for grades 
K-3. However, literacy supports for adolescents present greater 
instructional challenges and demand a range of strategies. Middle and 
high school learners must learn from texts which, compared to those in 
the earlier grades are significantly longer and more complex at the 
word, sentence and structural levels, present greater conceptual 
challenges and obstacles to reading fluency, contain more detailed 
graphic representations (as well as tables, charts and equations linked 
to text) and demand a much greater ability to synthesize information.
    Also, each content-area has its own set of literacy skills that 
students are required to master before they can move fully from 
``learning to read'' to ``reading to learn.'' Adolescents who fail to 
master these more complex tasks in their learning process are likely to 
become unskilled workers in a world where literacy is an absolute 
precondition for success.
    This is particularly true in mathematics and science. The Carnegie 
Corporation of New York--Institute for Advanced Study Commission on 
Mathematics and Science Education report, The Opportunity Equation: 
Transforming Mathematics and Science Education for Citizenship and the 
Global Economy (www.OpportunityEquation.org), advocates for expanding 
Science Technology Education and Mathematics (STEM) education by 
educating significantly more students to be STEM-capable for college 
readiness rather than viewing STEM as subjects offered only to the 
highest achievers. The Commission also recommended reframing STEM to be 
a catalyst for the kinds of education reform that is needed to 
accelerate the development of rigorous curricula, improved teaching 
practices, and high quality assessment and accountability measures.
    However, reading scientific texts pose specialized challenges to 
inexperienced and struggling readers. For example, scientific research 
reports include abstracts, section headings, figures, tables, diagrams, 
maps, drawings, photographs, reference lists and endnotes. Science 
textbooks usually include similar elements. Each of these elements 
serves as a signal as to the function of a given stretch of text and 
can be used by skilled readers to make predictions about what to look 
for as they read, but consider the situation of an adolescent reader 
confronted for the first time by such texts and trying to make sense of 
them using the basic decoding tools acquired in ``learning to read.''
    Comprehension of scientific texts also often requires mathematical 
literacy, or an ability to understand what mathematical tables and 
figures convey. It is not uncommon for such figures and tables to 
invite multiple points of view or to open up questions that are not 
posed directly in the text (Lemke, 1998). Many scientific texts also 
require visual literacy, using diagrams, drawings, photographs and maps 
to convey meanings.
    Similarly, mathematics textbooks can serve as a significant barrier 
for students who are struggling readers. ``It is a myth that 
mathematics and math-dependent majors in college do not require strong 
reading and writing skills. Students have to be able to comprehend 
complex informational text so they can identify which mathematical 
operations and concepts to apply to solve a particular problem'' (Lee & 
Spratley, 2010). In order to integrate reading and writing instruction 
successfully into the academic disciplines, district, state and federal 
policymakers must:
    1. Define the roles and responsibilities of content area teachers 
clearly and consistently, stating explicitly that it is not those 
teachers' job to provide basic reading instruction;
    2. Members of every academic discipline define the literacy skills 
that are essential to their content area and which they should be 
responsible for teaching;
    3. All secondary school teachers receive initial ongoing 
professional development in teaching the reading and writing skills 
that are essential to their own content area;
    4. School and district rules and regulations, education funding 
mechanisms, and states and accountability systems combine to give 
content area teacher positive incentives and appropriate tools with 
which to provide reading and writing instruction.
    The challenge is to connect reading and writing instruction to the 
rest of the secondary improvement agenda, treating literacy instruction 
as a key part of the broader effect to ensure that all students develop 
the knowledge and skills they need to succeed in college and careers 
(Heller & Greenleaf, 2007).
Re-Engineering Schools for Literacy
    After the investment of millions of dollars and the talents of the 
best and brightest reformers over decades of educational reform, it is 
now clear that urban schools cannot be successfully reformed without 
substantially changing the way school districts operate. The 
Corporation considers the redesigning of urban high schools to be a 
daunting challenge but also a promising target of opportunity for 
accelerating the pace of school district reform. This requires treating 
urban schools as a complex system rather than an aggregation of 
individual schools. School districts are embedded within communities 
that strongly influence their mode of operation. Therefore, school 
districts cannot succeed in addressing the problems of educating all 
students to high standards in isolation and must also employ community 
and organizational resources.
    Carnegie Corporation seeks to increase the number of promising 
school designs demonstrating substantial gains in student achievement 
and to build on those, in particular, that are addressing systemic 
barriers and demonstrating effectiveness at scale. New models of small, 
academically rigorous high schools developed with support from Carnegie 
Corporation and the Bill & Melinda Gates Foundation, which have 
significantly improved graduation rates of the schools they replaced, 
are outstanding examples of such designs. These schools, all of which 
have been developed with partnering higher education, cultural or 
community organizations and school development organizations, also 
include leadership and teacher recruitment and professional development 
components.
    New school designs aim to overcome the inherent weaknesses in urban 
schools and systems, which include low expectations, weak curricula, 
incoherent management approaches, limited talent pools and capacity-
building strategies, entrenched school models that prevent innovation, 
poor instructional practices and systems of support, and isolation and 
failure to benefit from external resources. To reinforce the 
development and sustainability of these new designs, it's essential to 
build up a sector of intermediary organizations, university centers, 
non-profit school and design developers, and research and demonstration 
organizations--some of which specialize in content areas like 
adolescent literacy or mathematics while others focus on leadership 
development and turning around low-performing schools.
    Without question, literacy is a critical component of learning and 
therefore of all new, improved school designs. In order to have 
``literacy for all'' we must also have a comprehensive agenda for re-
engineering America's schools that will support adolescent learners. 
Re-engineering for change at the school level must achieve the 
following:
    1. The school culture is organized for learning: Quality 
instruction is the central task that organizes everyone's work. Thus, 
teachers feel personally responsibility for student learning, and trust 
one another and the principal to support them in their work. Because 
there is a sense of participation in a professional community, 
decisions are made collaboratively and are based upon data. The staff 
strives for continuous, incremental improvement of student performance 
over time. The school provides optimal learning conditions 
characterized by a warm, inviting, and low-threat learning environment 
for students and for teachers. Students and teachers are well-known to 
and by each other.
    2. Information drives decisions: Student achievement data is that 
it drives decisions about instruction, scheduling, and interventions. 
District- and state-provided test data are used as appropriate for 
these decisions. In addition, the staff receives support in efforts to 
gather and analyze real-time data from team-developed formative 
assessments and uses that information to inform instruction and to 
target remediation. As a result, teaching and learning become a dynamic 
process based upon the current needs of all learners. Additionally, 
data are systematically archived so knowledge is accumulated over time 
regarding the effectiveness of programs and other innovations.
    3. Resources are allocated wisely: Time, energy, and materials are 
focused on areas deemed critical for raising student achievement. 
Scarce resources are distributed wisely according to student needs. The 
schedule allows time for teacher professional development and 
collaborative data analysis as part of regular work. There is also time 
in the schedule for supplementary instruction in smaller classes to 
bring struggling students up to grade level. Professional support 
(coaches, mentors) for promoting literacy skills is available to all 
content-area teachers.
    4. Instructional leadership is strong: The school's leadership 
works tirelessly to keep student learning the primary goal. Time and 
attention are distributed according to consensual importance. Leaders 
work in partnership with subject area specialists, literacy coaches and 
other skilled experts to ensure successful implementation of critical 
programs. The principal understands assessment data, knows struggling 
students and their teachers by name, creates effective internal 
accountability mechanisms, and manages both the instructional (i.e., 
curriculum, assessment, professional development) and the 
infrastructural (i.e., scheduling, budgeting) literacy needs of the 
school. A literacy leadership team is centrally engaged in designing, 
supporting, and overseeing the school's literacy work.
    5. Professional faculty is committed to student success: Teachers 
subordinate their preferences to student needs, participate willingly 
in professional development because it is focused on the challenges 
they are facing and is designed to improve their work, recognize the 
importance of literacy skills to content area learning, participate in 
vertical and grade-level teams, and work with colleagues and coaches in 
observing, describing, and analyzing instructional practice. Coaches 
participate in the professional community as colleagues rather than as 
evaluators or as administrators.
    6. Targeted interventions are provided for struggling readers and 
writers: Multi-tiered, scaffolded instruction helps students to build 
the skills and strategies they need for success. A logical progression 
of interventions is available, to which learners are assigned based on 
their differential needs. Those students lagging furthest behind 
receive intensive courses that provide explicit instruction on critical 
reading and writing skills and strategies with ample opportunities for 
scaffolded practice. Such scaffolding allows for acceleration and helps 
struggling students to tackle rigorous work. Courses aimed at 
overcoming specific reading difficulties, whether decoding, fluency, or 
comprehension are taught by teachers with specific expertise in 
reading. These courses do not replace instruction in English Language 
Arts or other content area classes, and whenever possible carry credits 
toward graduation.
    7. All content area classes are permeated by a strong literacy 
focus: Teachers naturally address literacy instruction as a normal part 
of the teaching and learning process. Core classes (math, science, 
language arts, social studies) have reading and writing (instruction 
and application) woven in throughout. Content-area teachers have a 
strong background in their content areas and a metacognitive 
understanding of the specific types of literacy skills these areas 
require. Teachers have strategies for teaching challenging content both 
to advanced readers and to struggling readers, by identifying critical 
course content, focusing on the big ideas, and delivering content in an 
explicit, learner-friendly way. The skills struggling readers learn in 
reading class are explicitly reinforced in content-area classrooms, and 
reading teachers use content area materials as a basis for practicing 
the reading skills they are teaching.
Recommendations
    While federal legislation historically has had a ``hands off 
approach to school-school based practices in the past, we have seen 
that a more active role, particularly around policies that have the 
potential to impact classroom practices based on sound research, can 
have indelible impact on teachers and a nation of readers (i.e. Reading 
First). Strong federal legislation, such as the LEARN Act, that support 
middle and high school to ensure many more of our young people graduate 
high schools and are well prepared for postsecondary education and the 
workforce are critical. A funding stream focused on middle and high 
schools should include the following:
    <bullet> Increasing Title I support for middle and high schools or 
creating a new funding stream. At the moment only 5 percent of federal 
Title I funds go to middle and high schools. If the nation is to remain 
competitive we must in increase high school graduation and college-
going rates among our most disadvantaged students. An infusion of 
resources at the secondary level focused on higher levels of literacy 
is critical to making this happen. As we have mentioned, an 
``inoculation'' in primary grades does not presume students will do 
well in secondary schools.
    <bullet> In a globalized economy we need world-class common 
standards and assessments. Common standards in English language arts 
will help to increase attention to reading and writing and especially 
focus on comprehension that can be embedded in other content areas. 
Common standards discussion will also accelerate the development of 
high quality assessments for secondary school students.
    <bullet> Fully fund and expand a comprehensive preK-12 continuum 
with specific support set aside for grades 4-12 adolescent literacy so 
that more students and their teachers have access to federal support. 
The ``Literacy Education for All, Results for the Nation Act'' or LEARN 
Act, specifically addresses this call to action.
    <bullet> Investigate the costs and benefits of linking the National 
Assessment of Educational Progress (NAEP) to international literacy 
tests, such as PISA and PIRLS. While NAEP has been an indispensable 
measure for tracking America's educational progress, it provides no 
sense of how America stands in relation to other nations. Funding an 
effort to equate long-term trend NAEP test with PISA and PIRLS would 
allow us to get an instant snapshot not only of how today's youth 
perform in relation to yesterday's youth, but also how America's youth 
perform in relation to the larger world's youth. With the rapidly 
changing face of the 21st century economy, we need accurate and timely 
information on America's educational standing
    <bullet> Literacy demonstration sites in high poverty areas that 
can implement best practices and proven strategies for what works in 
middle and high schools. This is particularly important for districts 
that need to coordinate their professional development efforts to 
effectively work with content area teachers to embed literacy into 
their domain areas.
    <bullet> Support states to build comprehensive preK-12 literacy 
plans. While almost all states have made K-3 literacy plans, we need to 
ensure the all states have strategic literacy plans for grades 4-12 in 
reading and writing and are working systemically work with school 
districts to ensure all schools have a way of embedding literacy with 
their designs. Literacy extends well beyond 3rd grade with states. 
Federal resources can help to establish efforts similar to those run by 
the National Governors Association's Reading to Achieve: State Policies 
to Support Adolescent Literacy and High School Honor States--to help 
states develop adolescent literacy plans (Snow, Martin and Berman, 
2008).
    <bullet> Additional support to improve the education of middle 
grade students in low-performing schools by developing and utilizing 
early warning data systems to identify those students most at-risk of 
dropping out, assisting schools in implementing proven literacy 
interventions, and providing the necessary professional development and 
coaching to school leaders and teachers.
    <bullet> Increase support for the National Writing Project (NWP). 
NWP has been one of the most coherent literacy professional development 
efforts in the nation for over 30 years. The NWP's substantial network 
of 175 sites and in Washington DC, Puerto Rico and Guam. NWP has also 
begun a National Adolescent Reading Initiative to complement its work 
in writing. Increased support for NWP will ensure that the research-
based methods used in reading and writing in secondary schools are 
infused in a large number of school districts across the country.
    <bullet> Increase federal funding for evidenced-based research for 
adolescent literacy. There are a number of questions to which a robust 
and well-funded research effort could provide answers, with the 
prospect of immediate improvement in adolescent literacy outcomes. We 
know we need to intervene and individualize instruction with students 
as soon as they begin to fail. We don't know what the best strategies 
are for the particular levels of failure. It is critical that funding 
for research in middle and high schools be increased to fund research 
at NICHD and IES that could demonstrate how best to assess adolescents 
quickly and efficiently in order to determine their need for 
intervention and/or support, what works for older readers, and what 
some of the most productive strategies are for struggling readers. The 
American Recovery and Reinvestment Act is an exciting opportunity for 
much of education but there is little reference to English-language 
learners. ELLs deserve more research attention particularly the issue 
of language proficiency and academic content needs. Research into the 
impact of different approaches to teacher education and professional 
development, and the best design of vocabulary and comprehension 
instruction for ELLs and other struggling readers is critical.
Conclusion
    The Corporation's rich history in literacy has, at its core, Andrew 
Carnegie's belief that, ``Only in popular education can man erect the 
structure of an enduring civilization.'' This belief has guided the 
Corporation as it has moved from helping to establish public libraries, 
to laying the groundwork for what we know as Head Start, to its 
groundbreaking efforts to improve middle schools and high schools. At a 
the recent launch of the Time to Act report, Corporation president 
Vartan Gregorian encouraged us all to take action: ``Today, let us set 
ourselves the task of helping all American students to become wealthy 
in knowledge and understanding by improving their literacy skills. As 
Andrew Carnegie said, one of the jobs of a patriot is ``* * * the 
dispelling of ignorance and the fostering of education.'' Hence, as 
patriots and as parents, teachers, leaders of business and government--
and as Americans--let us commit ourselves to being good ancestors to 
the generations who follow by ensuring that each and every student can 
``read to learn.''
                               references
American Diploma Project. (2004). Ready or not: Creating a high school 
        diploma that counts. Washington, DC: Achieve, Inc.
Carnegie Council on Advancing Adolescent Literacy. (2010). Time to act: 
        An Agenda for advancing adolescent literacy for college and 
        career success. New York, NY: Carnegie Corporation of New York.
Carnegie Corporation of New York. (1959). Carnegie Corporation of New 
        York: Year in Review. New York: Author.
Carnegie Corporation of New York & Institute for Advanced Study. 
        (2009). The opportunity equation: Transforming mathematics and 
        science education for citizenship and the global economy. New 
        York: Author.
Center on Educational Policy (2007). Answering the question that matter 
        most: Has student achievement increased since No Child Left 
        Behind. Washington, DC: Author
Chall, J. (1967). Learning to read: The great debate. New York: McGraw-
        Hill.
Flesch, R. (1955). Why Johnny can't read: And what you can do about it. 
        New York: Harper & Row.
Heller, R. & Greenleaf, C. (2007). Literacy instruction in the content 
        areas: Getting to the heart of middle and high school 
        improvement. Washington, DC: Alliance for Excellent Education.
Lee, C. D., and Spratley, A. (2010). Reading in the Disciplines: The 
        Challenges of Adolescent Literacy. New York, NY: Carnegie 
        Corporation of New York.
Lee, J., Grigg, W., & Donahue, P. (2007). The Nation's Report Card: 
        Reading 2007 (NCES 2007-496). Washington, DC: National Center 
        for Education Statistics.
Lemke, J. (1998). Multiplying meaning: Visual and verbal semiotics in 
        scientific text. In J. R. Martin & R. Veel (Eds.), Reading 
        science: Critical and functional perspectives on discourse of 
        science (pp. 87-113). NY: Routledge.
Martin, M. O., Mullis, I. V. S., Gonzalez, E. J., & Kennedy, A. M. 
        (2003). Trends in children's reading literacy achievement 
        1991--2001: IEA's study of trends in reading literacy 
        achievement in primary school in nine countries. Chestnut Hill, 
        MA: Boston College, Lynch School of Education, PIRLS 
        International Study Center.
Murnane, Richard J. & Levy, Frank (1996). Teaching the new basic 
        skills: principles for educating children to thrive in a 
        changing economy. NY: Free Press.
National Center for Educational Statistics (NCES). (2001). The 
        condition of education, 2001. Washington, DC: U.S. Government 
        Printing Office.
National Center for Educational Statistics (NCES). (2003).The condition 
        of education, 2003. Washington, DC: U.S. Government Printing 
        Office.
National Commission on Writing. (2004). Writing: A ticket to work * * * 
        or a ticket out: A survey of business leaders. New York: 
        College Board.
National Reading Panel. (2000). Teaching children to read: An evidence-
        based assessment of the scientific research literature on 
        reading and its implication for reading instruction. 
        Washington, DC: U.S. Department of Health and Human Services.
Organisation Education for Economic Co-operation and Development. 
        (2007). Education at a glance: OECD indicators. Paris: Author
Perie, M., Grigg, W., & Donahue, P. (2005). The nation's report card: 
        Reading 2005. Washington, DC: U.S. Department of Education, 
        National Center for Education Statistics.
Snow, C. E., Burns, M. S. & Griffin, P. (1998). Preventing Reading 
        Difficulties among Young Children. Washington, DC: National 
        Academy Press.
Snow, C. E., Martin, T., and Berman, I. (2008). State literacy plans: 
        Incorporating adolescent literacy. Harvard Educational Review, 
        78, 1, 211-230.
UNESCO Institute for Statistics. (2007). Global education digest: 
        Comparing education statistics across the world. Montreal: 
        Author.
                               appendix a
    Carnegie Corporation of New York's Advancing Literacy Initiative: 
Works and Commissioned Papers. Most posted on www.carnegie.org/literacy
2009
Haynes, Mariana (2009). Issues in Brief: State Actions to Improve 
        Adolescent Literacy, Results from NASBE's State Adolescent 
        Literacy Network. Arlington, VA: National Association of State 
        Boards of Education. http://nasbe.org.
Irvin, Judith L. Meltzer, Julie, Mickler, Martha J., Phillips, Melvina 
        P., & Dean, Nancy. (2009). Meeting the Challenges of Adolescent 
        Literacy: Action Sops for Literacy Leaders. Newark, DE: 
        International Reading Association. http//www.reading.org
2008
Cobb, Velma, Meltzer, Julie, William, Martha (2008). Mobilizing 
        Communities to Support the Literacy Development of Urban Youth: 
        A Conceptual Framework and Strategic Planning Model. New York, 
        NY: National Urban League and Center for Resource Management. 
        www.nul.org.
Guglielmi, R. Sergio (2008). Native Language Proficiency, English 
        Literacy, Academic Achievement, and Occupational Attainment in 
        Limited-English-Proficient Students: A Latent Growth Modeling 
        Perspective, Journal of Educational Psychology, American 
        Psychological Association, 100:2, 322-342.
Harvard University (2008). Adolescent Literacy, Cambridge, MA: Harvard 
        Educational Review, 78:1, Spring 2008. www.hepg.org.
Marsh, Julie A., Sloan McCombs, Jennifer, Lockwood, J.R., Martorell, 
        Francisco, Gershwin, Daniel, Naftel, Scott, Le, Vi-Nhuan, Shea, 
        Molly, Barney, Heather, Crego, Al (2008). Supporting Literacy 
        Across the Sunshine State: A Study of Florida Middle School 
        Reading Coaches. Santa Monica, CA: RAND. www.rand.org.
2007
Batalova, Jeanne, Fix, Michael and Murray, Julie (2007). Measures for 
        Change: The Demography and Literacy of Adolescent English 
        Learners. Washington DC: Migration Policy Institute. 
        www.migrationpolicy.org.
Calderon, Margarita (2007). Teaching Reading to English Language 
        Learners, Grades 6-12: A Framework for Improving Achievement in 
        the Content Areas. Thousand Oaks, CA: Corwin Press
Deshler, Donald D., Palincsar, Annemarie Sullivan, Biancarosa, Gina, 
        and Marnie Nair (2007) Informed Choices for Struggling 
        Adolescent Readers: A Research-based Guide to Instructional 
        Programs and Practices, Commissioned by Carnegie Corporation of 
        New York. Newark, DE: International Reading Association. 
        www.reading.org.
Graham, Steve and Perin, Dolores (2007). A Meta-Analysis of Writing 
        Instruction for Adolescent Students, Journal of Educational 
        Psychology, 99:3, 445-476.
Graham, Steven and Perrin, Dolores (2007). Writing Next: Effective 
        Strategies to Improve Writing of Adolescents in Middle and High 
        Schools. Washington, DC: Alliance for Excellent Education. 
        www.all4ed.org.
Heller, Rafael, Greenleaf, Cynthia L. (2007). Literacy Instruction in 
        the Content Areas: Getting to the Core of Middle and High 
        School Improvement. Washington, DC: Alliance for Excellent 
        Education. www.all4ed.org.
Irvin, Judith L., Meltzer, Julie and Dukes, Melinda, Taking Action on 
        Adolescent Literacy: An Implementation Guide for School 
        Leaders, Alexandria, VA: Association for Supervision and 
        Curriculum Development. www.ascd.org.
2006
Henriquez, Andres. ``Principals Can Help Improve Literacy for English 
        Learners,'' National Association of Secondary School 
        Principals, NewsLeader, December 2006. www.nassp.org
Guensberg, Carol. ``Why Johnny (Still) Can't Read: Creative Educators 
        Push to Boost Adolescent Literacy,'' Edutopia. February 2006. 
        Volume 2, Issue 1. San Francisco, CA: The George Lucas 
        Educational Foundation. www.edutopia.org
International Reading Association.(2006). Standards for Middle and High 
        School Literacy Coaches. International Reading Association in 
        Collaboration with National Council of Teachers of English, 
        National Council of Teachers of Mathematics, National Science 
        Teachers Association, National Council for the Social Studies. 
        Newark, DE: Author. www.reading.org
Salinger, Terry, Bacevich, Amy (2006). Lessons & Recommendations from 
        the Alabama Reading Initiative: Sustaining Focus on Secondary 
        Reading. Washington, DC: American Institutes for Research. 
        www.air.org.
Short, Deborah and Fitzgerald, Shannon (2006). Double the Work: 
        Language Acquisition and Academic Literacy for Adolescent 
        English Language Learners. Washington, DC: Center for Applied 
        Linguistics. www.cal.org.
National Association of State Boards of Education.(2006). Reading at 
        Risk: The State Response to the Crisis in Adolescent Literacy. 
        Alexandria, VA: Author. www.nasbe.org
National School Board Association. (2006). The Next Chapter: A School 
        Board Guide to Improving Adolescent Literacy. Alexandria, VA: 
        Author. www.nsba.org.
2005
Berman, Ilene and Biancarosa, Gina (2005). Reading to Achieve: A 
        Governor's Guide to Adolescent Literacy. Washington, DC: 
        National Governors Association. www.nga.org
Grosso de Le"n, Anne ``America's Literacy Challenge: Teaching 
        Adolescents to Read to Learn,'' Summer 2005. Carnegie Results. 
        New York, NY: Carnegie Corporation of New York. 
        www.carnegie.org
Henriquez, Andres (2005). The Evolution of an Adolescent Literacy 
        Program: A Foundation's Journey. Reading Research Quarterly, 
        40, 376-380.
McCombs, Jennifer Sloan, Nataraj Kirby, Sheila, Barney Heather, 
        Darilek, Hilary and Magee, Scarlett, Achieving State and 
        National Literacy Goals: A Long Uphill Road: A Report to 
        Carnegie Corporation of New York. (2005). Santa Monica, CA: 
        RAND. www.rand.org
National Association of Secondary School Principals. (2005). Creating a 
        Culture of Literacy: A Guide for Middle and High School 
        Principals. Reston, VA: Author. www.nassp.org.
2004
Biancarosa, Gina and Snow, Catherine, E. (2004). Reading Next: A Vision 
        for Action and Research in Middle and High School Literacy, A 
        Report to Carnegie Corporation of New York. Washington, DC: 
        Alliance for Excellent Education. www.all4ed.org
Snow, Catherine, Foorman, Barbara, Kamil Michael, Roderick, Melissa, 
        Schwartz, Robert (2004). Project Memorandum: Issues in the 
        Field of Adolescent Literacy: Information and Recommendations 
        for the Carnegie Advisory Council on Reading to Learn, Santa 
        Monica, CA: RAND. www.rand.org
2003
Kamil, Michael L. (2003). Adolescents and Literacy: Reading for the 
        21st Century. Washington, DC: Alliance for Excellent Education. 
        www.all4ed.org
Sturtevant, Elizabeth (2003). The Literacy Coach: A Key to Improving 
        Teaching and Learning in Secondary Schools. Washington, DC: 
        Alliance for Excellent Education. www.all4ed.org
2002
Grosse de Leon, Anne (2002). ``The Urban High School's Challenge: 
        Ensuring Literacy for Every Child,'' New York, NY: Carnegie 
        Corporation of New York www.carnegie.org
Grosse de Leon, Anne (2002). ``Moving Beyond Storybooks: Teaching Our 
        Children to Read to Learn,'' Carnegie Reporter, Vol. 2/No. 1, 
        New York, NY: Carnegie Corporation of New York. 
        www.carnegie.org
                                 ______
                                 
    Chairman Kildee. The gentleman's time has just expired. I 
am in a very good mood today, so.
    Dr. Gomez?

   STATEMENT OF LEO GOMEZ, PROFESSOR OF BILINGUAL-BICULTURAL 
  EDUCATION, THE UNIVERSITY OF TEXAS PAN AMERICAN COLLEGE OF 
                           EDUCATION

    Mr. Gomez. Thank you, and good morning Chairman Kildee and 
members of the subcommittee. Thank you for this invitation and 
this opportunity to discuss this very important issue of 
literacy. As we strive to achieve equity in our schools, it is 
more important than ever that our educators are well informed 
and understand the diversity they face.
    I have seen firsthand how quality instructional programs 
have made a difference for children and how they have achieved 
K-12 and how the dropout rate has been reduced. I am going to 
speak specifically to the issue of limited English proficient 
children, or often referred to as English language learners. 
And personally I am also going to share that I think we need to 
change that label.
    Research steadily demonstrates that literacy development in 
the child's first language facilitates development in the 
second language. Bilingual learners are more academically 
successful in schools that they receive for the most formal 
schooling in their first language. As discussed by Mr. 
Henriquez, our problems in high school stem from our challenges 
with literacy at the elementary level.
    Kids are not always leaving elementary more or less okay, 
but the gap begins to widen as they leave elementary school, 
and that is very consistent across most minority children. So 
it is rooted at the elementary level.
    I would like to demystify to the committee this issue of 
this controversy of native language instruction and how native 
language literacy leads to English literacy. It seems 
counterintuitive to think that a child learning to read in his 
first language will learn to read in a second language, but 
this is exactly what happens. And I am going to share five 
points to present this point.
    First of all, literacy comes in many languages. Kids are 
literate across the world in many different languages, and they 
learn to read, of course, in their native languages. Our 
English dominant children learn to read in English, and 
therefore, that is their native language, and it is a very 
natural progression.
    So kids that come to school speaking a language other than 
English need to have the same opportunity because you learn to 
read only once, and you want to learn to read at a high level 
as possible.
    Simply put, my first point, literacy transfers. Reading and 
writing is a skill that is common across the world and 
especially in the majority of minority children who are Spanish 
speaking. Those two languages are very similar.
    So literacy transfers. Reading skills, comprehension skills 
are transferrable both from one language to another, 
mathematics, science, the water cycle, multiplication, all that 
transfers. The important thing is for kids to receive that 
content at grade level, learning and at the same time 
developing their second language, English.
    The second point is that we change the term of limited 
English proficient to bilingual learners because LEP does not 
reflect what children are doing. It continues to promote, 
erroneously, that English is the purpose for these children. 
And therefore we abandon academic instruction and focus on the 
language. Kids learn the language at the set up--after 
sacrificing academic content. A lot of it was shared just 
previously.
    So how do we do this? I propose dual language programs. We 
have seen dual language education across the country beginning 
to explode. It is beginning to grow exponentially because of 
the success of closing the academic gap because of the 
reduction of the dropout rate among many, many of these 
children, as they are educated in their first language and 
English, they are at an elementary education.
    So these children essentially become bi-literate children 
by the end of fifth grade. Dual language programs serve both 
English and Spanish or English and dominant children and 
children from another language together or they can also serve 
as the instructional model for bilingual learners by 
themselves.
    And that is what has been happening across the country and 
certainly in Texas, where one out of four schools in Texas is 
now a dual language school serving a lot of our children.
    The fourth point I want to share is native language 
assessments. Since we predominately have English assessments in 
most of our states, it is really derailing native language 
programs.
    English assessments, of course, are part of our 
accountability system, and they are affecting the move toward 
more first language learning or dual language type of 
education. We recommend the federal level to provide incentives 
to states for the development of native language assessments.
    My last point is teacher education. It is really important 
that all our teachers have an understanding of the diversity 
that they will inherit in the schools as they become teachers 
and, therefore, that every teacher education and teacher 
preparation program provide teachers with course work or 
preparation on second language acquisition on understanding the 
benefits and advocacy for dual language education as a global 
opportunity for all children.
    And that we begin to focus on an extensive recruitment of 
certified teachers and bilingual education and an ESL education 
that understands how to address a language difference as they 
come to our schools. Thank you.
    [The statement of Mr. Gomez follows:]

 Prepared Statement of Leo Gomez, Ph.D., Professor, the University of 
  Texas Pan American; Officer, the National Association for Bilingual 
                            Education (NABE)

    Good morning Mr. Chairman and members of the subcommittee. I want 
to thank the subcommittee for this invitation to testify on this very 
important issue of literacy for children and young adults. I want to 
especially thank Congressman Ruben Hinojosa for this opportunity to 
come before you and speak to the issue of literacy development for 
Bilingual Learners (BL).
    As we strive to achieve equity in the education of all students, 
the need for well-informed educators is more critical than ever. 
Schools across the country are facing growing enrollment of BL students 
and many schools lack the necessary preparation for effectively 
educating this group. Historically, an academic achievement gap has 
persisted between native English speakers and BL students resulting in 
a persistent dropout rate in many cases greater than fifty percent 
(50%) for this population. Positive change requires a comprehensive 
understanding of the issues affecting this population.
    There is over 40 years of research in second language acquisition 
in this country that affirms the effectiveness of utilizing a child's 
native language to learn academic concepts while learning the English 
language. My testimony today is based on this research as well as over 
16 years of my own research and study of this subject, together with 
practical experiences in the development and implementation of 
successful programs and practices. I have seen first-hand how quality 
bilingual education programs provide long-term achievement of BL 
students and help close the academic gap based on standardized 
assessments as compared to native English speakers.
    BL students are achieving in schools across the country when 
provided an appropriate education through a sound quality bilingual 
program. The list below shares examples of BL students' long-term 
academic success through quality bilingual programs:
    <bullet> The Pharr-San Juan Alamo ISD located in South Texas has 
been successfully educating BL students over 10 years implementing 
successful dual language programs at the elementary and secondary level 
to over 10,000 BL students & non-BL students. At this district, an 
unprecedented 1,000 LEP students participate in a dual language 
education program at the middle and high school level boasting a zero 
dropout rate among this group.
    <bullet> The Dallas ISD located in North Texas is implementing 
successful dual language programs at the elementary level (143 schools) 
to more than 30,000 BL students (PreK-3rd) and 3rd grade results (2009) 
showed an amazing 92.4% passed the state reading exam.
    <bullet> The Fort Worth ISD in North Texas is also implementing 
successful dual language programs at the elementary level (49 schools) 
to more than 10,000 BL students and is currently at the 2nd grade 
level.
    <bullet> The Spring Branch ISD located in Houston, Texas is also 
implementing successful dual language programs at the elementary level 
(21 schools) to more than 4,000 BL students and is currently at the 2nd 
grade level.
    These are many more examples in Texas--programs I have personally 
worked with and studied- and hundreds more success stories across the 
country. In Texas alone, over 75 school districts are today 
implementing a form of dual language and more effectively serving BL 
students and non- BL students. It is projected that there are 
approximately 1,000 dual language programs nationwide.
    Research steadily demonstrates that literacy development in a 
child's first language facilitates literacy development in the second 
language. There is overwhelming research that tells us that BL students 
are more academically successful in our schools if they receive formal 
schooling in their native language, while they learn English (Cummins, 
1991; Thomas & Collier, 1998). As clearly described in gap closure 
program effectiveness studies by Thomas & Collier's (2002), only 
enrichment forms of bilingual education, that provide instruction in 
both the native language and English throughout elementary, close the 
English academic achievement gap between BLs and native English 
speakers as they continue their schooling (see figure 1, page 5).
    The education of BL students is a K-12 issue and therefore must be 
viewed and addressed as a part of K-12 education. Still, a K-5 
elementary education is the foundation for a successful secondary 
education. The permanent solution to high schools in academic trouble 
with this population is rooted in their elementary schools. It makes 
sense that the learning of ``on-grade level'' content, knowledge and 
skills in a K-12 education largely depends on the clear 
``understanding'' of classroom instruction. Academic gaps occur when 
children do not learn ``on-grade level'' certain concepts or skills 
(academic literacy) well or at all. If an English dominant child falls 
behind academically for whatever reason, the child speaks English well 
but is not ``academically on-grade level in English.''
    These two points apply to BL students as well. It is critical that 
BL students learn ``on-grade level'' academic knowledge and skills, 
which includes literacy, at the elementary and secondary levels in 
order to receive an equal and successful academic and linguistic 
education eventually becoming ``English proficient'' and academically 
on grade level.
    So how do we ensure that LEP students receive ``on-grade level'' 
(literacy) education and learn English at the same time?
    The five (5) major points that follow, based on my experience, if 
supported in policy and carried out in practice on a national scale, 
would have a significant impact on the academic and literacy attainment 
of BL students at both the elementary, middle and high school level, 
based on standardized English assessments.
Point #1: Understand that knowledge and skills are transferable from 
        one language to another
    First, we must recognize that content, knowledge, and skills are 
not specific to any language and therefore are ``transferable'' from 
one language to another. In other words, the skill of writing, reading 
and addition is learned only once and once learned will transfer to a 
second language. For example five times five is twenty-five in the USA, 
and in China, and in Mexico, and everywhere else in the world. The key 
is to ensure that these skills are learned ``on-grade level'' as the BL 
child progresses in school while continuously developing the second 
language, English. If a child learns new knowledge and skills, etc. in 
a language he/she fully understands, the probability of learning this 
greatly increases. This is central to understanding literacy 
development for LEP students.
Point #2: Change Limited English Proficient (LEP) Label to Bilingual 
        Learner (BL)
    Over the last 40 years, non-English speaking students have commonly 
been labeled as Limited English Proficient (LEP), English Language 
Learners (ELLs), Language Minority Students (LMS), English Learners, 
and other terms that do not respect these students as academic 
learners, but rather emphasize a limitation and English as the sole 
purpose of their education. The continued use of these inaccurate 
terms, not only stigmatizes these students, but also perpetuates an 
erroneous emphasis on English as the sole purpose for schooling. A more 
fitting term better suited to describe the academic and linguistic 
behaviors of these students in any instructional model is Bilingual 
Learner. After all, appropriately educated, bilingual learners are at 
all times engaged in and/or learning in both their native language and 
English regardless of instructional program.
Point #3: Schooling through Dual Language Programs
    Dual language programs represent an increasingly effective strategy 
for educating bilingual learners. In 2001, Texas passed a state law 
encouraging school districts to develop and implement dual language 
programs for BLs and native English speakers. In 2007, the state 
developed clear guidelines for development, implementation and 
evaluation of dual language programs. Today, there are over 700 dual 
language schools in Texas. Dual language is increasingly the go-to 
program for literacy development of BLs in most southern states serving 
the highest and concentrated numbers of BLs.
    Dual language programs are designed to educate students through two 
languages; English and the native language. In dual language programs, 
students develop literacy and learn academic content (math, science, 
social studies) in two languages throughout their elementary years and 
the goal is to produce a full biliterate child by the end of 5th grade. 
Dual language is a quality program for all students. For BLs, it is the 
ONLY bilingual education model that fully closes the academic 
achievement gap between native English speakers and BLs. For native 
English speakers, it provides tremendous opportunities for bilingualism 
and biliteracy. Research evidence demonstrates that for all 
participating students, dual language yields ``cognitive advantages'' 
and higher academic achievement. Inherent in dual language programs is 
an enriched, challenging, and engaging instructional paradigm (gifted 
and talented (GT) type of learning environment) which benefits all 
learners
Types of Dual Language Programs
    There are two fundamental types of dual language education 
programs:
    <bullet> Two-Way: both language groups in the classroom learn 
together through two languages (BLs & non-BLs)
    <bullet> One-Way: one language group (BLs only) learn together 
through two languages (this is the recommended program for BLs)
    One-Way Dual Language is increasingly being adopted by school 
districts and schools as THE bilingual education program serving BLs, 
thereby achieving stronger long-term academic literacy in English, 
closing the academic gap, and lowering the dropout rate.
    Dallas ISD is a good example of how a literacy initiative for BLs 
must include dual language as the instructional model. In 2006 the 
district adopted One-Way Dual Language as the required bilingual 
program serving all Spanish speaking BLs (largest group) district-wide. 
This decision was based their research and visiting other successful 
districts, as well as the need to do something different for this 
group. For over 30 years, their BL population continued to perform 
poorly at the high school level. Although the district used many 
strategies to address this, years later they came to the realization 
that it was not the high school program that was broken for these 
students, but the elementary program. They brought in experts and 
connected the K-12 dots. A successful middle and high school student is 
largely based on the child's elementary educational foundation. If 
students leave elementary school below grade level, they are bound to 
achieve poorly in high school. The district realized that the emphasis 
had been on English language development for BLs at the expense of 
academic literacy. BLs at high school level spoke English well, but 
could not function academically on grade level in English. The academic 
literacy gap began in elementary and widened in middle and high school 
as the curriculum became more demanding and abstract. Today, after 3\1/
2\ years of dual language implementation, preliminary results are 
extremely positive. This spring 2009, the district recorded the highest 
literacy and math achievement for over 5000 BLs based on state 
assessments.
Dual Language High School Programs
    Literacy development and second language development at the middle 
and high school level (6th-12th) for BLs can also be improved by 
providing opportunities for BLs to learn in their native language. 
Recent arrivals that come well educated from their home country can 
continue learning academic content (e. g. math, science) while they 
learn English. This simultaneous goal improves overall literacy and can 
be accomplished through some coursework utilizing the native language 
for content-area instruction if available.
   figure 1.--long-term academic english literacy development of bls 
       served through different types of bilingual & esl programs
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Data consisted of 210,000 BLs (96% Spanish) from 23 school 
districts and 15 states

    <bullet> In remedial programs, BLs do not close the literacy gap 
after reclassification. For most students, only dual language programs 
fully close the academic literacy gap between BLs and native English 
speakers
    <bullet> For BLs schooled in the U. S. at the K-5 level, dual 
language models are the most successful (based on standardized tests 
across all subject areas)
    <bullet> When students are schooled bilingually (first and second 
language), rather than focus on English, there is greater academic 
achievement.
    <bullet> As depicted in figure above, ESL and Transitional (Early-
Exit) bilingual education (TBE) programs are NOT successful literacy 
models for BLs
Point #4: Bilingual Learner Literacy Assessments
    Successful literacy development requires appropriate literacy 
assessments. For BLs, lack of native language literacy assessments is 
in conflict with best practices for BLs. Even when there is 
understanding of and commitment to native language literacy through 
dual language, states and districts are faced with lack of congruency 
regarding literacy assessments. There are overwhelming costs to develop 
native language tests, at a minimum, at the elementary level.
    Literacy assessments in languages other than English may be an area 
of consideration as the federal role is re-designed related to literacy 
assessments. For instance, the U. S. DOE could fund literacy 
assessments, in as many languages as the department deems appropriate, 
to support strong literacy attainment of BLs.
    This would provide incentives for states to move toward more native 
language literacy, as well as promote bilingualism and biliteracy 
opportunities for all students, a vision for America by President 
Obama. Literacy assessments in languages other than English will also 
assist states to more accurately measure the true academic skills of 
BLs rather than have these skills obscured by the language of the 
tests.
Point #5: Support BLs through Teacher Education Programs
    Providing a quality education for all students, including BLs, is 
the responsibility of ALL educators these children come in contact 
with. It is therefore imperative that ALL educators be well informed on 
the best practices for educating this population. To this end, all 
teacher education programs should provide pre-service teachers 
coursework on second language acquisition (SLA) methodology and an 
understanding of bilingual/dual language education.
    Teacher education programs would also benefit from incentives to 
recruit and educate more bilingual and ESL certified teachers. 
Increasing numbers of BLs across the country require that this area be 
addressed. Lack of bilingual education teachers is harmful to the 
successful literacy development of BLs since they will be served 
through English-only programs (ESL). This continues to perpetuate poor 
literacy achievement of BLs and inadvertently the cycle of poverty.
    Another strategy to support the literacy development of BLs is to 
increase university-based teacher education programs collaboration with 
public schools, particularly high-need school districts serving 
concentrated numbers of BLs. As an example, the Teacher Education 
Program at the University of Texas Pan American in South Texas has 
established strong ties with local school districts that have resulted 
in the collaborative development and implementation of successful dual 
programs serving BLs.
    Thank you.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Dr. Meyers?

  STATEMENT OF SANDRA D. MEYERS, ED.D, EDUCATION ASSOCIATE OF 
      ELEMENTARY READING, DELAWARE DEPARTMENT OF EDUCATION

    Ms. Meyers. Good morning. As Delaware's Department of 
Education's Director of Reading First, I am honored to present 
testimony about the work we are doing to create a seamless, 
comprehensive literacy program for all children in Delaware.
    We have benefited from federal support especially for Early 
Reading First and Reading First. Our Early Reading First 
Projects have made a difference for very young children who 
experience high levels of risk of literacy failure.
    The University of Delaware was awarded two Early Reading 
First grants, and data for their first cohort of students 
indicated that these children performed as well or better than 
the general population of children their age in language and 
early reading and kindergarten.
    These children were at risk when they began preschool. Many 
were not only low income, but also came from homes that English 
was not the primary language spoken. Thus, systematic explicit 
instruction in oral language, and beginning reading skills 
allowed these children to enter school prepared to succeed in 
the Reading First curriculum.
    Reading First in Delaware has not been just a paradigm 
change in teaching reading, but is a model that requires 
systemic changes at the school and district level. For 
Delaware, these have included increased daily instructional 
time for the teaching of reading, design of assessment systems 
that include screening, progress monitoring, diagnostic 
assessment and evaluation of outcomes, differentiated 
instruction based on these data, additional intensive 
intervention for students at high levels of risk, common 
planning time for teachers to review data and plan instruction, 
full-time literacy coaches who support teachers to improve 
their instruction.
    Enacting these components in Reading First required 
extensive professional development for the teachers, coaches 
and principals, as well as continuous monitoring and 
reflection. Our literacy coaches are comfortable and competent 
working in classrooms alongside teachers providing formative 
feedback.
    They also have strong partnerships with building principals 
as instructional leaders. Our accomplishments in this area are 
extensive, but they have been hard won. Our professional 
development has evolved each year. We began with letters 
trainings for all the teachers which is a professional program 
developed by Dr. Louisa Motz. We moved to book studies and 
formal trainings for coaches which were then redelivered to 
teachers.
    We then brought teachers and coaches together in teams for 
intense study of differentiated instruction. Along the way, we 
evaluated our efforts. Our state team worked school by school 
each year with Dr. Sharon Walpole, a University of Delaware 
professor who has had extensive experience in Reading First.
    We learned together to analyze data, set goals and design 
ongoing professional support for teachers. We now have 13 
schools from six districts in the program. Unfortunately, this 
is the last year of funding, but we have made good use of these 
federal dollars.
    Evidence-based instruction became the catalyst for ongoing 
change in Delaware. We have preschool grade level expectations, 
the early learning guidelines, that have been nationally 
recognized and that are aligned with our kindergarten grade 
level expectations.
    We revised our K-3 literacy standards so that they were 
consistent with the research that underlies Reading First. Many 
districts increased their attention to coherent professional 
development in early reading.
    In 2007, the state chose to require a response to 
intervention model and based the state regulations on lessons 
we learned from the Reading First program. Implementation of 
the RTI model is now occurring in every elementary building.
    The Reading First team was instrumental in the planning of 
much of this professional development. Reading First 
administrators and coaches presented at these trainings, 
sharing their expertise in areas such as scheduling and 
staffing.
    This year the training is available on DVDs to reach more 
schools and teachers. We are offering technology-based support 
so that a broader group of teachers can ask questions and have 
their concerns addressed. We are now working to include middle 
and high school teachers and administrators.
    We are offering trainings in an instructional framework 
which incorporates the strategies that most impact learning 
extended thinking, vocabulary, summarizing, non-digital 
representation and advance organizers. This model full of 
learning focus ensures that comprehension strategies, 
vocabulary instruction and writing to inform are part of all 
lessons.
    Delaware is a small state, but the challenges of bringing 
teaching in line with current research and of evaluating the 
effects of teaching on student learning are large. Early 
Reading First and Reading First have provided us opportunities 
to design and provide professional support for teachers and 
administrators that is coherent and ongoing. We have leveraged 
federal dollars well.
    Our current focus on professional support for all classroom 
teachers in Delaware to have the knowledge and skills to use 
data to design and evaluate differentiated instruction is the 
direct result of opportunities that federal support for high 
quality research-based professional development has provided. 
We hope that you will consider ways to continue to support our 
professional development efforts. Thank you.
    [The statement of Ms. Meyers follows:]

  Prepared Statement of Sandra D. Meyers, Ed.D., Education Associate, 
                    Delaware Department of Education

Delaware's Comprehensive Approach to Literacy
    As Delaware's Department of Education's Director of Reading First, 
I am honored to present testimony about the work we are doing to create 
a seamless, comprehensive literacy program for all children in 
Delaware. We have benefited from federal support, especially for Early 
Reading First and Reading First.
    Our Early Reading First projects have made a difference for very 
young children who experience high levels of risk of literacy failure. 
The University of Delaware was awarded two Early Reading First grants 
and data for their first cohort of students indicated that these 
children performed as well or better than the general population of 
children their age in language and early reading in kindergarten. These 
children were ``at risk'' when they began preschool. Many were not only 
low income, but also came from homes where English was not the primary 
language spoken. Thus, systematic, explicit instruction in oral 
language and beginning reading skills allowed these children to enter 
school prepared to succeed in the Reading First curriculum.
    Reading First in Delaware has not been just a paradigm change in 
teaching reading, but is a model that requires systemic changes at the 
school and district level. For Delaware these have included
    <bullet> Increased daily instructional time for the teaching of 
reading
    <bullet> Design of assessment systems that include screening, 
progress monitoring, diagnostic assessment, and evaluation of outcomes
    <bullet> Differentiated instruction based on these data
    <bullet> Additional intensive intervention for students at high 
levels of risk
    <bullet> Common planning time for teachers to review data and plan 
instruction
    <bullet> Full-time literacy coaches who support teachers to improve 
their instruction
    Enacting these components of Reading First required extensive 
professional development for the teachers, coaches, and principals as 
well as continuous monitoring and reflection. Our literacy coaches are 
comfortable and competent working in classrooms alongside teachers, 
providing formative feedback. They also have strong partnerships with 
building principals as instructional leaders. Our accomplishments in 
this area are extensive, but they have been hard won.
    Our professional development has evolved each year. We began with 
LETRS trainings for all teachers, which is a professional development 
program developed by Dr. Louisa Moats. We moved to book studies and 
formal trainings for coaches which were then redelivered to teachers. 
We then brought teachers and coaches together in teams for intense 
study of differentiated instruction.
    Along the way, we evaluated our efforts. Our state team worked 
school by school each year with Dr. Sharon Walpole, a University of 
Delaware professor who has had extensive experience in Reading First. 
We learned together to analyze data, set goals, and design ongoing 
professional support for teachers. We now have fourteen schools from 
six districts in the program. Unfortunately, this is the last year of 
funding, but we have made good use of these federal dollars.
    Evidence-based instruction became the catalyst for ongoing change 
in Delaware. We have preschool-grade-level expectations, the Early 
Learning Guidelines, that have been nationally recognized and that are 
aligned with our kindergarten grade-level expectations. We revised our 
K-3 literacy standards so that they were consistent with the research 
that underlies Reading First. Many districts increased their attention 
to coherent professional development in early reading.
    In 2007 the state chose to require a Response to Intervention Model 
and based the state regulations on lessons we learned from the Reading 
First program. Implementation of the RTI model is now occurring in 
every elementary building. The Reading First team was instrumental in 
the planning of much of this professional development. Reading First 
administrators and coaches presented at these trainings, sharing their 
expertise in areas such as scheduling and staffing. This year the 
training is available on DVDs to reach more schools and teachers. We 
are offering technology-based support so that a broader group of 
teachers can ask questions and have their concerns addressed.
    We are working now to include middle and high school teachers and 
administrators. We are offering trainings in an instructional framework 
which incorporate the strategies that most impact learning: extended 
thinking, vocabulary, summarizing, non-visual representations, and 
advance organizers. This model called ``Learning Focused'' ensures that 
comprehension strategies, vocabulary instruction, and writing to inform 
are part of all lessons.
    Delaware is a small state, but the challenges of bringing teaching 
in line with current research and of evaluating the effects of teaching 
on student learning are large. Early Reading First and Reading First 
have provided us opportunities to design and provide professional 
support for teachers and administrators that is coherent and ongoing. 
We have leveraged federal dollars well. Our current focus on 
professional support for all classroom teachers in Delaware to have the 
knowledge and skills to use data to design and evaluate differentiated 
instruction is the direct result of opportunities that federal support 
for high-quality, research-based professional development have 
provided. We hope that you will consider ways to continue to support 
our professional development efforts.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Mr. Berger?

         STATEMENT OF LARRY BERGER, CEO AND CO-FOUNDER,
                      WIRELESS GENERATION

    Mr. Berger. Chairman Kildee, Congressman Castle and members 
of the committee, good morning. Thank you for your leadership 
on this important issue and for the opportunity to speak with 
you. My name is Larry Berger, and I am the CEO and co-founder 
of Wireless Generation.
    We are an educational technology company that is helping to 
invent the future of literacy instruction. More than 200,000 
teachers are teaching 3 million children to read with the help 
of our software. I would like to share three ideas about where 
the breakthroughs are in reading instruction and how 
enlightened public policy can accelerate them.
    All over the country right now, elementary teachers are 
using mobile computers like this or like this to conduct 
scientifically valid, formative and progress monitoring 
assessments and to record precise data about how each of their 
students are learning to read. This technology is much more 
efficient than the paper records teachers used to keep, and 
teachers like it because it cuts out the paperwork and lets 
them focus on teaching.
    The breakthrough that my company and others are working on 
is that the data the teacher collects using this technology can 
now be put to use instantaneously to personalize teaching and 
learning to the needs of each student.
    The software that we build punches through all the 
diagnostic data about a given student or a class and all that 
researchers know about reading instruction and then immediately 
shows exactly where the kids are in the process of learning to 
read, what the teacher needs to know to reach them, and then it 
sends the teacher what we call a Burst.
    A Burst is a 10-day mini-curriculum that is assembled 
automatically to differentiate instruction for what a group of 
students need to learn next.
    So instead of teaching from a big textbook that was written 
with no knowledge of my particular class, I am now using a 
personalized packet of lessons. At the end of 10 days, the 
system will send me a new Burst for each group in my class.
    So we still have the magic of a human teacher working with 
young children. The computer isn't doing the teaching. But 
computers in the background have done all of the paperwork and 
all of the analysis that makes teaching more precise and more 
fun.
    With tools like this, the prior debates about reading 
practice fall by the wayside. It is no longer a matter of basic 
skills versus comprehension. Now, children who are struggling 
with basic skills will get them along with bridges to 
comprehension that are personalized to how that child learns. 
Children who are already reading on level will be challenged 
and accelerated.
    So my three points are, we have entered the age of 
technology-driven personalization in every other sector of 
society. It is now time for our reading assessment and 
instruction to get there, too. I have attached to my written 
testimony several quantitative examples of the breakthroughs in 
student outcomes that this sort of personalization enables.
    Two, this personalized instruction model could pay for 
itself by preventing unnecessary referrals into special 
education. Instead of falling through the cracks in the 
instructional cracks in the early years and eventually being 
classified with a specific learning disability, many children 
can thrive in general education if they receive early 
interventions that respond to their progress and their needs. 
This could save the system billions in special ed costs and has 
enormous implications for the long term success of students.
    Three, tools like this mean we can raise the evidence 
standards in education. The new technologies have in common 
that they capture a steady stream of data about how students, 
teachers, schools, systems and instructional programs are 
doing. Instead of data from one test at the end of the year, 
these tools capture potentially thousands of data points per 
year about how each student is progressing.
    Interventions should therefore demonstrate that they are 
based on scientifically valid research, that their foundations 
are sound and should be able to demonstrate significant 
outcomes in student learning.
    This virtuous cycle of using the data to do more of what 
works, but also to remove invalid assessment and ineffective 
curriculum, creates continuous improvement in the products we 
build as an education company, and in the school systems and 
classrooms that we work with.
    The next generation of reading policy can exist on a high 
standard of scientific evidence of effectiveness, but also on a 
process of continuous improvement that means products and 
practices that may be experimental have a chance to keep 
getting better.
    Members of the committee, literacy is the foundation for 
all academic success and innovations of this sort I have been 
talking about are our great hope that all children can become 
readers. Thank you for your leadership on this important issue.
    [The statement of Mr. Berger follows:]

        Prepared Statement of Larry Berger, Co-Founder and CEO,
                          Wireless Generation

    Chairman Kildee, Congressman Castle, Members of the Committee, good 
morning. Thank you for your leadership on the important issue of 
literacy and for the opportunity to speak with you.
    My name is Larry Berger and I am the CEO and co-founder of Wireless 
Generation. We have been working with teachers, principals, and school 
superintendents on K-5 literacy instruction for the past eight years.
    Today, more than 200,000 teachers are teaching 3 million children 
to read using new technology. We provide mobile and web software, data 
systems, and professional services that help teachers to use data and 
deliver individualized instruction. Our partner states, districts, and 
schools are seeing results in every state in the union--in places like 
Oklahoma, Montgomery County Maryland, Indiana, Washington DC, and more.
    Today I would like to share with you the new model of instruction 
that has emerged in the classrooms with which we work. Teachers are 
using mobile devices like this handheld computer or this netbook to 
collect real-time data about their students' progress and learning 
needs. They use this data to customize lesson planning for each child--
for instance, one small group of children might work on sounding out 
words while another group plays a vocabulary game. We have an algorithm 
that can generate custom curriculum units for ten-day ``Bursts'' of 
instruction, which adjust and adapt as teachers monitor students' 
progress.
    We find that schools and districts using these technology tools 
reorganize themselves around the data. Teachers and coaches run regular 
grade level meetings in which they strategize around student strengths 
and weaknesses and share ``what works'' with one another. Principals 
and district staff engage on the teaching and learning. Professional 
development refocuses from ``stand and deliver'' presentations to 
active planning based on real student data. And parents find out, mid-
year, whether their children are on track to read at grade level.
    When teachers use this technology toolset and are able to identify 
and address the needs of each student, the prior debates about reading 
practice fall by the wayside. Children who are struggling with the 
foundational skills of reading get relevant lessons, along with bridges 
to comprehension. Children who are reading on level are appropriately 
challenged and accelerated.
    In addition, this instructional model will likely pay for itself by 
preventing unnecessary referrals into special education. Instead of 
struggling with reading and eventually being classified with a 
``specific learning disability,'' thousands and thousands of children 
(a full two percent of the student population) can get back on track 
with the right early interventions. This is the ``Response to 
Intervention'' model, which has enormous implications for long-term 
student success and for cost savings in service delivery.
    This instructional model depends on a high degree of confidence in 
the quality of the screening and diagnostic assessments used in 
classrooms. They must be reliable and valid, so that every stakeholder 
can count on the resulting information to effectively guide classroom 
practice. High-quality research has established the key benchmarks that 
we should expect assessments to meet.
    When good assessment data is collected, in turn we can demand a 
higher standard of evidence for our instructional programs. 
Interventions should demonstrate that they are based on scientifically 
valid research--that their foundations are sound--and at the same time 
should be able to demonstrate valid outcomes in student learning. This 
virtuous cycle has already led to continuous improvement in our own 
toolset.
    Members of the committee, literacy is the foundation for all 
academic success. We respect the committee's leadership on this 
important issue and are proud to work with thousands of schools and 
districts across the country, helping more children learn to read.
About Wireless Generation
    Founded in 2001, Wireless Generation creates innovative tools, 
systems, and services that help educators teach smarter. Wireless 
Generation currently serves more than 200,000 educators and 3 million 
students.
    With its mobile assessment software, the company invented a better 
way to give classroom assessments and make data-based instructional 
decisions. Wireless Generation has since broken new ground with 
technology that analyzes student data and produces curriculum 
customized to individual learning needs.
    Wireless Generation also builds large-scale data systems that 
centralize student data, give educators and parents unprecedented 
visibility into learning, and foster professional communities of 
educators with social networking tools. As a key partner to New York 
City on its ARIS data system, Wireless Generation led development, 
including data integration, permissioning, usability and reporting, and 
Web 2.0 collaboration tools, and helped New York City roll out the 
system to more than 90,000 educators serving 1.1 million students. In 
spring 2009, ARIS Parent Link online walkthroughs were launched in 9 
languages to give parents unprecedented ability to engage in their 
children's education with easy-to-understand access to their children's 
data. Wireless Generation is also a lead partner on New York City's 
School of One initiative, named by TIME Magazine as one of the Best 
Inventions of 2009.
    The genesis of the Mobile Classroom Assessment (mCLASS) solution 
was Wireless Generation's realization that educators could benefit 
greatly from an easy-to-use technology solution for conducting 
observational assessments, collecting and analyzing assessment data, 
and linking assessment results to appropriate instructional supports 
and intervention strategies. Studies have shown that Wireless 
Generation's mCLASS system cuts assessment administration time in half 
and in a year returns approximately 3--5 instructional days per 
teacher.
    With the launch and widespread adoption of mCLASS for K-6 literacy 
assessment and instruction, Wireless Generation committed itself to 
developing tools that help educators answer the critical questions that 
should be central when assessment data is presented--``So what?'' and 
``Now What?'' Helping educators answer these questions, the heart of 
the assessment-to-instruction connection, has since become the focus of 
Wireless Generation's efforts. mCLASS ACT and Now What Tools were 
Wireless Generation's first offerings to embody what we've come to term 
``SoNos,'' now hallmarks of every system, tool, and service we develop 
and bring to market.
    The significance of these tools is that they make the connection 
between assessment and instruction seamless by placing customized 
instructional routines directly in the teacher's workflow. For example, 
upon completion of an assessment, mCLASS ACT immediately suggests a set 
of targeted skill-reinforcement activities based on individual student 
results and response patterns. The teacher is guided in implementing 
the activities by a scaffolded sequence of objectives, prompts, and 
detailed instructions on both the handheld device and the web. The 
Burst curriculum products take this even further by grouping students 
who share similar skill needs based upon the assessment data, and 
producing 10-day lesson sequences that match those needs. The teacher 
receives the lessons, delivers them, and then assesses again to monitor 
students' progress. The Burst cycle then repeats. Even the best 
teachers can find it challenging to find the time to differentiate 
instruction each day. The Burst technology is their partner in this 
effort.
Partner Results
    Our partner districts and state are seeing tremendous results. 
Examples include:
            Montgomery County Public Schools
    Results of the Montgomery County Public Schools (MCPS) Assessment 
Program show that the percentages of students in kindergarten, Grade 1, 
and Grade 2 who have achieved grade level benchmarks have reached and 
maintained historic highs. MCPS has worked with Wireless Generation 
since 2004.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            District of Columbia Public Schools
    DCPS selected Burst:Reading Early Literacy Intervention to assist 
the 37 lowest performing elementary schools in boosting student 
achievement. The district was undergoing major instructional reform 
efforts. Implementation began in February 2009 for their kindergarten 
and Grade 1 students. The district saw strong gains in these schools 
with less than one semester of Burst:Reading ELI instruction. Burst 
students in Burst schools regularly outperformed students in the same 
instructional recommendation category as students in the better 
performing non-Burst schools, even though Burst students had lower 
initial scores.
    In kindergarten and Grade 1, Burst students in schools with strong 
fidelity of implementation gained more than non-Burst students on PSF 
(phonemic awareness) and NWF (phonics) across all risk levels, despite 
lower initial scores. In kindergarten, Burst students in the Intensive 
instructional recommendation category in schools with strong fidelity 
of implementation gained 25 points on PSF (phonemic awareness) versus 
gains of 17 points for non-Burst students. In kindergarten, Burst 
students at Intensive instructional recommendation category in schools 
with strong fidelity of implementation gained 20 points on NWF 
(phonics) as opposed to gains of 12 points for non-Burst students. In 
first grade, Burst students at Intensive instructional recommendation 
category in schools with strong fidelity of implementation gained 19 
points on PSF (phonemic awareness) while non-Burst students realized 
gains of only 12 points. In first grade, Burst students at Intensive 
instructional recommendation category in schools with strong fidelity 
of implementation gained 24 points on NWF (phonics) whereas non-Burst 
students had gains of 19 points.
            Oklahoma
    Most schools in the Oklahoma Department of Education's Reading 
First program achieved significant student growth, and while the 
Department of Education was pleased, it was not yet satisfied, 
believing that all schools could perform at high levels. The Department 
identified a subset of 15 schools in need of additional support, and 
collaborated with Wireless Generation on delivering targeted, ongoing 
professional development at these sites during the 2007-2008 year. 
Teachers, principals, and reading coaches at each school received up to 
six monthly visits from a Wireless Generation consultant who provided 
customized professional development on various topics according to each 
school's needs.
    Results:
    <bullet> Based on an analysis of student data collected during the 
2007-2008 school year, the 15 schools made substantial achievement 
gains and produced more student movement toward benchmark (grade level) 
than in previous school years. By the end of the year, 61% of K-3 
students in these schools were reading at proficiency, compared to 
these schools' first year in Reading First, when only 38% reached 
benchmark. By comparing beginning of year 2007-2008 formative 
assessment scores to end of year scores, the data reveal that the 
customized professional development contributed to the biggest increase 
in students at grade level over the past four school years, a 19% 
increase.
    <bullet> The 15 schools receiving customized professional 
development made significant progress toward closing the achievement 
gap with high performing schools in Oklahoma. Prior to receiving 
customized professional development, the 15 schools ended each year 
with 20% fewer students at grade level than the high performing 
schools. At the end of the 2007-2008 school year, the 15 schools 
finished only 13% below their peers, which represents a 35% reduction 
in the gap between the two groups.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Mr. Berger.
    I thank all of our witness for their testimony, and we will 
now proceed with the question and answer portion of this 
hearing. And I recognize myself for 5 minutes.
    Language is basically an oral and aural development. 
Writing came rather late in mankind's development. And I lived 
in Peshawar, Pakistan, for a year studying at the University of 
Peshawar, and my bearer, who prepared my tea, spoke three 
languages fluently. He spoke very good English, Pashtu, and 
Urdu. He was totally illiterate.
    That seems strange here, but language basically as it 
develops with mankind is oral and aural and then writing and 
symbols came in later. What can we do to maybe accelerate or 
help in that period when the person, the child, is still in an 
oral-aural part of language, but have not yet made a transition 
to the symbol part?
    Anyone have any comments on that. Yes?
    Ms. Strickland. Well, you are absolutely right, the oral 
language, oral-aural it is foundational. There is no question 
about that. But while children are developing their listening 
and speaking capacities, there is every opportunity to begin to 
introduce print, and they learn about the functions of print.
    Mommy writes down a list to go to the grocery story, on the 
stop sign--all those kinds of things. Print is very much a part 
of our consciousness, and what we do.
    So what they learn about through speaking and listening, 
they apply to reading and writing and vice versa. And then 
there comes a time when the reading vocabulary and writing 
vocabulary really are larger than our everyday speech.
    We can write more, especially when we do draft things, and 
convey information to others far better and with a greater deal 
of flexibility and coherence than we do in our regular speech. 
So that is why introducing print early in informal ways is so 
important. And those kids that have those opportunities just go 
a long, long way.
    Chairman Kildee. That is interesting because I have seven 
grandchildren from 19 months to 11 years and all of them--we 
have always had books for them from the very beginning, and 
sometimes they are only picture books but some, little by 
little, some print in there.
    Ms. Strickland. Sure.
    Chairman Kildee. And I have always felt that that was 
helpful in them making that transition and whether we can even 
research more how we can enhance that helpfulness when they are 
very, very young.
    All my grandchildren were able to read some before they 
ever got to kindergarten. But we did use books a lot. But if we 
can maybe study and see how we can enhance that transition from 
the oral-aural to the recognizing symbols or signs that might 
be more helpful.
    Yes, Dr. Gomez?
    Mr. Gomez. If I could add a point to Dr. Strickland. There 
is a natural progression as you have stated from oral to 
written and reading skills which means that you go from 
language you have developed that you speak, that you 
understand. Then you begin to see that language in print, and 
that is where the reading and then, of course, in writing.
    And that is why it is so important when we think about this 
process, and of course we know that children are reading at the 
age of two when they see the McDonalds sign. The M is reading. 
So they know it means something when they see symbols like 
that.
    But actual school reading or beginning to read with phonics 
type of, you know, of understanding and decoding, there is a 
natural progression to do it from the oral into print. But if 
you do it in a language you have not developed yet, you don't 
have the aural skills, you don't have those receptive and 
expressive skills and then it is very difficult to move toward 
the print.
    And that is the, well, the point I guess from the value of 
literacy in the child's first language because that is a 
natural progression for all children.
    Chairman Kildee. Well, I appreciate you reflecting on that 
because I think it is something that we can learn from, you 
know, interesting. I will just conclude with this. I could read 
Urdu and still can read Urdu better than I can speak it.
    So it was the opposite with me. And I had already went 
through that process so it was more I had to have more active 
memory when I was speaking it or my passive memory would 
generally jump into play when I would see the word.
    But it is interesting the relationship between oral-aural 
and the reading symbols and just--you reflect upon it as you go 
through your professional growth because we are all still 
growing. Thank you very much.
    Governor?
    Mr. Castle. Thank you, Mr. Chairman. I am afraid the 
chairman is going to start having these hearings in foreign 
languages I don't speak if this continues. I would like to ask 
Mr. Henriquez a question, and then a follow-up to Mr. Berger on 
that.
    In your testimony, you mentioned that our fourth grade 
students score very well as far as reading is concerned. And by 
tenth grade they score at a much lesser rate, perhaps among the 
lowest in the world.
    And usually we hear that students have problems because of 
not having early preparation or whatever. You don't often hear 
that there is a fall down between, say, fourth grade and tenth 
grade. And I am just wondering how those results coexist, and 
what we could be doing--what we are not doing now, and what we 
could be doing to make sure that we continue literacy programs 
perhaps between fourth and tenth grades or whatever in this 
country?
    Mr. Henriquez. Yes, yes, and I--yes, Congressman. The issue 
becomes very clear that data from UNESCO is quite shocking as 
it is in our nation's report card where we see our kids 
progressively do very well in fourth grade, and we see those 
very frustrating stagnant scores at the eighth grade and even 
worse at twelfth grade.
    What is happening is that nothing is happening between 
grades four through twelve in terms of literacy. I think we 
have managed to think as a nation that once you teach children 
to read, they are readers for life.
    But in fact, we see that youngsters are struggling with 
difficult academic texts in middle schools and in high schools 
and different than elementary schools where you have one single 
teacher teaching to a class of students.
    You can imagine middle school, high school students that 
have four or five teachers. And these teachers want to teach 
their students their content and want to teach those students 
how to comprehend their content, but they lack the sort of the 
skills around how to imbed strategies around literacy that 
would allow those students to enrich their experiences with 
that text.
    In addition, there seems to be, given the structures of 
middle schools and high schools, it is very, very difficult to 
know if a kid is having difficulty with the content or if they 
are having difficulty with the language, of reading within that 
language.
    So there is no making sense for, say, a science teacher 
whether that student is having difficulty with the biology of 
the subject or whether he or she, or the student, is having 
difficulty with basic vocabulary within that text or whether 
they are having fluency problems or much more serious problems.
    Some of the strategies that I believe are suggested by the 
comprehensive literacy bill that was introduced last week get 
at some of these issues. We started doing some of that work in 
the Striving Readers Act where we are beginning to imbed 
literacy coaches that are helping content area teachers to try, 
and train them to imbed literacy instruction within domains.
    As well as really looking at youngsters who are in the 
ninth grade who are way behind and doing something for them 
during ninth grade and doing some kind of boot camps, in a 
sense, that would allow those students to do the kind of catch-
up that is really, really necessary.
    And there are a number of models around the country that we 
need to learn from that are currently taking place that I think 
are excellent examples that we need more research on them so 
that we can make those kinds of choices.
    Mr. Castle. Thank you. Mr. Berger, in your testimony about 
the Wireless Generation, seems to focus, as I understood, on 
the early in elementary education. We have heard this 
discrepancy of the problems later. Is anything that you are 
doing applicable to that or less applicable to it? How would 
you so help in that circumstance?
    Mr. Berger. So I think that it is helpful to think of the 
issue that Andres is discussing as a compound interest problem 
which is to say that we are already--that we do see a gap. It 
is not as dramatic at fourth grade.
    And then some of those children who are in fourth grade 
seem proficient are falling off by eighth grade. The question 
is, is that only because of instruction that they are not 
having between fourth and eighth grade, or are there in fact 
characteristics that we could tease out that would begin to 
predict that this is a kid who is at risk despite meeting the 
standards of proficiency at fourth grade.
    And I think there is evidence on both sides. There is 
exactly the phenomenon that Andres has discussed in which the 
falling off in the focus on literacy in the upper grades means 
that kids who haven't become readers don't get the support they 
need.
    But I do think that there are characteristics that we can 
see all the way in the early grades that would begin to show 
that and that just worsen when that falling off of attention 
happens.
    And so I think that the same idea of personalization that 
we have been able to do in the early grades because the science 
of what are the precise things that are going wrong are quite 
well developed, that that is beginning to happen now in the 
upper elementary and middle school grades as well, so we need 
to keep pushing on that.
    The one other thing that is not a silver bullet but I think 
it is probably the most promising area of new research is the 
close connection between writing and the development of more 
advanced literacy skills in upper elementary and middle schools
    And so I think that what we are finding is that upper 
elementary and adolescent kids want to be able to express 
themselves and see language as as much a tool for expressing 
themselves as a tool for taking information in.
    And developing those writing skills is almost synonymous 
with developing the skills they need to become better readers. 
And I think we are starting to tap into deeper motivations that 
young kids have. And so I think--I have been happy to see that 
policy recommendations recently have seen reading and writing 
in those upper grades as mutually supportive, and I think that 
is a big opportunity.
    Mr. Castle. Thank you. My time is up so I can ask no more 
questions. I was going to ask Dr. Meyers about that but I don't 
want to get hit with the gavel from the chairman, so I will 
hold back.
    Chairman Kildee. I would never hammer a governor out of a--
however, we are expecting a vote in about 15 to 20 minutes, so 
we will try to go through and--because if we go before a vote, 
it might be a half hour, 45 minutes before we come back, and I 
hate to hold you. So we will try to move along but we certainly 
want to hear from you and, of course, any testimony and 
questions can be asked or answered within 14 days.
    I will call upon Mr. Polis.
    Mr. Polis. Thank you, Mr. Chairman. I would like to thank 
Ms. Dore for sharing with us the success story at Upper Blue 
Elementary. It is wonderful to hear that this year many at 
Summit School, Summit District schools are implementing the 
school-wide systemic reform that has produced such great 
results, and holds such promise.
    The improvements in student reading performance on the 
Colorado Student Assessment Program after the implementation of 
your response to instruction approach is really impressive, but 
as you pointed out, the writing scores--and I will point out to 
my colleagues the Colorado test writing is a category even 
though it is not required under No Child Left Behind--the 
writing scores are, while higher in the district and state 
averages, could be higher, and you mentioned that the district 
has focused its attention on this area.
    As you are aware, Representative Yarmuth and I recently 
introduced the LEARN Act which will support comprehensive state 
and local literacy initiatives to ensure that children from 
birth through twelfth grade have the reading and writing skills 
necessary for success and schooling beyond.
    And the LEARN Act includes all language and, as Chairman 
Kildee mentioned, also writing as part of developing literacy 
competence and seeks to ensure a systemic approach to providing 
high quality instruction in both reading and writing from early 
childhood through grade 12.
    Can you please describe how the legislation, if enacted, 
would help you and educators across the country implement and 
scale up effective practices that raise student achievement in 
both reading and writing?
    Ms. Dore. It is all connected. So that is what helps when 
you are talking about the LEARN Act is how it starts to 
describe the picture of all of those oral language and reading 
and writing all being connected.
    When I talked about our results, it is easy, as you see on 
this sheet, we have all sorts of different oral language with 
the CELA test and then all of the reading benchmarks. What we 
don't have a lot in writing are those same benchmark 
assessments.
    We have the CSAP scores, and then we have what we are 
trying to develop at schools are some common assessments and 
some common benchmarking to see how students' writing 
progresses. But it hasn't been as well tuned as literacy and as 
reading.
    So those are the pieces that we are trying to create some 
ourselves to try and make sure that teachers know what 
benchmarks students should be hitting during their writing and 
how that progresses.
    It is also practice. As Dr. Strickland was talking I just 
kept thinking, students need to practice, practice, practice. 
Practice that writing for different purposes. So I applaud you 
for looking at literacy in that whole perspective. Oral 
language, reading and writing, that is what is going to help 
folks understand how those are all interconnected.
    Mr. Polis. Thank you, and I would also point out we 
approach reading in the whole age perspective as well from 
early childhood all the way through high school where the needs 
are. This question is for whoever would care to address it.
    You have all described how professional development is a 
critical component of successful literacy programs and 
initiatives from early childhood through elementary and 
secondary. But I often hear from educators in my district and 
across the country that there is not enough time and resources 
available for meaningful professional development and 
collaborative teamwork.
    So recognizing this, the LEARN Act focuses on providing 
high quality professional development for staff including 
literacy coaches and teachers of students with disabilities and 
English language learners that is job embedded, ongoing, 
research-based and data driven.
    Can you please discuss, if any of you have any comments on 
the significance of effective professional developments 
programs for improving literacy instruction and outcomes and 
how the LEARN Act will enable districts to implement effective 
models?
    Ms. Dore. I think having that support for the professional 
development is crucial. The time that teachers need--we talked 
about it a little bit--that when they are working from 7 am to 
4 o'clock and then having teacher meetings after school, it is 
hard to do that professional development on top of a day that 
they have already spent with children.
    Even though literacy is a cornerstone, we are also having a 
lot of competing 21st century skills, science, math, all those 
things are still--teachers need to focus on those, too. So the 
idea of having a job embedded in literacy coaches is crucial, 
without that support, it doesn't work.
    Mr. Polis. I know you shared this with me earlier, but tell 
me how some would count as literacy coaches, and I think you 
called them a different thing but tell me how that works?
    Ms. Dore. We call them literacy resource teachers, and we 
have one in each elementary school, in the middle school and 
the high school as well as some Title 1 support. So those 
teachers not only do direct intervention but they also support 
teachers in the way of coaching, gathering data, synthesizing 
data, looking at big trends.
    Then linking those trends to professional development needs 
that we have not only in the school but across the district, so 
they have been really crucial at that synthesizing, crunching 
the data that sometimes classroom teachers don't have the time 
to take and then don't have the time to do with that.
    And then they also get the big perspective that helps them 
look at big district trends and what is happening with separate 
demographic groups and subpopulations. So they have been 
essential in moving us forward with literacy instruction.
    Chairman Kildee. Yes, Mr. Henriquez?
    Mr. Henriquez. Yes, one of the things we were very 
interested in noting was the impact of literacy coaches not 
only on teachers but how those teachers impacted student 
learning. One of the things we funded was the RAND Corporation 
to do a study of literacy coaches in the state of Florida, 
which at that time, had the largest number of literacy coaches 
statewide.
    And what they found was that the literacy coaches who used 
data to instruct their teachers were the ones who were able to 
best have the kind of results that we want for our students. So 
it is absolutely essential that we not just have blind literacy 
coaches but that they have the tools necessary to understand 
that data systems and also that they are using that data as a 
way of giving instruction.
    Mr. Polis. Thank you. I yield back.
    Chairman Kildee. Gentlelady from Illinois, Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I think it is very timely and 
interesting.
    Mr. Berger, you know, coming from a generation where we 
didn't have computers and all the software and all of these 
things and I can remember going to the library, riding my bike 
and filling up the basket with books and riding home to read 
them for the week. And then this process continued on and on.
    Is there--with your software, were books involved in this 
as well as--I know I have seen some of the programs, and they 
are great because they really do customize, you know, when a 
child doesn't get something, it goes back so many times and 
gives them the tools to move ahead. But how do books fit into 
the picture as we have, you know, such a change in technology?
    Mr. Berger. It is a really important question. I think part 
of the reason why we have focused on small devices like this is 
that whereas in the early enthusiasm about the role that 
computers could play in technology, a lot of what people did 
was to insert the computer between the teacher and the student, 
and sometimes spend too much time leaving kids alone with 
computers.
    And I think the philosophy in classrooms that really work 
is that kids need a lot of time alone with books. I don't know 
how much time they need alone with computers.
    And the other thing that we need to think about is what are 
the ways that we can design a classroom where technology is 
humming behind the scenes to extend the reach of a human 
teacher, to extend the different kinds of interactions kids 
have with each other in the classroom but maybe not so central 
to how teaching happens, or let the computer teaching happen in 
after school or in special class times that allow freeing up 
teachers for professional development. But to see teaching as a 
really human process that technologies that support.
    And we have made a point of in every one of the 
intervention programs that we have done, having the program 
come with a basket of additional books on top of whatever else 
teachers have to just keep reminding teachers, that even when 
you are teaching very basic skills, like what are the letters, 
that one of the most important ways to do that is to find the 
letters in a book so that you keep connecting to kids.
    The reason we are teaching you these basic phonic skills is 
because some day you are going to be able to read a book in 
your backyard.
    Mrs. Biggert. Well, what about the older, you know, there 
seems like there is such a drop off as we get in the middle 
school and then to the high school. And of course now research 
has done so much on the computer that, you know, there isn't--
well, it is a lot of ease to find what they are looking for 
that we didn't have. But could this be a negative? That--not 
using books for a lot of these things?
    Mr. Berger. I think the question of whether the medium is 
paper or a computer is less important than our kids struggling 
with difficult texts that are at their reading level and 
starting to push beyond their reading level.
    And are they having to have situations where in addition to 
struggling individually, they are forced to talk with teachers 
and with fellow students about big ideas that they are pulling 
out of text. And there is precious little of that happening in 
classrooms and the question of what we can do to focus teacher 
time and student time on what it takes to grapple with the 
difficult text.
    And technology there can support, student attention can 
support student focus, can help explain difficult vocabulary 
words. But it still is a matter of the text, whether it is on a 
screen or in a book.
    Mrs. Biggert. Thank you. And then, Dr. Meyers, I assume 
that you have a grant for the program that you have, the 
Reading First. And it is going to expire, or the program is 
going to expire.
    Ms. Meyers. Yes.
    Mrs. Biggert. So you have had the coaches, and are you 
going to--let us assume that you won't have one, which we hope 
you will continue in the program. But if not, what would you do 
you know to keep the teachers, you know, the professional 
development, will you be able to--are there other teachers then 
that can take that role and help new teachers as they come in 
to the district?
    Ms. Meyers. I think from what I have seen in just the 
Reading First school, the districts will take on that 
responsibility, and they will use other funding. For instance 
in one of our districts, they use their ELL funding to provide 
additional coaches in schools that they put in the Reading 
First Program so that each one of their buildings had a reading 
or a literacy coach.
    The state does not have a plan at this point to take care 
of any kind of funding. We are certainly struggling with 
cutbacks ourselves, so it will be up to the individual school. 
But as we go along and put in RTI in all our schools as 
required in the regulation, I personally don't see how it will 
happen without these literacy coaches because that is the type 
of professional development you need.
    You cannot have these one shot deals, you have got to 
sustain, keep it moving, build your capacity up, and you have 
got to go in those classrooms, and give them feedback, team--
plan with the teachers.
    But they are--I think those coaches are essential. They 
have been essential to our programs, and they are your 
instructional leaders as we bring on our principals to be 
instructional leaders. And those principals are a big piece of 
making these things work.
    Mrs. Biggert. Thank you very much. I yield back.
    Chairman Kildee. Thank you, Mrs. Biggert.
    Mr. Payne?
    Mr. Payne. Thank you very much. And I don't know whether 
the chairman thought I needed help in literacy. I wanted to 
introduce Dr. Strickland but as you know, she is from New 
Jersey and has served in Newark, and we co-chaired a literacy 
group back in the early 1990s. But I will forgive you this 
time, Mr. Chairman.
    However, it is great to see Dr. Strickland and all the work 
that you have done for so many years with former Governor 
Florio and Senator Florio in the setting up in the 1970s or I 
guess it was in the 1990s the literacy centers in New Jersey, 
which after the National Literacy Act was passed in the early 
1990s.
    So it is really great to see you. I just would like to ask 
you about the fact that research as you have mentioned, 
demonstrates that substantial achievement gaps in literacy 
develop early in childhood. And that early life experiences 
influence reading ability.
    We know that youngsters who are in more affluent 
communities tend to hear more words and the number in their 
vocabulary has increased, and therefore it helps with literacy 
in general. I just wonder if, you know, in your opinion how can 
early literacy programs successfully address this reality?
    What is it that we can do, and are there promising early 
education models that provide the appropriate levels of family 
involvement and focus on family literacy because as we know 
that is where it begins.
    Ms. Strickland. Well, the final thing that you have 
mentioned is something that I don't think we have stressed 
enough here today. And that is family literacy and family 
involvement, both at the early childhood years and those middle 
school years, where very often we find very little family 
involvement.
    They come for the assembly programs and not much of 
anything else. So many of us were pleased to see that as a part 
of the LEARN legislation. One piece of research that is 
astounding to me and is very important for this comprehensive 
look that we are addressing today, is the fact that about 50 
percent of the gap at the end of high school already exists 
when children enter first grade.
    Now, this has been done by analyses of the data across 
grade levels. That is profound. So it is very hard to catch up 
once you have had problems during those initial years. The 
benefit of what I believe is being proposed here is this notion 
of a comprehensive approach that truly addresses young children 
and their families and all of the things that are attendant.
    The need to address children's well-being, children who 
aren't well-fed, who don't have a good social, emotional 
status, these kids aren't going to learn. It is very hard to 
teach them. They are not going to be able to take advantage of 
the teaching.
    But we have got to continue that throughout. And I think 
that we have come to grips with that. And we have learned a lot 
from both Early Reading First and Reading First with the flaws, 
with the problems, with the issues that we have had, we need to 
use what we have learned, and use that to make this legislation 
really as good as it can be.
    And I am very excited because I have been working for so 
long with so many different administrations. I was kidding with 
Andres that I worked with every president since Abraham Lincoln 
but it is not quite that bad, but sometimes I feel that way.
    We have learned a great deal. Our children deserve a lot 
better than we are giving them right now but I am so hopeful 
for everything that you are doing and which the Senate is doing 
at this point in time. And the notion of coaches has been 
addressed beautifully here.
    One of the things we do with coaches is differentiate 
coaching, you know, for different teachers. We have never done 
that before. This is a new time, a new day, and I am extremely 
hopeful.
    Mr. Payne. Thank you very much. It seems like resources 
would also help there. Thank you.
    Ms. Strickland. Glad you said it.
    Ms. Meyers [continuing]. In reading the data on our Early 
Reading First, it was amazing to me to see that the majority of 
children were of ELL, and the majority of them did succeed and 
perform in K and first grade as well as children who did not 
come from the low income families or families where English was 
not the primary language.
    And their scores actually increased in first grade as they 
got good instruction in Reading First schools, where we were 
doing the essentials and doing the coaching.
    So it is to me, and then when I look at the Reading First 
schools who do not have that type of preschool experiences 
coming to them and do not have full day kindergarten, those 
children start in kindergarten with approximately 20 percent at 
benchmark as opposed to in our high poverty schools--as opposed 
to the children who would come out of an Early Reading First 
Program.
    So I support this comprehensive idea because I know that we 
are in bad shape as far as our adolescent literacy. But it does 
start in the preschool, and we have got to--and even in 
infancy--but we have got to work it up but it is amazing what 
that can do.
    And the technology piece I would like to add is crucial to 
our children who have lacking in background experiences. We 
have got to have ways in the classrooms that we can build that 
background knowledge to go along with that oral language. Thank 
you.
    Chairman Kildee. We have three votes pending. The first 
vote is called for 15 minutes, and then there are two 5-minute 
votes after that. There is a little there in between, but I 
think we are going to have to come back.
    And but I will--Mr. Ehlers is next in line. I will call 
upon him. We can take the first 15 minutes they usually stretch 
out a little bit. So we will take Mr. Ehlers.
    You are recognized, gentleman from Michigan.
    Mr. Ehlers. Thank you, Mr. Chairman. And I will try not to 
use all 15 minutes.
    Chairman Kildee. Did I say 15?
    Mr. Ehlers. But at any rate, I appreciate you very much for 
holding the hearing. Literacy is extremely important as we all 
know. And I do want to note that I think libraries are an 
extremely important part of this. And I see Mr. Henriquez 
smiling because Mr. Carnegie was influential in getting a great 
many libraries started across this land.
    I personally learned to read because as a sickly child, I 
was not able to go to school. And I learned to read primarily 
with library books and read voraciously, starting with very 
simple Dick and Jane stories and going on up.
    I would--there is a letter that was submitted to you, Mr. 
Chairman and to Mr. Castle, from the American Library 
Association regarding this issue in connection with this 
hearing. And if that has not already been entered into the 
record, I would like to see this placed in the record.
    Chairman Kildee. We will make sure that is in the record. 
Thank you.
    [The information follows:]

                                                 November 19, 2009.
Hon. Dale Kildee, Chairman; Hon. Michael N. Castle, Ranking Member,
Subcommittee on Early Childhood, Elementary and Secondary Education, 
        Committee on Education and Labor, 2181 Rayburn House Office 
        Building, Washington, DC.
    Dear Representatives Kildee and Castle: On behalf of the American 
Library Association (ALA), I am writing in support of your efforts to 
improve literacy skills and respectfully ask that you include this 
letter as part of the official record for the Subcommittee's November 
19, 2009, hearing to highlight the contributions of librarians and 
library programs in improving the literacy skills of children and young 
adults.
    In general, librarians are professionally trained information 
experts who help improve the literacy skills of children and young 
adults. They regularly aid teachers in building students' research and 
information literacy skills; they possess deep knowledge of adolescent 
literacy development; and they are the absolute best resource for 
ensuring that schools have a wide variety of reading materials that 
students both need and want to read.
    The public library is the community's center for early literacy 
coaching for parents and child-care providers. As you know, a child's 
brain develops at an incredible rate during the first three years of 
life. A child's early experiences with language contribute to healthy 
brain development.
    The 1998 publication Preventing Reading Difficulties in Young 
Children was a landmark report that clearly established the link 
between providing a rich early literacy environment in the preschool 
years and later success in school. After this publication, public 
librarians developed a program to develop children's reading skills 
based on six key pre-reading skills that children must have before they 
can learn to read: narrative skills, print motivation, vocabulary, 
phonological awareness, letter knowledge and print awareness. This 
model of service focuses on teaching the parents and caregivers how to 
foster early learning skills. This model of library service should be 
available to every community in a public library with a comprehensive 
materials collection.
    Public librarians provide many other types of resources that 
support early childhood literacy: children's books that are suited to 
various ages and interests, story-time, parenting books that provide 
specific information and techniques for effective parenting skills, the 
latest research about brain development and learning; and trained 
librarians who can teach parents and caregivers the most effective ways 
to read to children.
    Public librarians have embraced their responsibility to be the 
first literacy coach for parents and caregivers of all children, 
especially children in low-income families. Some services provided to 
these families include bookmobile and storytelling mobiles, story-time 
kits, early literacy classes for childcare providers, Head Start staff 
and parents. Bringing books to neighborhoods in communities without 
many books available is an important task for bookmobiles.
    School librarians are the central teachers who know the school's 
curriculum and effective techniques necessary to cross disciplines and 
integrate information and technology literacy. They have collaboration 
skills for effective participation in the school improvement process 
through involvement in curriculum development, implementation and 
evaluation with individual educators and departmental committees, and 
are well-positioned to participate in the improvement of data-based 
assessment systems. Every school that hires a state-certified school 
library media specialist employs a staff member who possesses an 
advanced degree or state-level certification and experience in both 
reading and literacy, which is ideal for complementing the learning 
taking place in classrooms.
    In schools, libraries are both the physical and virtual hubs of 
learning. They provide access to a wide variety of reading materials, 
as well as a real and virtual space for learning and exploration, to 
every student and faculty member in the building. Libraries are cost 
effective in that they are the single place that maintains a collection 
of a broad-range of reading material and learning resources. We know 
that children will learn to love reading if they have a wide selection 
of materials to choose from.
    It's no wonder that research repeatedly shows that a well-funded 
and fully staffed school library with a state-licensed school librarian 
is an integral component of a student's education. Across the United 
States, studies have demonstrated that students in schools with good 
school libraries learn more, get better grades, and score higher on 
standardized tests than their peers in schools without such resources.
    Accordingly, ALA is pleased that both the House and Senate versions 
of the LEARN Act (Literacy Education for All, Results for the Nation) 
contain various provisions to support libraries in the development and 
implementation of early learning through grade 12 literacy programs.
    Specifically, we applaud provisions included in both bills that 
would:
    <bullet> Improve reading, writing, and academic achievement for 
children and students by strengthening coordination among various 
programs and entities including public libraries;
    <bullet> Authorize funds to be used to promote reading, library, 
and writing programs that provide access to engaging reading material 
in school and at home;
    <bullet> Define an eligible entity to include a public library 
program;
    <bullet> Define instructional staff to include librarians and 
library school media specialists; and
    <bullet> Include a library media specialist on the State Literacy 
Team.
    As the Congress moves forward in advocating for improved literacy 
among our children and young adults, ALA asks that you continue to 
recognize the integral role libraries and librarians play in achieving 
this goal.
    Again, thank you for your focus on improving literacy skills, we 
look forward to working with you in completing this effort and 
successfully implementing the LEARN Act.
            Sincerely,
                                           Emily Sheketoff,
                         Executive Director, ALA Washington Office.
                                 ______
                                 
    Mr. Ehlers. Thank you. The librarians are professionally 
trained information experts, and I have had a lot to do with 
them. I served on a city library board, a county library board, 
state library board also at the Library of Congress.
    And librarians are incredibly well-trained to deal with the 
literacy problems in my hometown. They are the leaders in 
helping people who are illiterate and helping them learn how to 
read. And I am talking about adults.
    They regularly aid teachers in building students' research 
and information literacy skills, they possess deep knowledge of 
adolescent literacy development, and they ensure children have 
a wide variety of reading materials that they both need and 
want to read.
    And I would just like reaction from the panel on this. Do 
you believe it is appropriate to include library programs and 
librarians in our efforts to improve the literacy skills of 
children and adults, and how do you think they can best be 
incorporated? It is open to anyone.
    Ms. Dore. We have a great interface in our community with 
our libraries. They come and do presentations to the elementary 
school students, they hold book hours and book shares, and so 
it is a really--I know we are a small community but it is a 
nice way for the libraries to really connect with schools and 
then support parents and children. So we see it as a huge 
community resource piece in our area.
    Mr. Ehlers. Any others?
    Mr. Henriquez?
    Mr. Henriquez. Yes, I appreciate you bringing up the 
library issue. I am a big fan obviously. It is a required part 
of the job. The librarians are oftentimes the individuals 
within schools, particularly in middle schools and high schools 
that can really reach out to the youngster, and engage them in 
a whole other world of books and in reading that sometimes 
doesn't exist in the school building. So when there is a lack 
of professional expertise around adolescent literacy, a 
librarian can be a real anchor within that community.
    That said there are also other issues that librarians could 
be trained to do particularly around how to work with 
youngsters around very difficult expository text that a lot of 
our youngsters are struggling with. And that is something that 
we really need to get under.
    Mr. Ehlers. What can you recommend? What do you think 
Congress should do to help ensure that all students have 
greater access to certified library media specialists? So is 
there anything specific you can recommend for the Congress to 
do? And that is open for anyone, too.
    Dr. Strickland?
    Ms. Strickland. Love that question. I would love to see 
library media specialists in every school. They really help 
coordinate literacy programs. Again, Andres mentioned earlier 
on about the need to have the content area teachers take more 
responsibility for literacy.
    Well, this means schematic kinds of opportunities where 
they are learning content but it is in the best interest of the 
content area teachers, too, because after all if children can 
access the text that they are reading in biology or physics or 
anything else that they happen to be studying, then they are 
going to learn it better and act on it more responsibly and 
better.
    So in many places where they have these kinds of people 
working together with teachers to get the kinds of materials 
they need and technology, print and media of all sorts because 
kids today read across media.
    And they need to separate fact from fiction. It is really 
much harder to be a competent reader today because there is so 
much out there. Select what you need, make good decisions about 
what is useful to your endeavor, and then use it in some way. 
So I would love to see one in every single school.
    Mr. Ehlers. Any other comments? Yes?
    Mr. Gomez. May I add that there is a direct correlation 
with number or volume of children's books, reading books at all 
grade levels and reading performance in schools. And the more 
kids that have access to reading books via library, in the 
classrooms, there are numerous studies that point to the more 
books that are accessible, the higher the reading scores of 
that particular campus.
    Mr. Ehlers. I was not aware of that.
    Dr. Meyers?
    Ms. Meyers. Yes, I would like to just support that 
statement as well, and we have seen that in our schools as we 
have struggled to raise the scores, especially in our first 
grade. We have seen the improvement, and the improvement has 
come when we have gotten more text into the classrooms both--
and especially the expository text.
    And children have had many opportunities to practice and 
read and practice reading connected text. Too much time is 
spent sometimes on isolated skills but not only do we broaden 
their background and knowledge but we give them a lot of 
practice.
    And practice is a key piece of this. So the more that we 
can introduce and more books we can get in classrooms, and get 
teachers to use those books so that their children can read and 
have those opportunities, the better our scores seem to be.
    Mr. Ehlers. Thank you.
    Mr. Berger?
    Mr. Berger. This may seem like a somewhat technical point 
but I think it is an important one about the collaboration 
between libraries and schools. As I said in my testimony, the 
process of education in the classroom is now generating a very 
detailed web of data about each child, what level they read at, 
what they are interested in, what things they find challenging.
    Because of the nature of laws around privacy in our 
country, the transfer of that information to a librarian who is 
not a school librarian but to a municipal librarian is quite 
difficult and almost never happens. And the power of that data 
set for a certified librarian could be really effective in 
their ability to match kids with books, which is a fundamental 
task that they do.
    And so whatever we can do as we look not only at reading 
legislation but at online privacy legislation to clear that 
path for certified librarians would be most helpful.
    Mr. Ehlers. Are you referring to the Patriot Act or 
something else?
    Mr. Berger. I think the main one that applies is actually 
the FERPA registry laws.
    Mr. Ehlers. Okay, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Hinojosa [presiding]. You are welcome. I believe we 
only have time for one more member to ask questions. And I am 
next on the line. So after I ask my questions we will adjourn 
but come right back after the votes. My question is going to 
be--the first one to Dr. Gomez, but before I ask that question 
I wanted to reiterate my great interest in early reading and 
writing programs that we are discussing here today.
    And say that in my area of Deep South Texas, we have 
literacy programs that have been started in the last 2 or 3 
years by bringing a coalition of three members of Congress with 
adjoining districts to carry out this initiative, and it is 
working.
    And so I want to say that I heard early in the panel's 
discussion that the art of learning can be learned in so many 
different languages. And I served 10 years on the Texas State 
Board of Education, and our commissioner of education told us, 
this is between 1970 and 1980, that the art of learning can be 
learned in any language and then transcend or transfer onto the 
English language.
    But we didn't learn that lesson in Texas, and we certainly 
didn't learn it in Washington. And so if we look at the number 
of children who are in need of this literacy program it is 
greater than 50 percent, just count the Hispanic, the Asian 
American, the Native American and the immigrant children, and 
you will see that it is way over 50 percent of the children who 
need this literacy program.
    All children need it but especially those who come from 
families where English is not the first language. So I ask you, 
Dr. Gomez, what do you recommend that we in Congress and the 
federal government do to increase the number of highly 
qualified bilingual teachers and educators in our nation's 
classrooms?
    Mr. Gomez. Well, I think that it is really important that 
there be incentives supporting states for the recruitment of 
bilingual ESL certified teachers that understand educating 
children whose primary language is not English all the way 
through high school because these kids although we know that we 
have been talking about early literacy, there were some 
discussions about secondary, middle school, high school 
literacy.
    And of course literacy is relative to grade level, so when 
we are talking kindergarten literacy, then we are talking high 
school literacy. Those are two very different levels of 
literacy.
    Mr. Hinojosa. Be specific on what you think would help to 
move the ball forward and score.
    Mr. Gomez. If we provide, if we require in essence teacher 
preparation programs that every teacher, every public school 
teacher that is certified in every state somehow has the 
preparation coursework, one or two courses where they 
understand second language acquisition.
    They understand the academic value of first language 
literacy and how that benefits second language literacy, and 
they become advocates. Right now we have rifts in our schools 
from bilingual certified teachers and non-bilingual certified 
teachers that don't understand what these folks are all about 
and why they are doing what they are doing.
    Mr. Hinojosa. Would you give me something in writing so 
that you are very specific on what we in this committee can 
try----
    Mr. Gomez. Yes, most definitely, most definitely.
    Mr. Hinojosa [continuing]. In the No Child Left Behind 
reauthorization. And my next question and last point is to 
Andres Henriquez. Can you highlight the strategies that are 
critical and necessary to improving adolescent literacy for 
African American, Latino, Native American and Asian American 
students?
    Mr. Henriquez. Yes, as I said in my testimony is that while 
kids of color are certainly affected by this the most, it is 
not only an issue of children of color. It is many, many 
students. However it is exacerbated in the issues around 
English language learners in particular.
    One of the things that we see, especially in middle schools 
is what we called double the work, meaning that our youngsters 
are acquiring their first language, in a sense, which would be 
English, and at the same time, acquiring another language, 
which is academic language. So all of the work that they are 
doing in middle schools and high schools in terms of acquiring 
knowledge around chemistry and biology that is not written in 
their language, so we call that double the work, they have to 
do twice as much work as the average student.
    And in my extended testimony that I gave this morning, the 
report, which is called ``Double the Work: Actions to Do with 
English Language Learners for Adolescent Literacy,'' outlines a 
whole host of recommendations that we can do for those 
youngsters who are way behind in reading in more English 
language learners.
    Mr. Hinojosa. The presentations that you all made were 
extremely interesting and informative. And I am looking forward 
to the second part of the dialogue that we are going to have 
with all of you.
    I personally want to thank you because this is one of the 
most important initiatives and things that I work on on my 
Education Committee. And I thank you for that. I now say that 
we are recessed for a few minutes.
    [Recess.]
    Chairman Kildee [presiding]. Again, I apologize for the 
break but this is the process of legislation down here. We 
have--Woodrow Wilson said that ``Congress at work is Congress 
in committee,'' and this is really where we do our--we go over 
there and vote once in a while, but we learn so much in 
committee, and we appreciate your understanding of our process 
here of running over to vote on naming post offices and things 
like that. I am not sure I would.
    And at that I think I have the governor's permission to go 
ahead. Have I? We were riding in the same car over here, so we 
will now recognize Mr. Yarmuth, the co-sponsor of the bill for 
questions.
    Mr. Yarmuth. Thank you very much, Mr. Chairman, and thank 
you and Ranking Member Castle for extending the courtesies of 
the subcommittee to me, but on the other hand you owe me having 
lured Lillian Pace away from my staff.
    Chairman Kildee. Yes, sure.
    Mr. Yarmuth. And but I----
    Chairman Kildee. You know that was grand theft.
    Mr. Yarmuth. I know she is doing as phenomenal a job for 
you as she did----
    Chairman Kildee. She is doing a great job.
    Mr. Yarmuth [continuing]. As she did in my office. Thank 
you all for your work and for your testimony. I was just home 
last week and sat in on an educational forum and one of the 
things that was talked about more than anything else was 
literacy and particularly Dr. Strickland, with regard to the 
sociological context of early childhood and doing what we could 
to see that everybody started off on a sound footing.
    And a lot has been talked about today in that regard. In my 
community we have an organization called the Seven Counties 
which does a lot of the social service work, particularly with 
regard to Medicaid families, and they have a program that they 
have instituted in conjunction with hospitals and actually a 
bank, that helped fund them, to counsel young mothers about 
reading and literacy and talking to their children, actually 
give them the books that Chairman Kildee was talking about.
    But from a governmental perspective, what in your opinion 
can we do to try and to give parents that input and help to 
establish that that environment that is conducive to early 
childhood learning. Is that a government role, and what can we 
do?
    Ms. Strickland. It is very much a part of what early 
childhood professionals should be involved in, certainly zero 
to five and beyond as I indicated earlier on. Two very 
important programs that were mentioned earlier on, Reach Out 
and Read, which is really an initiative of pediatricians and--
who do give books to parents and explain the role of early 
literacy and their role in it early on and then, of course, 
Reading Is Fundamental.
    They were both mentioned early on. But parents are indeed 
the child's first and most important teachers. There is just no 
question about it. So what we do, and what they do should be 
reinforced. Good family literacy programs, parent involvement, 
can go a long way, and they also reach out to the other 
services which you indicated, the social services and so on, to 
help support families.
    When families are supported they are more likely to do the 
kinds of things that we ask them to do. I am one who is always 
saying read to your child every night, talk with them, and yet 
I know that a lot of parents from certain communities are under 
such stress and have so many difficulties on their own that 
this may be the last thing they think of.
    So it will need a comprehensive approach at that point as 
well. But I think it is worth it. It is worth every cent of it 
to get that foundation and have the whole family involved.
    Mr. Yarmuth. Absolutely. Thank you.
    Mr. Berger, one of the things that we, I think, all 
generally assume is technology is going to continue to play an 
increasing role in education, and I appreciate the work you are 
doing. I am a big fan of ``Disrupting Class'' by Clayton 
Christensen, so I kind of become a disciple of that as well.
    But the question I have is, because there have been 
controversies in the past with Reading First about the 
proprietary systems, and it is great that you are doing the 
work that you are doing. Does government have a role here in 
supporting research into whether it is technology related to 
education or just basic research as to how kids learn and all 
of the techniques that we are talking about here?
    Mr. Berger. Absolutely. I think one of the statistics that 
I believe is in ``Disrupting Class'' is the interesting 
comparison between the amount of funding we do for basic 
research through the NIH and the amount of funding we do for 
basic research through IES, and it is a 100 to 1 ratio. And so 
the question of why we don't have the basic research foundation 
for some of the kind of things we want to get going in 
literacy, may be findable in that 100 to 1.
    Mr. Yarmuth. Yes.
    Mr. Berger. I think that the connection between the tools 
of technology and the kind of data that they can gather about 
student performance, and that research agenda may be the place 
where there is a bit of a disruption in the way things work. It 
used to be that an efficacy study was a 3 to 5-year endeavor 
with graduate students running around to try to get data out of 
a classroom that was otherwise hermetic.
    What we have now are steady streams of data about how kids 
are progressing, down to individual samples of work, down to 
particular developmental skills and the exact day they show up 
in a child's development, and I think that becomes a really 
fascinating foundation for new research.
    And so as money is made available for research, and the key 
thing to understand about this sort of legislation is the level 
at which you set the standard of what counts as valid research 
drives a whole marketplace of investment in serious R&D. If 
there isn't a standard of research, then it is easy for the 
publishing industry to just use marketing as their way to 
decide which one to sell.
    As soon as there is a standard of what efficacy is and the 
higher it is, the more pressure you put on the forces of supply 
and demand, which have more money than the research agenda ever 
will to invest in real gold standard research to prove what 
works and doesn't work.
    Mr. Yarmuth. Yes. Mr. Chairman, I see my time is up. I 
would just like to make another observation that occurred to me 
in listening to some of the testimony earlier and that is the 
observation we may have made a mistake all these years in 
telling school kids to shut up? Maybe we should have been 
encouraging them to talk more in class and to each other. It 
might have helped.
    Thank you. I yield back.
    Chairman Kildee. Thank you very much, and it is always to 
have you back here, and you are always welcome here. And again, 
I am glad that I have Lillian on my staff, and I know you miss 
her, but by the way, while I am mentioning that I want to thank 
both Lillian Pace and Allison Dembeck for their great work, you 
know, to assemble a panel like this requires some input from 
us.
    We know something is going on, but to assemble the panel 
and get people who really know this in depth and various 
aspects of it, requires great staffing, and I want to thank 
Allison and Lillian for having really assembled--while I was 
over on the floor many of the members were saying, ``That is a 
great hearing,'' and sometimes we have other dull hearings.
    This was not dull. This was very, very informative. This 
was--every one of you, individually and collectively, have 
contributed to the knowledge we need to do what this country 
needs very, very badly.
    So let me just ask one final question. You know, we have 
about four basic programs running through ESEA or through the 
appropriations committee. One never was authorized but it is 
through the appropriations committee. How do we move forward to 
perhaps a more comprehensive program, taking the best parts of 
the existing literacy programs? Anyone want to just start down?
    Ms. Dore. The way that we have looked at it on the ground 
in the school district is really that multi-tiered level 
support, having that good universal tier of instruction and as 
you heard Mr. Berger talk about research, is so that schools 
have that menu of things to choose from that works in their 
school and works in their district. But they are still using a 
good universal tier of instruction where at least 80 percent of 
the kids are proficient or above.
    And then when students struggle how do you support them? Or 
how do you extend them if they already have those skills? So it 
really is helping schools change so that everybody gets the 
same thing so that kids what they need. And we support them 
through that, and we bring their families in, and we work with 
their families as to how they can support children at home.
    It really is changing--I keep calling it changing how we do 
business. We need to do different work for the consumers that 
we have now, our kids and our families.
    Chairman Kildee. Thank you. Anyone else want to comment?
    Mr. Henriquez. Yes, I would just like to say that if this 
becomes part of the ESEA in the future, and as I said in my 
testimony that there is only 5 percent of resources going into 
middle schools and high schools in terms of literacy for middle 
schoolers and high schoolers. And so we hope that we can shift 
some resources to go to the older grades so that we can 
actually have a knowledge basis as to what we need to do.
    We have some evidence that IES and others are doing in 
terms of researching this, but we need much more, and we need a 
lot more doing the research while we are doing the practice.
    Chairman Kildee. Thank you.
    Yes, Mr. Gomez?
    Mr. Gomez. Well, we really need to emphasize more on the 
strategies to eliminate the need for interventions. There seems 
to be quite a bit of emphasis on interventions in the upper 
elementary grades and even middle school grades and by that 
time it is a little too late. We have dropped the ball for 
these kids.
    So the idea of doing this early literacy, identifying these 
strategies that work for these kids early, working with 
families, is--and understanding that literacy come in different 
languages, will allow for making sure that no gap begins early, 
which is where the gaps really begin.
    We fix high schools and middle schools and elementary. For 
the most part studies continue to show longitudinal studies 
that follow kids over time, show that the kids are somewhat 
okay in elementary but they are not okay, the same kids, in 
middle school and high school.
    And of course for many, many kids, either from poverty 
issues or language differences, cultural differences and so on, 
so it is really an elementary discussion that we need to really 
focus on so that we eliminate the need to focus on the 
intervention which means it is already--the problem is already 
there. We need to go to the root of the problem.
    Chairman Kildee. Ms. Chu?
    Ms. Chu. Thank you, Mr. Chair. My question is for Dr. Leo 
Gomez. First of all I want to commend you for your 
recommendation to change the name of limited English proficient 
students to--or English language learner students, to bilingual 
learners. In California we call them English language learner 
students, but to use such terminology only points to the 
limitations and not to just a state of being.
    Now, in California we have had a really stormy history with 
bilingual education, including an initiative to end it totally. 
In addition we have had a state board of education that is in 
essence implementing a one-size-fits-all curriculum, focused 
just on the basics. However, there are many, including me that 
have advocated for a curriculum with alternatives for bilingual 
learners.
    Do you believe that there are consequences to a one-size-
fits-all type of curriculum and if so, what are they?
    Mr. Gomez. Yes. I think we need to look at education or 
what we many times refer to as mainstream education a little 
differently than we have 20, 30 years ago because the 
mainstream has changed. The type of children and what children 
bring to school in the past, and we still continue to some 
extent, we look at their differences, whether it be language, 
cultural as deficits, as problems we need to overcome so that 
they can become like the mainstream.
    And I think we are at a point now in our history where we 
are a diverse group, a diverse America, and we need to rethink 
how we address these differences and look at children's assets 
as opportunities to enrich other children. And then, of course, 
properly educate them.
    I believe, just to try to answer your question more 
directly, there is no one-size-fits-all, but there are some 
basic tenets that we must follow when educating children 
regardless of the situation. There are some fundamental pieces 
that we must not veer away from and one of those, as we talked 
about is, of course, children learn more effectively if they 
understand the lesson.
    They learn their skills. They learn to read more 
effectively if they are understanding what is going on in the 
classrooms while they learn and develop that second language. 
It is not a coincidence that for over 40 years now our English 
speaking population outperforms our non-English speaking 
population.
    It is because we are treating our non-English speaking 
population like our English-speaking population, and we have to 
look at this issue and say, okay, this is not the same so we 
can't change them.
    We cannot make them something they are not. Let us look at 
what they bring. Let us look at that as a resource, as a tool 
for learning, and let us close achievement gaps by addressing 
our diversity versus kind of sweeping it under the rug and 
saying, you know, just learn English, and everything will be 
fine.
    That has been our approach and every strategy shared here 
today is an excellent strategy, excellent ideas for literacy 
development, but until we understand that literacy development, 
literacy is literacy and literacy in Vietnamese, in Spanish, in 
Chinese is literacy, and that literacy transfers, then we are 
not going to get very far, and we are going to continue to see 
the underachievement of our children, especially in the middle 
school grades.
    As I was pointing out to Mr. Henriquez, that I shared in my 
testimony, a huge study that was conducted, looking at the same 
results that they found in the Carnegie results that the kids 
look--all these minority children they look fine in elementary, 
but the gap widens in secondary, in middle school and high 
school because they really were not literate.
    They were English-speaking. You know, they learned the 
language, but they really were not literate. If you look at our 
high school dropout rates there are studies out there that look 
at children that are dropping out, and 92 percent are English 
proficient.
    They speak English. What they are not is academically 
proficient on grade level in that language, so their academics 
suffered along the way and of course, as we have said, it 
started early. So it is about getting that academic and English 
development at the same time to reach that goal for these kids.
    Ms. Chu. And a quick question, how did Texas fund the dual 
language? Were federal funds used, and should literacy 
reauthorization include funding to address bilingual learners?
    Mr. Gomez. We are very fortunate in Texas that we have got, 
you know, our legislators are very visionary and progressive 
and we have a dual language law in Texas now that allows and 
actually encourages school districts to move toward dual 
language as the program, the go-to program or the program of 
choice for educating our non-English speaking population, but 
also for educating our English speaking population because dual 
language consistently shows that these kids that are educated 
through two languages develop cognitive advantages in their 
learning.
    And are actually outperforming monolingual English children 
when they are educated through two languages, and of course 
other countries in the world have known this for years because 
they have been educating children through two or more languages 
for many, many years.
    A lot of the funding is really funding from traditional 
bilingual funds from the state and federal government. The 
state is just now beginning to provide some specific funding 
for dual language or for dual language schools.
    Right now huge school districts like the Dallas Independent 
School District, the Fort Worth Independent School District, 
are implementing dual language district-wide for all of their 
non-English speaking children, specifically their Spanish 
speaking children.
    And as one way dual language, but at the same time they are 
offering to something over 3,000 English dominant children dual 
language. But what is really interesting in Dallas is, our 
African American population, which are being underserved in our 
school systems due to cultural reasons in particular, are 
participating in dual language in high numbers, and we are 
seeing some tremendous results with that group as well, which 
we hoped would happen in Dallas.
    So it is this kind of forward thinking, you know, and 
moving away from traditional approaches and looking at our 
diversity as assets that we should be embracing as 
opportunities for all kids.
    Chairman Kildee. I understand that Mr. Payne has no further 
questions? Is that correct?
    Mr. Payne. That is correct.
    Chairman Kildee. Again, I want to thank all of you for this 
hearing. It will go down as part of the history I think of 
really making some quantum leaps forward. You know, everything 
begins with baby steps, but ultimately we need a quantum leap 
some time.
    And this has always been a bipartisan interest in this 
Congress and in this committee. Matter of fact, one of the 
bills, Even Start, is named officially after Bill Goodling when 
he was a minority member of this committee. Then he became 
chairman later on, and I have seen the program in operation in 
Saginaw. So it has always been bipartisan. Education generally 
is bipartisan. This particularly, literacy, is so basic.
    So we thank you for all you do in it. We thank you for your 
testimony today and as previously ordered, members will have 14 
calendar days to submit additional materials for the hearing 
record. And any member who wishes to submit follow-up 
questions, so you may get some follow-up questions, in writing 
to the witnesses, should coordinate with the majority staff 
within the requisite staff.
    And without objection and with my thanks, this hearing is 
adjourned.
    [A submission of Mr. Polis follows:]

       Prepared Statement of the Colorado Department of Education

                 a bill: h.r. 4037 (the ``learn act'')

Currently Being Presented to the United States House of Representatives

    The Colorado Department of Education wishes to express its support 
for the landmark federal literacy bill, the LEARN Act, as well as 
appreciation for the leadership of Rep. Polis in introducing this major 
legislation to fund comprehensive literacy programs spanning early 
childhood through grade twelve. The opportunities this legislation will 
afford the states in supporting the development of a comprehensive 
state literacy plan will be substantial and ensure a systemic approach 
to providing high quality instruction in reading and writing from early 
childhood through grade twelve.
    Colorado congratulates the sponsors of the bill for proposing 
legislation that: (1) provides a means for scaling up pilot literacy 
programs that have shown promise in raising student achievement in 
literacy, (2) is comprehensive, thus expanding support for literacy 
from preschool through high school, (3) prompts states to accelerate 
and expand their implementation of evidence-based practices for all 
students, (4) proposes a multi-tier system of support to address the 
needs of all students, (5) includes oral language and writing as a part 
of developing literacy competence, (6) includes meaningful family 
engagement in its focus, (7) builds in safe-guards against potential 
conflicts of interest, and (8) has the potential of increasing high 
school graduation rates.
    Representatives John Yarmuth (D-KY3), Jared Polis (D-CO2), and 
George Miller (D-CA7) might consider the following for inclusion in the 
LEARN Act :
    <bullet> Additional criteria for the definition of ``scientifically 
valid research'' using the definition of ``scientifically based reading 
research'' found within the Title I, Part B (Reading First) 
legislation: ``(6) SCIENTIFICALLY BASED READING RESEARCH- The term 
`scientifically based reading research' means research that----
    (A) applies rigorous, systematic, and objective procedures to 
obtain valid knowledge relevant to reading development, reading 
instruction, and reading difficulties; and
    (B) includes research that----
    (i) employs systematic, empirical methods that draw on observation 
or experiment;
    (ii) involves rigorous data analyses that are adequate to test the 
stated hypotheses and justify the general conclusions drawn;
    (iii) relies on measurements or observational methods that provide 
valid data across evaluators and observers and across multiple 
measurements and observations; and
    (iv) has been accepted by a peer-reviewed journal or approved by a 
panel of independent experts through a comparably rigorous, objective, 
and scientific review.''
    (See also Stanovich outlining the importance of scientific thinking 
and scientific research in educational decision-making: http://
www.centeroninstruction.org/files/ScientificallyBasedResearch.pdf
    http://www.nifl.gov/publications/html/stanovich/index.html)
    <bullet> State Education Agency (SEA) ``allowable use'' of funds 
targeted at SEA development of partnerships with institutions of higher 
education for the purpose of conducting research on teacher 
effectiveness as measured by student achievement and for the 
development of pre-service literacy related courses for educators. 
These funds could be used for course review and reporting of review 
results to the public. Aligning pre-service literacy related coursework 
to evidence/standards-based practices is a major leverage point that 
has a direct influence on teacher effectiveness. In addition, this 
activity will help states meet the charge of Sec. Duncan's call to 
improve teacher preparation to better impact student achievement.
    Sec. Duncan's Speech to Schools of Education: http://www.ed.gov/
news/pressreleases/2009/10/10222009a.html
    <bullet> SEA ``allowable use'' of funds targeted at providing 
professional development to SEA staff in order to ensure SEA staff can 
effectively carry out the activities outlined in:
    (Page 27, LEARN Act) Sec.6.(b)(2)(C)(ii): ``ensure that eligible 
entities in the State have leveraged and are effectively leveraging the 
resources to implement high-quality literacy instruction, and have the 
capacity to implement high-quality literacy initiatives effectively;''
    <bullet> Increase the SEA ``Use of Funds'' allocation of ``State 
Activities'' (see page 25, Learn Act) from 5 percent to 10 percent. 
Increasing the SEA state activity use of funds from 5 percent to 10 
percent will provide necessary resources to support (1) SEA 
administration/facilitation of effective K-12 literacy programs, (2) 
SEA administration capacity to carry out activities required in the 
LEARN Act, including the review and development of improved state 
licensure and certification standards, (3) professional development of 
SEA staff, and (4) robust research studies to study the effectiveness 
of school-wide and state-wide literacy programs.
    Note that the Title I, Part B (Reading First) SEA funds were 20%. 
Colorado used these funds to provide professional development, 
technical assistance, including onsite coaching to LEA's from experts 
outside of the district and have received feedback that these state 
level supports made the most significant difference in improving 
instructional practices and ensuring fidelity of implementation at the 
school level. Finally, these funds were essential for related 
administrative tasks including professional development for staff, and 
data collection, analysis and reporting.
    <bullet> Include language in the Act that recognizes the importance 
of SEAs in providing LEAs guidance on how to identify effective 
instructional materials and programs supported by scientifically valid 
research.
    <bullet> Include language in the Act that recognizes the importance 
of SEAs in providing LEAs guidance on how to identify valid and 
reliable formative assessments that have a high likelihood of 
predicting performance on summative assessments.
    <bullet> Include a definition of ``extended learning time'' based 
on scientifically valid research for accelerating the literacy skills 
of struggling students
    <bullet> Include a definition of ``developmentally appropriate'' 
(pg. 68, lines 17-18) (http://www.nifl.gov/publications/pdf/
NELPReport09.pdf)
    <bullet> Extend implementation of a multi-tier system of support 
from pre-K through high school (http://www.centeroninstruction.org/
files/Conversations%20with%20Practitioners%20Corr.pdf)
    <bullet> Include phonic decoding instruction and fluency beyond 
grades K-3, as needed (http://www.centeroninstruction.org/files/
Academic%20Literacy.pdf; http://www.centeroninstruction.org/files/
Adol%20Struggling%20Readers%20Meta-analysis.pdf)
    Thank you again for the opportunity for the Colorado Department of 
Education to enter a statement in the Congressional Record expressing 
support for the LEARN Act and to commend Rep. Polis and his colleagues 
for their leadership in educational reform and proposing comprehensive 
federal literacy legislation. We look forward to this new initiative 
and the support it will give to the students of Colorado and our 
nation's youth.
                                 ______
                                 
    [Questions for the record, their responses, and additional 
submissions from the witnesses follow:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                  Washington, DC, December 1, 2009.
Mr. Larry Berger,
CEO and Co-Founder, Wireless Generation, 500 New Jersey Ave., NW, 
        Washington, DC.
    Dear Mr. Berger: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving the Literacy Skills of 
Children and Young Adults,'' on November 19, 2009.
    Representative Robert ``Bobby'' Scott (D-VA) has asked that you 
respond in writing to the following questions:
    During the hearing the cost effectiveness of early literacy 
programs was discussed by all of the witnesses. My questions are as 
follows:
    1. Compared to what? In other words, what was the cost 
effectiveness of early literacy programs compared with?
    2. Are there specific studies that quantify effectiveness of 
programs that increase literacy, reduce D/O, and crime, etc?
    3. What are the cost savings (specific numbers) of early literacy 
programs?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 12/8/09. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                                  December 8, 2009.
Hon. Robert C. Scott,
Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC.
    Dear Congressman Scott: Thank you and the Committee again for the 
opportunity to testify at the November 19, 2009 hearing on ``Improving 
the Literacy Skills of Children and Young Adults.'' Thank you also for 
your follow up questions regarding the cost effectiveness of early 
literacy programs. My responses follow immediately below.
    Early literacy programs reduce the need to refer students to 
special education programs, which can lead to substantial cost savings.
    As of 2006-07, about 13.6% of students received special education 
services--up from 8.3% in 1976-77. (See http://nces.ed.gov/programs/
coe/2009/pdf/9--2009.pdf, at Table A-9-1.) Yet, as research presented 
at the National Research Center on Learning Disabilities RTI Symposium 
showed, some 35% to 40% of children referred to special education due 
to a Specific Learning Disability were in fact referred incorrectly. 
(For a complete listing of research presented at the Symposium, see the 
following website: http://www.rti4success.org/index.php?option=com--
content&task=view&id=841.) These unnecessary referrals come at a 
substantial cost: a 2003 study found that the cost to educate special 
education students with learning disabilities is 1.6 times that of 
educating general education students. (See http://www.csef-air.org/
publications/seep/national/Final--SEEP--Report--5.PDF, at v.) Thus, if 
we could eliminate a substantial portion of the 35%--40% of unnecessary 
special education referrals, the cost savings would almost certainly be 
dramatic.
    Early literacy programs, as part of a Response to Intervention 
(RTI) approach, reduce these unnecessary referrals. RTI works by 
identifying at-risk students early and providing appropriate reading 
``interventions'' to help them. In our many years of working with 
teachers, principals, and school superintendents on Kindergarten-
through-5th Grade literacy instruction, we have found that many 
students will get ``back on track'' toward reading proficiency if given 
appropriate support through RTI programs. I am attaching as an appendix 
to this testimony a white paper authored by two of my colleagues last 
year that demonstrates the effectiveness of the RTI approach.
    By identifying students before they are referred to special 
education, effective early literacy programs that include RTI save 
money for schools, districts, and states. In addition to reducing 
unnecessary referrals, these programs free up special education 
services and dollars for the children who truly need them.
    Thank you again for the opportunity to supplement my testimony by 
responding to Representative Scott's questions, and please do not 
hesitate to contact me if I may be of further service to the Committee.
            Sincerely,
                                              Larry Berger.
                                 ______
                                 
    [The information referred to may be accessed at the 
following Internet address:]

        http://wirelessgeneration.com/media/rti-white-paper.pdf

                                ------                                

                                     U.S. Congress,
                                           [Via Facsimile],
                                  Washington, DC, December 1, 2009.
Ms. Mary Kay Dore, Director of Student Support Services,
Summit School District, 150 School Road, Frisco, CO.
    Dear Ms. Dore: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving the Literacy Skills of 
Children and Young Adults,'' on November 19, 2009.
    Representative Robert C. ``Bobby'' Scott (D-VA) has asked that you 
respond in writing to the following questions:
    <bullet> During the hearing the cost effectiveness of early 
literacy programs was discussed by all of the witnesses. My questions 
are as follows:
    1. Compared to what? In other words, what was the cost 
effectiveness of early literacy programs compared with?
    2. Are there specific studies that quantify effectiveness of 
programs that increase literacy, reduce D/O, and crime, etc?
    3. What are the cost savings (specific numbers) of early literacy 
programs?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 12/8/09. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

            Response to Mr. Scott's Questions From Ms. Dore

    There are many observations as a professional that I have witnessed 
that tell me early intervention works and therefore is a cost savings 
to society. I have had the fortune to work in one school district long 
enough to see students enter kindergarten and then watch the same 
students exit high school. Anecdotally, I can recount stories of 
students who can in with little foundation in the early years and their 
struggles to finish high school, some of whom didn't make it. I come 
from a small district of just over 3,000 students, in this size 
community we are able to try to leverage community supports to help 
students who are struggling. Sometimes that worked and other times the 
support was not enough to overcome their family situation, or the pull 
of drugs and alcohol. Discussions at school often debate the epicenter 
of the student's struggles; is the behavior choices of the student that 
is causing the issues or is the inability to read which has led to 
student to act out and try to mask their struggles? I know in my heart 
and professional experience that catching children early is the key 
into to starting them on the oath the life long learning.
    What you wanted were numbers, which I understand and applaud. 
Referenced are the results of the Age 21 Cost-Benefit Analysis of the 
Title I Chicago Child-Parent Center Program, which I have also attached 
for your reference.
    Results of the cost-benefit analysis indicated that each component 
of CPC program had economic benefits that exceeded costs. With an 
average cost per child of $6,730 (1998 dollars) for 1.5 years of 
participation, the preschool program generated a total return to 
society at large of $47,759 per participant. The largest benefit was 
program participants' increased earnings capacity projected from higher 
educational attainment. Economic benefits of the preschool program to 
the general public (taxpayers and crime victims), exclusive of 
increased earnings capacity, were $25,771 per participant. The largest 
categories of public benefits were increased tax revenues associated 
with higher expected earnings capacity (28%), criminal justice system 
savings due to lower rates of arrest (28%), savings on tangible costs 
for crime victims (24%), and savings on school remedial services (18%). 
Overall, $7.10 dollars were returned to society at large for every 
dollar invested in preschool. Excluding benefits to participants, the 
ratio of program benefits to costs for the general public was $3.83 for 
every dollar invested. The ratio of benefits to costs for government 
savings alone was $2.88 per dollar invested.
    The present value of benefits for preschool participation was 
substantially higher than the benefits for school-age participation. 
The school-age component provided a societal return of $4,944 per 
participant. Given a cost of $2,981 per child for 2 years of 
participation, benefits modestly exceeded the investment in the 
program. The benefit-cost ratio for society at large was $1.66 per 
dollar invested ($1.42 public benefit per dollar invested). The main 
benefit was savings on school remedial services.
    This is a short excerpt of some of the studies that have been 
conducted in regards to the effectiveness of early intervention with 
children. There are many studies that reveal the different readiness 
levels that children come to school with and the ways that systems need 
to support children. It is important for us as an educational system to 
discover how we can best support students and at the earliest time 
possible. It is the foundation that crucial to their success in later 
life.
                                 ______
                                 

              Age 21 Cost-Benefit Analysis of the Title I
                  Chicago Child-Parent Center Program

                     executive summary (june 2001)
Arthur J. Reynolds,\1\ Judy A. Temple,\2\ Dylan L. Robertson,\1\ and 
        Emily A. Mann\1\
Introduction
    In this study, we conducted the first cost-benefit analysis of the 
federally financed Title I Chicago Child-Parent Center (CPC) Program. 
The major question addressed was: Do program benefits exceed costs? The 
CPC program is a school-based preschool and early school-age 
intervention for low-income children that emphasizes parent involvement 
and the development of literacy skills. Previous studies have indicated 
that program participation beginning in preschool is independently 
associated with higher school achievement, higher rates of school 
completion through age 20, lower rates of school dropout, lower rates 
of juvenile arrest for violent and non-violent charges, and with less 
need for school remedial services (see Reynolds, Temple, Robertson, & 
Mann, 2001, and Reynolds, 2000).
---------------------------------------------------------------------------
    \1\ Waisman Center and School of Social Work, University of 
Wisconsin-Madison.
    \2\ Department of Economics, Northern Illinois University.
    Reynolds and Temple also are affiliated with the Institute for 
Research on Poverty, University of Wisconsin-Madison.
---------------------------------------------------------------------------
Sample and Methods
    The main study sample includes 1,286 youth of the original sample 
of 1,539 in the Chicago Longitudinal Study. Data in this on-going, 
prospective study were collected from family surveys, educational 
records, and justice system records up to age 21 (March 2001). An 
alternative-program, quasi-experimental design was used in which the 
behavioral adjustment of the entire cohort of 989 children who attended 
20 CPCs in preschool and kindergarten from 1983-86 was compared to a 
random sample of 550 eligible children who did not participate in the 
program but enrolled in an all-day kindergarten program. Less than one-
fourth of the comparison group attended a preschool program. Sample 
recovery rates were 85% and 81%, respectively, with no evidence of 
selective attrition. At the beginning of the study, groups were 
comparable on many family background measures.
    Opened in 1967 with funding from Title I of the landmark Elementary 
and Secondary Education Act of 1965, the CPC program provides 
comprehensive educational and family support services from ages 3 to 9 
in neighborhood schools. The philosophy of the program is to help 
children develop skills in reading, math, and communication through a 
broad spectrum of classroom and parent activities, and field trips. 
Each Child-Parent Center is run by a head teacher and includes a 
staffed parent resource room, school-community outreach activities, and 
health services. After preschool and kindergarten, the school-age 
program in the elementary school provides reduced class sizes, teacher 
aides for each class, continued parent involvement activities, and an 
enriched classroom environment for developing reading and math skills.
    Following standard economic procedures, we estimated the present 
value of program benefits and costs in 1998 dollars for five main 
categories of benefits: (1) reductions in expenditures for the school 
remedial services of grade retention and special education, (2) 
reductions in criminal justice system expenditures for both juvenile 
and adult arrest and treatment, (3) reductions in child welfare system 
expenditures associated with child abuse and neglect, (4) averted 
tangible costs to crime victims, and (5) increases in adult earnings 
and tax revenues projected for increases in educational attainment. The 
present value of program benefits was estimated based on a 3% annual 
discount rate evaluated at the beginning of preschool participation. 
The distribution of benefits were calculated separately for society at 
large (program participants and the general public), the general 
public, and government savings.
Results
    Relative to comparison groups and controlling for family economic 
disadvantage, participation in the CPC preschool, school-age, and 
extended intervention (4 to 6 years) components was associated, in the 
expected direction, with two or more of the following outcomes: school 
achievement at age 14, special education placement and grade retention, 
juvenile arrest by age 18, child maltreatment, and high school 
completion by ages 20/21. Relative to the comparison group, preschool 
participants had a 29% higher rate of high school completion, a 33% 
lower rate of juvenile arrest, a 42% reduction in arrest for a violent 
offense, a 41% reduction in special education placement, a 40% 
reduction in the rate of grade retention, and a 51% reduction in child 
maltreatment. School-age participation and extended program 
participation for 4 to 6 years were associated with 30 to 40% lower 
rates of grade retention and special education placement. Compared to 
children with 1 to 3 years of participation, extended program 
participants also had higher achievement test scores in adolescence and 
lower rates of child maltreatment by age 17.
    Results of the cost-benefit analysis indicated that each component 
of CPC program had economic benefits that exceeded costs. With an 
average cost per child of $6,730 (1998 dollars) for 1.5 years of 
participation, the preschool program generated a total return to 
society at large of $47,759 per participant. The largest benefit was 
program participants' increased earnings capacity projected from higher 
educational attainment. Economic benefits of the preschool program to 
the general public (taxpayers and crime victims), exclusive of 
increased earnings capacity, were $25,771 per participant. The largest 
categories of public benefits were increased tax revenues associated 
with higher expected earnings capacity (28%), criminal justice system 
savings due to lower rates of arrest (28%), savings on tangible costs 
for crime victims (24%), and savings on school remedial services (18%). 
Overall, $7.10 dollars were returned to society at large for every 
dollar invested in preschool. Excluding benefits to participants, the 
ratio of program benefits to costs for the general public was $3.83 for 
every dollar invested. The ratio of benefits to costs for government 
savings alone was $2.88 per dollar invested.
    The present value of benefits for preschool participation was 
substantially higher than the benefits for school-age participation. 
The school-age component provided a societal return of $4,944 per 
participant. Given a cost of $2,981 per child for 2 years of 
participation, benefits modestly exceeded the investment in the 
program. The benefit-cost ratio for society at large was $1.66 per 
dollar invested ($1.42 public benefit per dollar invested). The main 
benefit was savings on school remedial services.
    Relative to participation for 1 to 3 years, participation in the 
program for 4 to 6 years (preschool to second or third grade) also was 
associated with economic benefits that exceeded costs. The present 
value of benefits to society at large was $24,772 per participant. 
Given an average cost of $4,068 per participant (above and beyond less 
extensive participation), the extended intervention program provided a 
substantial return to society at large. The benefit-cost ratio for 
society at large was $6.09 per dollar invested ($3.59 public benefit 
per dollar invested). The greatest benefits were savings on school 
remedial services, increased tax revenues, and averted crime victim 
costs. Extended program participants typically had the highest levels 
of adjustment in the study. Overall, our findings of cost-effectiveness 
were robust to different discount rates and alternative procedures for 
estimating projected earnings and criminal justice system expenditures.
Conclusion
    As the first cost-benefit analysis of a federally-financed, 
comprehensive early childhood intervention, findings indicate that 
participation in each component of the program was associated with 
economic benefits that exceeded costs. This was accomplished by 
increasing economic well being and reducing educational and social 
expenditures for remediation and treatment. Similar to Head Start, the 
CPC preschool program is the most intensive and comprehensive component 
and yielded the greatest benefits by age 21. Findings for school-age 
and extended intervention demonstrate the benefits of reduced class 
sizes and enriched school environments in the early grades. Thus, 
contemporary, large-scale child-development programs can provide 
substantial long-term benefits to society.
    Given limited financial and human resources for health and 
educational interventions, greater levels of public investments in 
programs with demonstrated cost-effectiveness are warranted. Unlike 
most other social programs, the Child-Parent Center Program provides 
benefits to society that far exceed costs and is routinely implemented 
through a large urban school district. The present value of public 
benefits of the preschool program for the 1,000 study children totaled 
$26 million. Since 100,000 children have been served by the program to 
date, these benefits translate to as much as $2.6 billion in public 
savings since the program opened (1998 dollars). As states and 
localities increase access to early childhood care and education 
programs, public schools appear to be the location of choice for these 
initiatives. The findings of this study show the long-term payoffs that 
these public programs can provide.
                        affiliations and funding
    Preparation of this report was supported by funding from the 
National Institute of Child Health and Human Development (No. 
R01HD34294-06), and the Office of Educational Research and Improvement, 
U.S. Department of Education (No. R305T990477). This report was 
presented at the annual meeting of the Society for Prevention Research 
in Washington, DC on June 1, 2001.
    Address correspondence to Arthur Reynolds, Waisman Center, 
University of Wisconsin-Madison, 1500 Highland Avenue, Madison, WI 
53705. Electronic mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a0abb381b4acafefa4a5b4ef">[email&#160;protected]</a> Voice: 612-625-4321. Fax: 612-625-
6472. Web site: education.umn.edu/ICD/ReynoldsLab/.
                               references
Reynolds AJ. Success in Early Intervention: The Chicago Child-Parent 
        Centers. Lincoln, NE: University of Nebraska Press; 2000.
Reynolds, AJ, Temple JA, Robertson, DL, & Mann, EA. Long-term effects 
        of an early childhood intervention on educational achievement 
        and juvenile arrest: A 15-year follow-up of low-income children 
        in public schools. JAMA. 2001; 285:2339-2346.
                          additional readings
1. Reynolds, AJ. The state of early intervention. In Success in Early 
        Intervention: The Chicago Child-Parent Centers (Ch. 1, pp. 1-
        21). Lincoln, NE: University of Nebraska Press; 2000.
2. Reynolds, AJ. The Child-Parent Center Program and Study. In Success 
        in Early Intervention: The Chicago Child-Parent Centers (Ch. 2, 
        pp. 22-63). Lincoln, NE: University of Nebraska Press; 2000.
3. Temple, JA., Reynolds, AJ., & Miedel, WT. Can early childhood 
        intervention prevent high school dropout? Evidence from the 
        Chicago Child-Parent Centers. Urban Education. 2001; 35:31-56.
4. Reynolds, AJ., Miedel, WT., & Mann, EA. Innovation in early 
        intervention for children in families with low incomes: Lessons 
        from the Chicago Child-Parent Centers. Young Children. 2000; 
        55:84-88.
5. Reynolds, A J. (Ed.) Educational success in high-risk settings: 
        Contributions of the Chicago Longitudinal Study. Journal of 
        School Psychology (Special issue). 1999; 37(4).
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                  Washington, DC, December 1, 2009.
Mr. Leo Gomez, Ph.D., Professor of Bilingual-Bicultural Education,
The University of Texas Pan American, College of Education, 1201 W 
        University Drive, Edinburg, TX.
    Dear Dr. Gomez: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving the Literacy Skills of 
Children and Young Adults,'' on November 19, 2009.
    Representative Robert ``Bobby'' Scott (D-VA) has asked that you 
respond in writing to the following questions:
    During the hearing the cost effectiveness of early literacy 
programs was discussed by all of the witnesses. My questions are as 
follows:
    1. Compared to what? In other words, what was the cost 
effectiveness of early literacy programs compared with?
    2. Are there specific studies that quantify effectiveness of 
programs that increase literacy, reduce D/O, and crime, etc?
    3. What are the cost savings (specific numbers) of early literacy 
programs?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 12/8/09. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

            Response to Mr. Scott's Questions From Mr. Gomez

    During the hearing the cost effectiveness of early literacy 
programs was discussed by all of the witnesses. My questions are as 
follows:

    1. Compared to what? In other words, what was the cost 
effectiveness of early literacy programs compared with?
    2. Are there specific studies that quantify effectiveness of 
programs that increase literacy, reduce D/O, and crime, etc?
    3. What are the cost savings (specific numbers) of early literacy 
programs?

    I did not provide any testimony related to cost effectiveness of 
early literacy programs. And I have no first-hand knowledge of this. 
However, I can comment that studies do indicate that early literacy 
development is crucial to grade-level achievement. Children that enter 
school with limited vocabulary and experiential knowledge need 
intensive early literacy preparedness to succeed with ``on grade 
level'' academic instruction.
    I would like to respond to your second question as this relates to 
LEP students. As shared in my testimony, lack of knowledge regarding 
the ``academic learning value of native language instruction,'' 
particularly among decision-makers in leadership roles, continues to 
negatively impact policy for quality programs for non-English speaking 
students. An emphasis on English (language) versus both academic 
content learning (schooling) in native language and English language 
development continues to short change the education of BLs. It is 
critical that leadership at the state, federal, university and public 
school level be advocates for BLs and knowledgeable of research-based 
best practices for successful long-term literacy development for these 
students. The following is a direct response to your first two 
questions:
    The evidence is overwhelming against English-only (immersion) 
programs for bilingual learners. It is quite unfortunate that the state 
of Arizona adopted this approach for the education of BLs in their 
state. Arizona went completely in the opposite direction of research-
based practices and instead adopted ``opinion-based policy.'' The 
efficacy of English immersion approaches is well documented: English-
only methods do not yield strong long-term academic outcomes for BLs. 
Students in these programs learn English, but fall behind miserably in 
grade level content and skills (schooling) since they essentially 
receive their initial education in a second language. In other words, 
BLs acquire the English language, but do not learn well (on grade 
level) the content and skills being taught in that language, therefore 
creating an ``academic gap'' (not a language gap) early on that 
continues and widens in middle school and high school (as curriculum 
becomes more demanding) leading many to eventually drop out. I should 
note that most high school drop-outs speak English well, but drop out 
due to lack of grade-level literacy (read 2-3 grade levels below). The 
ineffectiveness of such English-only practices manifests itself in the 
upper grades (4th-12th) based on English achievement tests.
    Proponents of English-only programs typically share ``English 
language data'' to support their position. Do not be fooled with 
English language gains data. There is no doubt that BLs will learn 
English and make significant English gains, since they are receiving 
English-only lessons. What English-only proponents cannot produce is 
positive long-term English academic achievement data (standardized 
English reading & writing tests assessing grade-level literacy) 
comparable to native English speakers because it does not exist.
    To my knowledge, there is not one long-term effectiveness study 
(middle school & high school performance) that demonstrates grade-level 
academic achievement (literacy) in English for BLs served through 
English-only programs. On the other hand, there are countless long-term 
effectiveness studies (middle school & high school performance) that 
demonstrate grade-level academic achievement (literacy) in English for 
BLs served through dual language programs.
    This is the very essence of understanding the literacy issue for 
BLs, both short and long-term. Policy-makers must recognize that a 
quality education for BLs is grade-level literacy or schooling 
(reading, math, science and cognitive development in native language) 
and simultaneously developing the English language throughout their 
elementary years. When both of these happen for at least 5-7 years, BLs 
are academically and linguistically successful both short and long-term 
(MS & HS) based on English academic assessments because simply put, 
literacy transfers! Reading, writing, math, and thinking skills 
transfer from one language to another. Therefore, native language 
instruction and English language instruction at least throughout 
elementary (dual language) yields higher academic achievement. This is 
why Dual Language Enrichment (DLE) programs are so successful for BLs. 
DLE programs adhere to fundamental learning principles. If native 
English speaking children learned only in Spanish when they entered 
school, they would also fail.
    Thank you for your attention.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                  Washington, DC, December 1, 2009.
Mr. Leo Gomez, Ph.D., Professor of Bilingual-Bicultural Education,
The University of Texas Pan American, College of Education, 1201 W 
        University Drive, Edinburg, TX.
    Dear Dr. Gomez: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving the Literacy Skills of 
Children and Young Adults,'' on November 19, 2009.
    Representative Raul Grijalva has asked that you respond in writing 
to the following questions:
    1. Some states have very different policies with regard to students 
who do not currently speak English. For example, in Arizona we have 
four hour English emersion in segregated classes. Can you comment on 
the efficacy of some of these programs?
    2. What do you think the federal government should do to give more 
guidance to states so that we can address states that are failing to 
provide an adequate education for students who do not speak English?
    3. Can you give some insights into effective policies to address 
older students, say those in middle school and high school, who do not 
speak English?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 12/8/09. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Response to Mr. Grijalva's Questions From Mr. Gomez

    Dear Chairman Miller: Thank you for the opportunity to testify on 
November 19, 2009, regarding the literacy skills of young children and 
youth. My testimony focused specifically on appropriate literacy 
development of Bilingual Learners (BLs), inappropriately referred to as 
Limited English Proficient (LEP) or English Language Learner (ELL). 
This memo is a response to follow-up questions submitted by 
Representative Raul Grijalva (D-AZ):

    1. Some states have very different policies with regard to students 
who do not currently speak English. For example, in Arizona we have 
four hour English emersion in segregated classes. Can you comment on 
the efficacy of some of these programs?
    2. What do you think the federal government should do to give more 
guidance to states so that we can address states that are failing to 
provide an adequate education for students who do not speak English?
    3. Can you give some insights into effective policies to address 
older students, say those in middle school and high school, who do not 
speak English?

    As shared in my testimony, lack of knowledge regarding the 
``academic learning value of native language instruction,'' 
particularly among decision-makers in leadership roles, continues to 
negatively impact policy for quality programs for non-English speaking 
students. An emphasis on English (language) versus both academic 
content learning (schooling) in native language and English language 
development continues to short change the education of BLs. It is 
critical that leadership at the state, federal, university and public 
school level be advocates for BLs and knowledgeable of research-based 
best practices for successful long-term literacy development for these 
students. The following is a direct response to your first two 
questions:

    1. Some states have very different policies with regard to students 
who do not currently speak English. For example, in Arizona we have 
four hour English emersion in segregated classes. Can you comment on 
the efficacy of some of these programs?
    2. What do you think the federal government should do to give more 
guidance to states so that we can address states that are failing to 
provide an adequate education for students who do not speak English?

    The evidence is overwhelming against English-only (immersion) 
programs for bilingual learners. It is quite unfortunate that the state 
of Arizona adopted this approach for the education of BLs in their 
state. Arizona went completely in the opposite direction of research-
based practices and instead adopted ``opinion-based policy.'' The 
efficacy of English immersion approaches is well documented: English-
only methods do not yield strong long-term academic outcomes for BLs. 
Students in these programs learn English, but fall behind miserably in 
grade level content and skills (schooling) since they essentially 
receive their initial education in a second language. In other words, 
BLs acquire the English language, but do not learn well (on grade 
level) the content and skills being taught in that language, therefore 
creating an ``academic gap'' (not a language gap) early on that 
continues and widens in middle school and high school (as curriculum 
becomes more demanding) leading many to eventually drop out. I should 
note that most high school drop-outs speak English well, but drop out 
due to lack of grade-level literacy (read 2-3 grade levels below). The 
ineffectiveness of such English-only practices manifests itself in the 
upper grades (4th-12th) based on English achievement tests.
    Proponents of English-only programs typically share ``English 
language data'' to support their position. Do not be fooled with 
English language gains data. There is no doubt that BLs will learn 
English and make significant English gains, since they are receiving 
English-only lessons. What English-only proponents cannot produce is 
positive long-term English academic achievement data (standardized 
English reading & writing tests assessing grade-level literacy) 
comparable to native English speakers because it does not exist.
    To my knowledge, there is not one long-term effectiveness study 
(middle school & high school performance) that demonstrates grade-level 
academic achievement (literacy) in English for BLs served through 
English-only programs. On the other hand, there are countless long-term 
effectiveness studies (middle school & high school performance) that 
demonstrate grade-level academic achievement (literacy) in English for 
BLs served through dual language programs.
    This is the very essence of understanding the literacy issue for 
BLs, both short and long-term. Policy-makers must recognize that a 
quality education for BLs is grade-level literacy or schooling 
(reading, math, science and cognitive development in native language) 
and simultaneously developing the English language throughout their 
elementary years. When both of these happen for at least 5-7 years, BLs 
are academically and linguistically successful both short and long-term 
(MS & HS) based on English academic assessments because simply put, 
literacy transfers! Reading, writing, math, and thinking skills 
transfer from one language to another. Therefore, native language 
instruction and English language instruction at least throughout 
elementary (dual language) yields higher academic achievement. This is 
why Dual Language Enrichment (DLE) programs are so successful for BLs. 
DLE programs adhere to fundamental learning principles. If native 
English speaking children learned only in Spanish when they entered 
school, they would also fail.
    To respond to your second question, the federal government can:
    <bullet> take a position that encourages the use of native language 
instruction for grade-level literacy achievement and English 
development.
    <bullet> revise current ESEA policy that emphasizes ``English-
only'' so that bilingualism or English Plus is encouraged through Dual 
Language Enrichment (DLE) programs.
    <bullet> revise current ESEA policy and re-instate the Bilingual 
Education Act (BEA), the Office of Bilingual Education and Minority 
Language Affairs (OBEMLA), and the National Clearinghouse for Bilingual 
Education (NCBE) with an emphasis on dual language enrichment. For the 
last 8 years, (NCLB, 2001), quality educational programs for BLs have 
dropped to an all-time low across the nation. Federal policy has 
focused on English only and academic gaps have widened.
    <bullet> target funds for DLE program development and 
implementation and where bilingual education (dual language) is not 
available, support ``content-based ESL'' models (self-contained 
classroom with ESL certified teacher) and discourage English-only or 
ESL Pullout models (least effective approaches)
    <bullet> target funds for the development of literacy assessments 
in languages other than English. Successful literacy achievement of BLs 
requires appropriate literacy assessments. This would also encourage 
bilingualism and biliteracy opportunities for ALL students, a vision 
for America by President Obama.
    <bullet> target funds for higher education and other teacher 
preparation programs designed recruit and train highly qualified 
bilingual and ESL teachers
    <bullet> target funds for higher education ``Public School 
Administrator Preparation Programs'' (principals, superintendents) 
designed to prepare highly qualified Bilingual/ESL administrative 
leaders (critical need in public schools)
    <bullet> target funds for ``rehiring'' of highly qualified 
Bilingual/ESL certified teachers that have recently left the teaching 
profession due to frustration with poorly implemented or supported 
bilingual/ESL programs
    <bullet> establish Graduate Bilingual Education Fellowships in 
higher education to increase highly qualified Bilingual Education 
leaders at the Masters and Doctoral level

    3. Can you give some insights into effective policies to address 
older students, say those in middle school and high school, who do not 
speak English?

    Fundamentally, the same principles apply as discussed earlier. A 
student will learn more grade-level content the more they understand 
the lesson. Therefore, practices for learning at the secondary level 
are no different than elementary. Learning academic content and 
developing or learning a second language (English) are two separate but 
interrelated goals and must be mutually addressed. One is not exclusive 
of the other.
    First, policy for educating BLs at the secondary level (6th--12th) 
must recognize that there are different types of BLs:
    1. Recent Arrivals (first time in a U. S. school coming with 
schooling)
    2. Recent Arrivals (first time in a U. S. school coming with 
limited or no schooling)
    3. Long-term BLs (students that have been in U. S. school(s) for 3 
or more years and are still considered LEP because they are not 
academically on grade level in English. Served through a poor ESL or 
bilingual elementary program)
    4. Native-born Long-term BLs (students that have been in U. S. 
school(s) since kindergarten and are still considered LEP because they 
are not academically on grade level in English. Served through a poor 
ESL or bilingual elementary program)
    Obviously, policy to address the education of these students would 
differ. However, most school districts do not. It is common for schools 
to ``lump'' these students together simply based on their LEP status. 
Ultimately, the goal is to eliminate ``long-term LEPs'' commonly 
produced by poor ESL or bilingual programs at the elementary level. For 
groups 3 and 4, we fix the middle and high school poor LEP achievement 
at the elementary level. Very briefly, here are some recommended 
policies for each group:
    1. Recent Arrivals (first time in a U. S. school coming with 
schooling)
    a. Provide some academic content learning in native language if 
possible so that they continue learning grade-level content while 
learning English
    b. Provide ESL classroom for language development with no 
translation
    c. Delay English intense content coursework (e.g. SS, science) for 
at least one year through student scheduling
    2. Recent Arrivals (first time in a U. S. school coming with 
limited or no schooling)
    a. Provide \1/2\ day of native language literacy for one year
    b. Provide some academic content learning in native language if 
possible so that they learn more grade-level content while learning 
English
    c. Provide ESL classroom for language development with no 
translation
    d. Delay English intense content coursework (e.g. SS, science) for 
at least two years through student scheduling
    3. Long-term BLs (students that have been in U. S. school(s) for 3 
or more years and are still considered LEP because they are not 
academically on grade level in English. Served through a poor ESL or 
bilingual elementary program)
    a. Provide in-class academic content learning support with 
additional school staff (use native language if needed or appropriate)
    b. Provide English language development through additional reading 
course
    4. Native-born Long-term BLs (students that have been in U. S. 
school(s) since kindergarten and are still considered LEP because they 
are not academically on grade level in English. Served through a poor 
ESL or bilingual elementary program)
    a. Provide in-class academic content learning support with 
additional school staff
    b. Provide English language development through additional reading 
course
    Thank you for your attention.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                  Washington, DC, December 1, 2009.
Mr. Leo Gomez, Ph.D., Professor of Bilingual-Bicultural Education,
The University of Texas Pan American, College of Education, 1201 W 
        University Drive, Edinburg, TX.
    Dear Dr. Gomez: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving the Literacy Skills of 
Children and Young Adults,'' on November 19, 2009.
    Representative Ruben Hinojosa (D-TX) has asked that you respond in 
writing to the following questions:
    What do you recommend Congress and the federal government do to 
increase the number of highly qualified bilingual teachers and 
educators in our nation's classrooms? Can you send us some specific 
recommendations as to what the federal government can do in ESEA 
reauthorization to support the training of bilingual teachers?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 12/8/09. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Response to Mr. Hinojosa's Questions From Mr. Gomez

    What do you recommend Congress and the federal government do to 
increase the number of highly qualified bilingual teachers and 
educators in our nation's classrooms? Can you send us some specific 
recommendations as to what the federal government can do in ESEA 
reauthorization to support the training of bilingual teachers?

    In the interest of bilingual learners receiving an equal 
educational opportunity, it is imperative that they are all served by 
highly qualified bilingual education and ESL teachers and that ALL 
teachers are prepared with a significant understanding of second 
language acquisition and sheltered instruction strategies and knowledge 
of bilingual education. It is also critical that leadership at the 
state, federal, university and public school level be advocates for BLs 
and knowledgeable of best practices for successful literacy development 
for these students. To this end, the federal government can:
    <bullet> revise current ESEA policy that emphasizes ``English-
only'' so that bilingualism and bilingual education is encouraged thus 
increasing the number of highly qualified bilingual preparation 
programs and teachers
    <bullet> target funds for teacher preparation programs to prepare 
highly qualified teachers for ``enrichment models'' of bilingual 
education programs (dual language) and where bilingual education is not 
available, support ``content-based ESL'' models (de-emphasize ESL 
Pullout programs that are not serving BLs well)
    <bullet> target funds for teacher preparation programs to 
``initially'' prepare K-12 content-area teachers (mainstream-non-
bilingual teachers) with second language acquisition pedagogy (ESL, 
sheltered instruction: how to best teach content in a second language)
    <bullet> target funds for professional development of ``in-
service'' K-12 content-area teachers (mainstream-non-bilingual 
teachers) with second language acquisition pedagogy (ESL, sheltered 
instruction: how to best teach content in a second language)
    <bullet> target funds for higher education and other teacher 
preparation programs designed recruit and train highly qualified 
bilingual and ESL teachers
    <bullet> target funds for higher education ``Public School 
Administrator Preparation Programs'' (principals, superintendents) 
designed to prepare highly qualified Bilingual/ESL administrative 
leaders (critical need in public schools)
    <bullet> target funds for ``rehiring'' of highly qualified 
Bilingual/ESL certified teachers that have recently left the teaching 
profession due to frustration with poorly implemented or supported 
bilingual/ESL programs
    <bullet> establish Graduate Bilingual Education Fellowships in 
higher education to increase highly qualified Bilingual Education 
leaders at the Masters and Doctoral level
    <bullet> target funds to be used by public schools as 
``incentives'' or ``stipends'' to support highly qualified bilingual 
and ESL teachers and reduce the attrition rate
    Thank you for your attention.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                  Washington, DC, December 1, 2009.
Mr. Andres Henriquez, Program Officer,
National Program, Carnegie Corporation of New York, 437 Madison Avenue, 
        New York, NY.
    Dear Mr. Henriquez: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving the Literacy Skills of 
Children and Young Adults,'' on November 19, 2009.
    Representative Robert ``Bobby'' Scott (D-VA) has asked that you 
respond in writing to the following questions:
    You indicated at the hearing that increasing Title I support for 
middle and high schools or creating a new funding stream. At the moment 
only 5 percent of federal Title I funds go to middle and high schools. 
An infusion of resources at the secondary level focused on higher 
levels of literacy is critical. You also indicated that investments in 
elementary grades do not ensure students will do well later on in high 
school.
    1. Should we be spending more on literacy programs in middle and 
high schools to increase educational outcomes such as graduation rates, 
college completion and literacy?
    During the hearing the cost effectiveness of early literacy 
programs was discussed by all of the witnesses. My questions are as 
follows:
    1. Compared to what? In other words, what was the cost 
effectiveness of early literacy programs compared with?
    2. Are there specific studies that quantify effectiveness of 
programs that increase literacy, reduce D/O, and crime, etc?
    3. What are the cost savings (specific numbers) of early literacy 
programs?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 12/8/09. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Response to Mr. Scott's Questions From Mr. Henriquez

    Thanks for your follow-up questions. Answers to each of you 
questions are below:

    Q. Should we be spending more on literacy programs in middle and 
high school to increase educational outcomes such as graduation rates, 
college completion and literacy?

    A. Yes, there is a need to invest in literacy across the 
educational continuum. While investments in early literacy are 
necessary, the research shows that we also need to continue literacy 
instruction in the middle and high school years so that all students 
have higher-level literacy skills, such as writing using critical 
thinking and the ability to analyze diverse texts. Mastery of this type 
of literacy skill is associated with increased graduation rates and 
postsecondary success (Appendices A & B of my oral testimony: http://
carnegie.org/sub/news/2009--testimony.html).
    However, currently less than a third of eighth grade students are 
considered proficient in reading according to the National Assessment 
of Educational Progress. For too many low-performing students, 
difficulty reading high-school level content leads to the decision to 
drop out. These dropouts cost the nation $335 billion annually in lost 
lifetime income. Even many high school graduates lack the literacy 
skills they were supposed to obtain during middle and high school: each 
year the nation loses over $1.4 billion providing remedial literacy 
education to 42 percent of community college freshmen and 20 percent of 
freshmen in four-year institutions. In other words, our adolescents are 
not being adequately prepared for the demands of higher education, 
employment and citizenship for the 21st Century. It is a well-
publicized fact that young people who fail or under-perform in school 
are increasingly likely to suffer from unemployment or drastically 
lower income levels throughout their lives (Please also see Time to 
Act: An Agenda for Advancing Adolescent Literacy for Career and College 
Readiness: http://www.carnegie.org/literacy/tta/).

    Q. During the hearing the cost effectiveness of early literacy 
programs was discussed by all of the witnesses. Compared to what? What 
was the cost effectiveness of early literacy compared with? Are there 
specific studies that quantify effectiveness of programs that increase 
literacy, reduce D/O, and crime etc? What are the cost savings?

    A. While I am not an early literacy expert, Dorothy Strickland, co-
testifier, has pointed me toward the seminal work of Nobel Laureate 
James Heckman's The Productivity Argument for Investing in Young 
Children as well as Steve Barnett at Rutgers University who recently 
published Lives in the Balance. Both authors are economists and argue 
strongly about the cost-benefit analysis of preschool education based 
on a 25 year studies. Both show the long-term cognitive effects of 
early intervention in early childhood education. Literacy, and language 
development specifically in the early years, are part crucial to early 
childhood development and long-term success.
    In addition, I would like to cite the work of Henry Levin at 
Teachers College who has done two studies. The first is a study of 
Adolescent Literacy Programs: Cost of Implementation (http://
www.carnegie.org/literacy/tta/pdf/tta--Levin.pdf). That looks at the 
cost of implementing three separate programs in middle and high schools 
and the cost associated with implementing each of the programs. The 
second is analysis that Hank did on NELS 88 data that showed the power 
of graduating for students. His analysis shows that if you increased 
students reading scores by one standard deviation they are much less 
likely to drop out (as powerful predictor if mathematics scores were 
improved for these young people as well). With Hank's permission, I've 
attached this study for your perusal.
    Bottom line, interventions at any developmental stage in a child's 
life, is necessary to keep young people on track which could make it 
less likely for them to drop out and increase the likelihood that they 
will be better prepared for college.
    It should be noted that none of these studies are ``cost effect'' 
studies per se since little research has been done looking at the cost 
of a program and long-term effect of particular programs on individual 
student learning. These are cost analysis studies, as opposed to cost 
effect studies. An important distinction. A future research agenda that 
calls for such analysis could, however, be enormously interesting for 
our country.
                                 ______
                                 
                               appendix b
Resources for Teachers and Principals:
Biancarosa, Gina and Snow, Catherine. (2004). Reading Next--A Vision 
        for Action and Research in Middle and High School Literacy: A 
        Report to Carnegie Corporation of New York. Washington, DC: 
        Alliance for Excellent Education.
http://www.carnegie.org/literacy/pdf/ReadingNext.pdf
Carnegie Council on Advancing Adolescent Literacy. (2010). Time to act: 
        An agenda for advancing adolescent literacy for college and 
        career success. New York, NY: Carnegie Corporation of New York.
http://www.carnegie.org/literacy/tta/pdf/tta--Main.pdf
Graham, Graham and Perin Dolores. (2007). Writing Next: Effective 
        Strategies to Improve Writing of Adolescents in Middle and High 
        Schools. Washington, DC: Alliance for Excellent Education.
http://www.carnegie.org/literacy/pdf/writingnext.pdf
Grosso de Leon Anne. (2005) America's Literacy Challenge: Teaching 
        Adolescents to Read to Learn Carnegie Results. New York: 
        Carnegie Corporation of New York.
http://www.carnegie.org/results/10/index.html
Heller Rafael and Greenleaf, Cynthia. (2007). Literacy Instruction in 
        the Content Areas: Getting to the Core of Middle and High 
        School Improvement. Washington, DC: Alliance for Excellent 
        Education.
http://www.carnegie.org/literacy/pdf/Content--Areas--report.pdf
Lee, Carol and Spratley, Anika (2010). Reading in the Disciplines: The 
        Challenges of Adolescent. New York, NY: Carnegie Corporation of 
        New York.
http://www.carnegie.org/literacy/tta/pdf/tta--Lee.pdf
Morsey, Leila, Kieffer, Michael and Snow, Catherine. (2010). Measure 
        for Measure: A Critical Consumer's Guide to Reading 
        Comprehension Assessments for Adolescents. New York, NY: 
        Carnegie Corporation of New York.
http://www.carnegie.org/literacy/tta/pdf/tta--Morsy.pdf
Moje, Elizabeth and Tysvaer, Nicole. (2010). Adolescent Literacy 
        Development in Out of School Time: A Practitioner's Guide. New 
        York, NY: Carnegie Corporation of New York.
http://www.carnegie.org/literacy/tta/pdf/tta--Moje.pdf
National Association for Secondary School Principals. (2005). Creating 
        a Culture of Literacy: A Guide for Middle and High School 
        Principals. Reston VA: Author.
http://www.carnegie.org/literacy/pdf/Culture--of--Literacy.pdf
English Language Learners:
Fix, Michael and Batalova, Jeanne. (2007). Measures of Change: The 
        Demography and Literacy of Adolescent English Learners.
http://www.carnegie.org/literacy/pdf/Measures--of--Change.pdf
Francis, D., Rivera, M., Lesaux, N., Kieffer, M., & Rivera, H. (2006). 
        Practical Guidelines for the Educations of English Language 
        Learners: Research-based Recommendations for Instruction and 
        Academic Intervention. Book 1.
http://www.carnegie.org/literacy/pdf/ELL1-Interventions.pdf
Francis, D., Rivera, M., Lesaux, N., Kieffer, M., & Rivera, H. (2006). 
        Guidelines for the Educations of English Language Learners: 
        Research-based Recommendations for Serving Adolescent 
        Newcomers. Book 2.
http://www.carnegie.org/literacy/pdf/ELL2-Newcomers.pdf
Francis, D., Rivera, M., Lesaux, N., Kieffer, M., & Rivera, H. (2006). 
        Practical Guidelines for the Educations of English Language 
        Learners: Research-based Recommendations for the Use of 
        Accommodations in Large-Scale Assessments. Book 3.
http://www.carnegie.org/literacy/pdf/ELL3-Assessments.pdf
Henriquez Andres. (2006) Principals Can Help Improve Literacy for 
        English Learners. National Association of Secondary School 
        Principals, NewsLeader.
http://www.carnegie.org/literacy/pdf/NewsLeader--AHenriquez.pdf
Short, Deborah J. and Shannon Fitzsimmons. (2007). Double the Work: 
        Challenges and Solutions to Acquiring Language and Academic 
        Literacy for Adolescent English Language Learners. Washington 
        DC: Alliance for Excellent Education.
http://www.carnegie.org/literacy/pdf/DoubletheWork.pdf
Literacy Coaching:
Hall Barbara. (2004). ``Literacy Coaches: An Evolving Role.'' Carnegie 
        Reporter: New York. Carnegie Corporation of New York, Fall 
        2004.
http://www.carnegie.org/reporter/09/literacy/index.html
International Reading Association, National Council of Teachers of 
        English, National Council of the Social Studies, National 
        Council of Teachers of Mathematics. (2006). Standards for 
        Middle and High School Literacy Coaches. Newark: International 
        Reading Association..
http://www.carnegie.org/literacy/pdf/IRA--NCTE--NCSS--NCTM--literacy--
        coaching--standards.pdf
Marsh, J. A., et al., (2008). Supporting Literacy Across the Sunshine 
        State: A Study of Florida Middle School Reading.
http://www.rand.org/pubs/monographs/2008/RAND--MG762.pdf
Sturtevant, E. (2003). The Literacy Coach: A Key to Improving Teaching 
        and Learning in Secondary Schools. Washington, DC: Alliance for 
        Excellent Education.
http://www.all4ed.org/files/LiteracyCoach.pdf
Resources for State Policymakers:
Bates, L., Breslow, N., and Hupert, N. (2009). Five states' efforts to 
        improve adolescent literacy (Issues & Answers Report, REL 
        2009--No. 067). Washington, DC: U.S. Department of Education, 
        Institute of Education Sciences, National Center for Education 
        Evaluation and Regional Assistance, Regional Educational 
        Laboratory Northeast and Islands.
Retrieved from http://ies.ed.gov/ncee/edlabs.
http://www.carnegie.org/literacy/pdf/IES.Stateadlit--report--
        2009067.pdf
Berman, Ilene and Biancarosa, Gina. (2005). Reading to Achieve: A 
        Governor's Guide to Adolescent Literacy. National Governors 
        Association Center for Best Practices. Washington, DC: National 
        Governors Association.
http://www.nga.org/Files/pdf/0510GOVGUIDELITERACY.PDF
Berman, Ilene. (2009). Issue Brief: Supporting Adolescent Literacy. 
        Washington, DC: National Governors Association.
http://www.nga.org/Files/pdf/0902ADOLESCENTLITERACY.PDF#TopOfPage
Carnegie Council on Advancing Adolescent Literacy. (2010). Time to act: 
        An agenda for advancing adolescent literacy for college and 
        career success. New York, NY: Carnegie Corporation of New York.
http://www.carnegie.org/literacy/tta/pdf/tta--Main.pdf
Levin, Henry, Catlin, Doran and Elson, Alex. (2010). Adolescent 
        Literacy Programs: Costs of Implementation. New York, NY: 
        Carnegie Corporation of New York.
http://www.carnegie.org/literacy/tta/pdf/tta--Levin.pdf
National Association of State Boards of Education. (2006). Reading at 
        Risk: The State Response to the Crisis in Adolescent Literacy. 
        Author.
http://www.carnegie.org/literacy/pdf/Reading--at--Risk--report.pdf
National Association of State Board of Education. (2009). Issues in 
        Brief: State Actions to Improve Adolescent Literacy. Author.
http://www.carnegie.org/literacy/pdf/NASBE.Adol--Lit.pdf
National School Board Association. (2006). The Next Chapter: A School 
        Board Guide to Improving Adolescent Literacy. Arlington, VA: 
        National School Board Association.
http://www.carnegie.org/pdf/literacy/NSBATheNextChapter.pdf
Salinger, Terry and Bacevich, Amy. (2006). Lessons and Recommendations 
        from the Alabama Reading Initiative: Sustaining Focus on 
        Secondary Reading. Washington, DC: American Institutes for 
        Research.
http://www.air.org/publications/documents/ARI%20Popular%20Report--
        final.pdf
Sloan McCombs, Jennifer, et al. (2005). Achieving State and National 
        Literacy Goals, A Long Uphill Road: A Report to the Carnegie 
        Corporation. Santa Monica, CA: RAND Corporation
http://www.rand.org/pubs/technical--reports/2005/RAND--TR180-1.pdf
The Southern Regional Education Board. (2009). A Critical Mission: 
        Making Adolescent Reading an Immediate Priority in SREB States. 
        Atlanta, GA: SREB.
http://www.carnegie.org/literacy/pdf/SREB--Critical--Mission--
        Reading--.pdf
Resources for Researchers:
ACT inc. (2006). Reading Between the Lines: What the ACT Reveals About 
        College Readiness in Reading. Cedar Rapids, IA. Author.
http://www.act.org/research/policymakers/pdf/reading--report.pdf
Carnegie Corporation of New York. (2003). Adolescent Literacy and the 
        Achievement Gap: What Do We Know and Where Do We Go From Here? 
        Carnegie Corporation of New York Adolescent Literacy Funders 
        Meeting Report.
http://www.carnegie.org/literacy/pdf/ALFF1.pdf
Kamil, M.L. Adolescents and Literacy: Reading for the 21st Century. 
        Washington, DC: Alliance for Excellent Education, 2003.
http://www.all4ed.org/files/archive/publications/
        AdolescentsAndLiteracy.pdf
Torgesen, J. K., Houston, D. D., Rissman, L. M., Decker, S. M., 
        Roberts, G., Vaughn, S., Wexler, J. Francis, D. J, Rivera, M. 
        O., Lesaux, N. (2007). Academic literacy instruction for 
        adolescents: A guidance document from the Center on 
        Instruction. Portsmouth, NH: RMC Research Corporation, Center 
        on Instruction.
http://www.carnegie.org/literacy/pdf/Academic--Literarcy--Inst--
        Adolescents.pdf
Parents and Communities:
Carnegie Corporation of New York. (2005). Reengaging Families with 
        Their Adolescent Children. Great Transitions: Preparing 
        Adolescents for a New Century. New York, NY: Author
http://www.carnegie.org/sub/pubs/reports/great--transitions/gr--
        chpt3.html
Cobb, Velma, Meltzer, Julie, and William, Martha. (2008). Mobilizing 
        Communities to Support the Literacy Development of Urban Youth: 
        A Conceptual Framework and Strategic Planning Model. New York, 
        NY: National Urban League and Center for Resource Management.
http://www.carnegie.org/literacy/pdf/NUL--Literacy--WhitePaper.pdf
Cobb, Velma, Meltzer, Julie, and William, Martha. (2008). Parent/
        Guardian Engagment in Adolescent Literacy. New York, NY: 
        National Urban League and Center for Resource Management.
http://www.carnegie.org/literacy/pdf/NUL--Component2--Parent.pdf
Cobb, Velma, Meltzer, Julie, and William, Martha. (2008). Youth/
        Adolescent Growth in Adolescent Literacy. New York, NY: 
        National Urban League and Center for Resource Management.
http://www.carnegie.org/literacy/pdf/NUL--Component3--Student.pdf
Grosso de Leon, Anne. (2002). Moving Beyond Storybooks: Teaching Our 
        Children to Read to Learn. Carnegie Reporter. New York: 
        Carnegie Corporation of New York.
http://www.carnegie.org/reporter/05/learning/index.html
Guensberg, Carol. (2006). Why Johnny (Still) Can't Read: Creative 
        Educators Push to Boast Adolescent Literacy. Edutopia. San 
        Francisco, CA: The George Lucas Educational Foundation
http://www.edutopia.org/files/existing/pdfs/feb--06/readingskills.pdf
McGrath, Anne. (2005). A New Read on Teen Literacy. US News and World 
        Report. February 28, 2005.
http://www.usnews.com/usnews/culture/articles/050228/28literacy.htm
                                 ______
                                 
    [Additional information referred to by Mr. Henriquez may be 
accessed at the following Internet address:]

       https://sites.google.com/site/andreshenriqueznet/testimony

                                ------                                

                                     U.S. Congress,
                                           [Via Facsimile],
                                  Washington, DC, December 1, 2009.
Ms. Sandra D. Meyers, Ed.D., Education Associate of Elementary Reading,
Delaware Department of Education, 401 Federal Street, Dover, DE.
    Dear Dr. Meyers: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Improving the Literacy Skills of 
Children and Young Adults,'' on November 19th, 2009.
    Representative Robert ``Bobby'' Scott (D-VA) has asked that you 
respond in writing to the following questions:
    During the hearing the cost effectiveness of early literacy 
programs was discussed by all of the witnesses. My questions are as 
follows:
    1. Compared to what? In other words, what was the cost 
effectiveness of early literacy programs compared with?
    2. Are there specific studies that quantify effectiveness of 
programs that increase literacy, reduce D/O, and crime, etc?
    3. What are the cost savings (specific numbers) of early literacy 
programs?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on 12/8/09. If you have 
any questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

           Response to Mr. Scott's Questions From Ms. Meyers

    I am responding below to the questions that Representative Robert 
``Bobby'' Scott requested in your December 1, 2009 letter to me:
    1. To determine the cost of early literacy programs, it is 
necessary to look at the results of these programs and compare these 
results with research on students who enter school with low literacy 
skills. In fact, a number of research studies and reviews reflect 
significant correlations between children's language competencies on 
entry to kindergarten and success in learning to read during the 
primary grades (Pressley, 2002; Whitehurst & Lonigan, 2001). 
Scarborough (2001), in a meta analysis of sixty-one kindergarten 
predictive studies for reading achievement, determined that the 
cognitive-linguistic strands are very stable by the age of four and, 
consequently, children who arrive at school with weaker verbal 
abilities and literacy knowledge are much more likely than their 
classmates to experience difficulties in learning to read during the 
primary grades. In fact, Dickinson and Sprague (2001) found that the 
receptive vocabulary scores of children at the end of kindergarten are 
strongly related to end of seventh grade vocabulary and reading 
comprehension scores. Children with larger vocabularies often have more 
developed phonological sensitivity, and this relationship has been 
found to begin early in the preschool period (Whitehurst & Lonigan, 
2001). Vocabulary development thus becomes a crucial element in the 
designing of early interventions (NICHD, 2000).
    Fernandez-Fein and Baker (1997) discovered that children who come 
from homes where they have been exposed to singing, language play, and 
reading activities have a higher degree of sensitivity to discrete 
sounds than those who have not had such experiences. Children must 
identify these discrete sounds in order to decode words. Preschools, 
thus, need to emphasize these aspects of literacy in developing 
children's oral language abilities.
    Language games and nursery rhymes help the child to identify key 
aspects of the sound patterns of English more explicitly. Fernandez-
Fein and Baker further found that children from low-socioeconomic 
backgrounds and/or students whose mothers have less education tend to 
have lower levels of rhyme sensitivity skills than middle class 
students. They further concluded that these low-income students less 
frequently participated in word games or book interactions.
    Moats (as cited in Lehr, Osborn, & Hiebert, 2004) also found this 
``word poverty'' distinguished advantaged from disadvantaged children 
in her study of kindergarten students in a large city district. Many 
such children were unable to name pictures that showed the meanings of 
words such as sewing or parachute. This lack of vocabulary knowledge is 
important if that knowledge is assumed in the instructional programs 
that teachers are using to develop literacy skills.
    Hart and Risley (1995) vividly portrayed the differences in 
language experienced by preschoolers from homes of different economic 
levels. They found that on average, professional parents spoke more 
than 2,000 words per hour to their children, working-class parents 
spoke about 1,333 words, and welfare mothers spoke about 600. At the 
age of four, children of professionals had vocabularies that were 
nearly 50% larger than those of working-class children and twice as 
large as those of welfare children. Children in higher SES homes 
engaged in many interactive discussions with their parents. There was a 
significant difference between the vocabulary richness and cumulative 
vocabulary growth of these children and their peers from the lower SES 
families of welfare parents. The parents of children from the higher 
SES homes helped build the children's language use and knowledge 
through extensive repetitive and interactive talk. Thus, this parent-
child dialogue along with the quantity of language resulting in an 
increase in the quality of their children's language as demonstrated by 
an increased use of nouns, verbs, modifiers, and complex clauses. In 
contrast, Hart and Risley found that children in lower-SES families had 
many fewer such experiences. Consequently, the amount of language that 
children experienced at home affected the quantity of their oral 
language growth.
    Socioeconomic backgrounds and a mother's educational level thus are 
very often predictors of a child's future success in reading. Children 
from families of lower socioeconomic or minority status often enter 
school strikingly delayed in a much broader range of prereading 
skills--including oral vocabulary knowledge (Whitehurst and Lonigan, 
2001). Because these children are delayed not only in phonological 
knowledge, but also general oral language skills, they are deficient in 
both of the critical kinds of knowledge and skill required for good 
reading comprehension, identifying words and constructing meaning after 
identifying the words in print (Torgesen, 2000). In essence the 
majority of reading problems could be prevented by, among other things, 
increasing children's oral language skills (Snow et al., 1998).
    The National Reading Panel (NICHD, 2000) declared vocabulary to be 
critically important in oral reading instruction. Oral vocabulary holds 
an important place in the road to learning to read; it enables the 
reader to make a transition from oral to written forms. As a learner 
begins to read, reading vocabulary is mapped on the oral vocabulary the 
learner brings to the task. The benefit in understanding text by 
applying letter-sound correspondences to printed material only results 
if the decoded oral representation is a known word in the learner's 
oral vocabulary. If the resultant oral vocabulary word is not in the 
learner's vocabulary, it will not be better understood than it was in 
print (NICHD, 2000).
    It is difficult to comprehend the meaning of a passage when many of 
the words are neither accurately identified nor understood. In 
addition, limited knowledge of a subject or lack of understanding of 
many of the words in a text will limit an individual's comprehension no 
matter how accurately the words are identified. Consequently, children 
with general oral language weaknesses will require additional 
instruction in a broader range of knowledge and skills if they are to 
adequately comprehend text at their instructional level (Torgesen, 
2000; Whitehurst & Lonigan, 2001). Children who have larger 
vocabularies and greater understanding of spoken language have higher 
reading scores.
    Quality preschools for students from low SES homes and homes where 
English is not the primary language must design their programs to 
incorporate the latest research so that their students do not enter 
school with a literacy and oral language deficit that has a strong 
possibility of affecting their school performance throughout the 
grades. Delaware's Early Reading First data has demonstrated that a 
student from a low SES family can enter school performing as well or 
better than the general population of children their age in language 
and early reading. In addition this performance was maintained in first 
grade. Unlike these students who had the opportunity to benefit from 
preschool, Reading First students in Delaware who do not have preschool 
experiences enter kindergarten with approximately 30% performing at the 
benchmark expectation. The odds of these students closing the gap and 
being successful in learning to read are limited.

    2. Are there specific studies that quantify effectiveness of 
programs that increase literacy, reduce D/O, and crime, etc?

    Children who do not succeed in first grade have almost a 90% 
probability of remaining a poor reader at the end of grade 4 (Juel, 
1988). Juel's longitudinal study of children from a low socioeconomic 
population revealed how imperative it is to begin the intervention 
process early in a child's school career. These same students who do 
not read moderately well by the end of third grade will be unlikely to 
graduate from high school (Snow et al., 1998). Students who have 
difficulty in learning how to read very often are retained or placed in 
special education programs, both of which are also highly correlated 
with a lower possibility of graduation. Lack of graduation from high 
school also carries a greater risk of unemployment and imprisonment. 
Finding an effective method of accelerating the progress of struggling 
students thus becomes a top educational priority.
    The window of opportunity to work successfully with these high-risk 
children obviously does not remain open very long. We know that most 
students experiencing little success and continual frustration tend to 
shut down early in the learning process. Reading is a difficult process 
for them and so they avoid it. They thus lose the opportunity to 
practice and to develop their proficiency in decoding, the automatic 
recognition of sight words, and development of vocabulary and concepts 
about the world. They have no intrinsic motivation to read. These 
struggling readers fall farther and farther behind their peers; the 
poor do indeed become poorer (Stanovich, 1986). Unless early, strategic 
interventions in reading are provided for them, poor readers lose more 
and more ground as they progress through the grades. The gap grows 
wider if we wait to help the struggling student (Hiebert & Taylor, 
1994)
    The Carnegie Corporation's report Adolescent Literacy Development 
in Out-of-School Time: A Practioner's Guidebook points out that 
information on graduation rates is not consistent due to the lack of 
accurate reporting by most school districts and report a graduation 
rate as low as 50% or less for schools serving the urban poor (Swanson, 
2001). This report also acknowledges the correlation between low 
reading and writing abilities and drop-out rates (Raudenbush & KIasim, 
1998)
    Delaware also conducted its own longitudinal study on its state-
funded Early Childhood Assistance program (ECAP) which adds to the 
capacity of federally-funded Head Start to guarantee a quality 
preschool program for every four year old in poverty and its preschool 
special education (PSE) program that supports children with 
disabilities from birth to five. This study begun in 1997 as the 
children entered kindergarten, compared children in poverty who had 
participated in the ECAP /PSE program with a like sample of poor 
children who had not participated and children with disabilities who 
were identified during early childhood and received early intervention 
services with children identified as special education students after 
entering the public school system.
    In this longitudinal study, three points of measurement (3rd, 5th, 
and 8th grades) were analyzed for students' academic outcomes. As 
measured over time at all three grade levels, the students who had 
received early intervention services (ECAP/PSE interventions) have 
shown markedly better outcomes than students who did not receive those 
interventions. Students in the intervention groups significantly 
outperformed students who did not receive intervention. From the most 
recent analysis at 8th grade, the following results are examples of the 
success rates:
    <bullet> 73% of the students in poverty who participated in ECAP/
PSE performed at or above the standard in reading compared to 51% who 
had not participated in ECAP/PSE.
    <bullet> 43% of the students 2ho received preschool special 
education performed at or above the standard in reading compared to 31% 
who had not received such services.
    3. I am unaware of specific cost savings (specific numbers) of 
early literacy programs. It would seem that if an early childhood 
program for students from low SES families and students from homes 
where English is not the primary language, such as populated Delaware's 
Early Reading First program, can reduce the drop-out rate and increase 
graduation rates, the result is a huge benefit for our growth and 
stability as a democratic society. However, these programs must be 
based on the latest scientifically based research to successfully 
address the gaps of children coming from low SES homes. All children 
should have the opportunity to begin their education on a level playing 
field.
    I hope that this information is helpful to you. I am also enclosing 
the data from the Delaware's Early Reading Research first cohort.
                                 ______
                                 
                                                 November 10, 2009.

                           Executive Summary

        FY 2007 Delaware Early Reading First Supplemental Award
                   The Achievement of Project Alumni

    Project Directors: Martha J. Buell, Myae Han, and Carol Vukelich

    One hundred twenty nine children `graduated' from the Delaware 
Early Reading First (DERF) project in spring 2007 and entered 
kindergarten in August 2007. Of these 129, 103 children entered 
kindergarten in the project's partnering district and were available 
for testing in the spring of their kindergarten year. Of the 103 
children, 97 had experienced at least one year of the Delaware Early 
Reading First project prior to their entry into kindergarten. These 97 
children were tested in May of their kindergarten year (May 2008) to 
assess their language and early reading proficiency. The project 
directors employed two retired elementary teachers, trained in the 
administration of the selected tests, to administer the tests to the 
children. Both had extensive prior experience administering tests to 
young children. In addition to the standardized tests, the project 
directors asked the children's teachers to report their judgment of 
these children's skill development and readiness for first grade. The 
teachers provided the requested information on 96 of the 97 children.
    Of the 97 children tested in the spring of their kindergarten year 
(May 2008) 69 remained in the project's partnering district and were 
available for testing in the spring of their first grade year. These 69 
children were tested in May 2009 to assess their language and reading 
proficiency by the same retired elementary teachers who had tested them 
at the end of their kindergarten year. Again, in addition to the 
standardized tests, the children's teachers were asked to report their 
judgment of the children's school-specific and social development, and 
readiness for first grade. The teachers provided this information on 28 
of the 69 children.
The Children
    Table 1 provides demographic information on the children at the 
end-of-kindergarten and at the end-of-first-grade, all of whom were 
from low-income families and all had experienced at least one year of 
Head Start prior to their kindergarten experience. These data were 
gathered by parent self-report at the time of the children's entry into 
the Head Start/DERF project.

                        TABLE 1.--DEMOGRAPHIC INFORMATION ON THE 97 DERF 2006-2007 ALUMNI
----------------------------------------------------------------------------------------------------------------
                                                                  Percentage End-
                                                  Number End-of-        of-       Number End-of-  Percentage End-
                                                   Kindergarten    Kindergarten     First-Grade   of-First-Grade
----------------------------------------------------------------------------------------------------------------
Gender:
    Male........................................              49          50.52%              33          47.82%
    Female......................................              48          48.48%              36          52.17%
Home Language:
    English.....................................              24          24.74%              35          50.72%
    Spanish.....................................              68          70.10%              34          49.28%
    Other.......................................               5           5.15%               0              0%
Race:
    White.......................................               6           6.19%               4           5.80%
    African American............................              45          46.39%              30          43.48%
    Latino......................................              39          40.21%              30          43.48%
    More than one race..........................               3           3.09%               1           1.45%
    Not reported................................               4           4.12%               4           5.80%
----------------------------------------------------------------------------------------------------------------

The Data Collection Tools
    The following language and early reading measures were used.
            GPRA measures:
    <bullet> Woodcock-Johnson III, Letter-Word Identification subtest 
is a standardized assessment. On this subtest, the tester asks the 
child to identify letters and read words. This subtest is a measure of 
children's word recognition skills.
    <bullet> Woodcock-Johnson III Story Recall subtest is a 
standardized assessment. On this subtest, the tester asks the child to 
listen to short stories and repeat them back. This subtest is a measure 
of children's expressive oral language skills.
    <bullet> Peabody Picture Vocabulary Test--IV is a standardized 
assessment. The tester presents the child with four pictures and asks 
the child to point to the picture depicting the target word. This is a 
measure of children's receptive vocabulary skills.
            Project selected additional measures:
    <bullet> Woodcock-Johnson III Understanding Directions subtest is a 
standardized assessment. This subtest asks the child to listen to and 
then follow a set of directions. This is a measure of children's 
receptive vocabulary and short-term memory.
    <bullet> Woodcock-Johnson III Word Attack subtest is a standardized 
assessment. This subtest asks the child to read non-words. This is a 
measure of children's decoding skills.
    <bullet> Woodcock-Johnson III Reading Fluency subtest is a 
standardized assessment. This subtest measures the speed of reading 
sentences and answering ``yes'' or ``no'' to each. This is a measure of 
children's comprehension skills.
    The project used these measures in addition to the teacher 
questionnaire which asked the teachers to judge the children's 
preparedness for kindergarten and for first grade.
The Findings
    The project asked and answered the following questions:
    1. What percentage of the children achieved a standard score above 
the ``at risk'' range as measured by the Woodcock-Johnson III, Letter-
Word Identification (Test 1) subtest, a test of children's word 
identification skills?
    At the end-of-kindergarten, 87.63% (n=85) of the children achieved 
standard scores of 90 or above on this measure. Consequently, with the 
standard score of 90, 12.37% (n=12) were identified as `at risk'. Using 
the typical 85-115 standard score spread as the definition of 
``average'' or ``age-appropriate development,'' 90.72% (n=88) scored in 
the 85-115 range, 6.19% (n=6) scored 116 or above (+1 standard 
deviation), and only 3.09% (n=3) of the children were identified as 
``at risk'' (-1 standard deviation), with one of these 3 children 
earning a standard score of 84.
    At the end-of-first-grade, 86.96% (n=60) of the children achieved 
standard scores of 90 or above on this measure. Consequently, with the 
standard score of 90, 13.04% (n=9) were identified as `at risk'. Using 
the typical 85-115 standard score as the definition of ``average'' or 
``age appropriate development,'' 78.26% (n=54) scored in the 85-115 
range, 13.04% (n=9) scored 116 or above (+1 standard deviation), and 
8.69% (n=6) of the children scored below 85 (-1 standard deviation).
    2. What percentage of the children ranked in the 50th percentile or 
above as measured by the Woodcock-Johnson, Letter-Word Identification 
(Test 1) subtest?
    At the end-of-kindergarten, more than one-half of the children, 
57.73% (n=56), achieved the criterion of performance at or above the 
50th percentile on this subtest.
    At the end-of-first-grade, 71.01% (n=49) of the children achieved 
the criterion of performance at or above the 50th percentile on this 
subtest.
    3. What percentage of the children achieved a standard score above 
the ``at risk'' range as measured by the Woodcock-Johnson III, Story 
Recall (Test 3) subtest, a test of aspects of oral language, including 
language development and meaningful memory?
    At the end-of-kindergarten, 94.85% (n=92) of the 97 children 
achieved standard scores of 90 or above.
    Consequently, with the standard score of 90, 5.15% (n=5) of the 
children were identified as `at risk'. Using the typical 85-115 
standard score spread as the definition of ``average'' or ``age-
appropriate development,'' 96.90% (n=87) scored in the 85-115 range, 
8.25% (n=6) scored 116 or above (+1 standard deviation), and 4.12% 
(n=4) of the children were identified as ``at risk''(-1 standard 
deviation).
    At the end-of-first-grade, 98.55% (n=68) of the 69 children 
achieved standard scores of 90 or above. Consequently, with the 
standard score of 90, only 1 child (1.45%) was identified as `at risk.' 
Using the typical 85-115 standard score spread as the definition of 
``average'' or ``age-appropriate development,'' 81.16% (n=56) scored in 
the 85-115 range, 18.84% (n=13) scored 116 or above (+1 standard 
deviation), and no children were identified as ``at risk'' (-1 standard 
deviation).
    4. What percentage of the children ranked in the 50th percentile or 
above as measured by the Woodcock-Johnson, Story Recall (Test 3) 
subtest?
    At the end-of-kindergarten, considerably more than one-half of the 
children, 72.16% (n=70), achieved the criterion of performance at or 
above the 50th percentile on this subtest.
    At the end-of-first-grade, 81.16% (n=56) of the children achieved 
the criterion of performance at or above the 50th percentile on this 
subtest.
    5. What percentage of the children demonstrated age-appropriate 
oral language skills as measured by the Peabody Picture Vocabulary 
Test-IV?
    At the end-of-kindergarten, 84.54% (n=82) of the 97 children 
achieved a standard score of 85 or above. Of the 97 children, 74 
(76.28%) achieved a standard score in spread typically defined as 
``average'' or ``age-appropriate development,'' 8.25% (n=8) scored 116 
or above (+1 standard deviation), and 15.46% (n=15) of the children 
were identified as ``at risk'' (-1 standard deviation).
    Given that 70.10% of the children came from families who described 
their home language as Spanish, these data show that these children 
made considerable gains in their acquisition of
English vocabulary
    At the end-of-first-grade, 86.95% (n=60) of the 69 children 
achieved a standard score of 85 or above. Of the 69 children, 54 
(78.26%) achieved a standard score in a spread typically defined as 
``average'' or ``age-appropriate development,'' 8.69% (n=6) scored 116 
or above (+1 standard deviation), and 8.69% (n=9) of the children were 
identified as ``at risk'' (-1 standard deviation).
    6. What percentage of the children made significant gains (defined 
by the Department of Education as a standard score increase of 4 or 
more points) on the PPVT-IV between May 2007 and May 2008?
    At the end-of-kindergarten, the percentage of children who made 
significant gains (standard score increase of 4 or more points) on the 
PPVT-IV between May 2007 and May 2008 was 60.82% (59 of the 97 
children).
    At the end-of-first-grade, the percentage of children who made 
significant gains (standard score increase of 4 or more points) on the 
PPVT-IV between May 2008 and May 2009 was 62.32% (43 of the 69 
children).
    7. What percentage of the children achieved a standard score above 
the ``at risk'' range as measured by the Woodcock-Johnson III, 
Understanding Directions (Test 4) subtest, a test which required the 
children to listen to a sequence of audio-recorded instructions and 
then follow the directions by pointing to various objects in a picture?
    At the end-of-kindergarten, 68.04% (n=66) of the 97 children 
achieved standard scores of 90 or above.
    Therefore, using the standard score of 90, 31.96% (n=31) were 
identified as `at risk'.
    Using the typical 85-115 standard score spread as the definition of 
``average'' or ``age-appropriate development,'' 75.26% (n=73) scored in 
the 85-115 range, 3.09% (n=3) scored 116 or above (+1 standard 
deviation), and 21.65% (n=21) of the children were identified as ``at 
risk'' (-1 standard deviation).
    At the end-of-first-grade, 55.07% (n=38) of the 69 children 
achieved standard scores of 90 or above. Consequently, using the 
standard score of 90, 42.03% (n=29) were identified as `at risk'. Using 
the typical 85-115 standard score range as the definition of 
``average'' or ``age-appropriate development,'' 68.11% (n=47) scored in 
the 85-115 range, 1.45% (n=1) scored 116 or above (+1 standard 
deviation), and 27.54% (n=19) were identified as ``at risk'' (-1 
standard deviation), with three of these 19 earning a score of 84. This 
subtest was not administered to two children.
    8. What percentage of the children ranked in the 50th percentile or 
above as measured by the Woodcock-Johnson, Understanding Directions 
(Test 4) subtest?
    At the end-of-kindergarten, less than half of the children, 40.21% 
(n=39), achieved the criterion of performance at or above the 50th 
percentile on this subtest.
    At the end-of-first-grade, 31.88% (n=22), achieved the criterion of 
performance at or above the 50th percentile on this subtest.
    9. What percentage of the children achieved a standard score above 
the ``at risk'' range as measured by the Woodcock-Johnson III, Word 
Attack (Test 13) subtest, a test that measures the children's skill in 
apply phonic and structural analyses skills to the pronunciation of 
unfamiliar printed words?
    At the end-of-kindergarten, 86 of the 97 children (88.66%) achieved 
standard scores of 90 or above. Therefore, using the standard score of 
90 as the cut score, 11.34% (n=11) were identified as `at risk'. Using 
the typical 85-115 standard score spread as the definition of 
``average'' or ``age-appropriate development,'' 76.29% (n=74) scored in 
the 85-115 range, 19.59% (n=19) scored 116 or above (+1 standard 
deviation), and 4.12% (n=4) of the children were identified as ``at 
risk'' (-1 standard deviation).
    At the end-of-first-grade, 92.75% (n=64) of the 69 children 
achieved standard scores of 90 or above. Consequently, using the 
standard score of 90 as the cut score, 7.25% (n=5) were identified as 
`at risk'. Using the typical 85-115 standard score spread as the 
definition of ``average'' or ``age-appropriate development,'' 88.40% 
(n=61) scored in the 85-115 range, 4.35% (n=3) scored 116 or above (+1 
standard deviation), and 7.25% (n=5) of the children were identified as 
``at risk'' (-1 standard deviation), with one child earning a score of 
84.
    10. What percentage of the children ranked in the 50th percentile 
or above as measured by the Woodcock-Johnson, Word Attack (Test 13) 
subtest?
    At the end-of-kindergarten, 71.13% (n=69) of the children obtained 
scores at or above the 50th percentile as measured by this subtest.
    At the end-of-first-grade, 65.22% (n=45) of the children obtained 
scores at or above the 50th percentile as measured by this subtest.
    11. What percentage of the Grade 1 children achieved a standard 
score above the ``at risk'' range as measured by the Woodcock-Johnson 
III, Reading Fluency (Test 2) subtest?
    At the end-of-first-grade, 76.81% (n=53) of the children achieved 
standard scores of 90 or above on this measure. Consequently, with the 
standard score of 90, 23.19% (n=16) were identified as `at risk'. Using 
the typical 85-115 standard score spread as the definition of 
``average'' or ``age- appropriate development,'' 68.11% (n=47) scored 
in the 85-115 range, 13.04% (n=9) scored 116 or above (+1 standard 
deviation), and 18.84% (n=13) of the children were identified as ``at 
risk'' (-1 standard deviation).
    12. What percentage of the Grade 1 children ranked in the 50th 
percentile or above as measured by the Woodcock-Johnson, Reading 
Fluency (Test 2) subtest?
    At the end-of-first-grade, more than one-half of the children, 
56.52% (n=39), achieved the criterion of performance at or above the 
50th percentile on this subtest.
    13. How did the teachers assess the children's preparedness for 
kindergarten?
    The project asked the DERF graduates' kindergarten teachers to rate 
the children's preparedness for kindergarten in the domains of social 
development, school-specific instrumental development, reading and 
writing, logical thinking and the use of numbers, and perceptual-motor 
development. Teachers provided descriptions of their perceptions of 96 
of the 97 children's development. Teachers rated children's readiness 
on questions in each domain using a 4-point rating scales, with 1 being 
not apparent and 4 being proficient. Table 2 provides the mean ratings 
for each of the domains noted above. Table 3 describes the teachers' 
responses to the checklist's items regarding readiness for and 
adjustment to kindergarten.
    How did the teachers assess the children's preparedness for Grade 
1?
    The project asked the DERF graduates' Grade 1 teachers to rate the 
children's preparedness for Grade 1 in the domains of social 
development, school-specific instrumental development, reading and 
writing, logical thinking and the use of numbers, and perceptual-motor 
development. Teachers provided descriptions of their perceptions of 28 
of the 69 (40.58%) children's development. Teachers rated children's 
readiness on questions in each domain using a 4-point rating scales, 
with 1 being not apparent and 4 being proficient. Table 2 provides the 
mean ratings for Grade 1 for each of the domains noted above. Table 4 
describes the teachers' responses to the checklist's items regarding 
readiness for and adjustment to Grade 1.

                  TABLE 2.--TEACHERS' DESCRIPTION OF DERF GRADUATES--DEVELOPMENTAL DOMAIN ITEMS
----------------------------------------------------------------------------------------------------------------
                                                                                      Mean
                                                                                  Kindergarten     Mean Grade 1
                              Domain Description                                    (Maximum         (Maximum
                                                                                   Rating=4)        Rating=4)
----------------------------------------------------------------------------------------------------------------
Social Development: uses appropriate strategies to initiate interactions with             3.24             2.96
 peers and uses alternate strategies when initial attempts fail; responds
 appropriately to other's expressed emotions and intentions; overall emotional
 tone is positive when interacting with peers and adults; displays age-
 appropriate impulse control and regulation during challenging situations;
 peer relationships are generally positive and satisfying; effectively uses
 adults as sources of support, comfort, and assistance
School-Specific Instrumental Development: focuses attention during large group            3.32             3.16
 teacher-directed activities; can work independently; demonstrates willingness
 to try new things; generally completes tasks in allotted time; understands
 and generally follows playground and classroom rules; enjoys being in school;
 can work effectively in a group; actively participates in class activities
Reading and Writing: chooses books and stories during free-choice activities;             3.43             3.55
 recognizes most upper and lower case letters and knows most of their sounds;
 uses some initial letter-sound associations to predict meaning; uses context
 clues to predict meaning; recognizes some common words; draws and paints
 pictures; writes name; writes using upper and lower case letters with few or
 no reversals; writes numerals with few or no reversals; can describe what an
 author does; can describe what an illustrator does; can answer questions
 about a story's plot such as main character and ending; can answer questions
 about what a storybook character might be thinking; can identify the
 beginning letter of a word; can identify rhyming words; can blend phonemes to
 make words; can delete phonemes to make new words; adds writing to art work
 or projects; writes words phonetically when does not know conventional
 spelling
Logical Thinking and Use of Numbers: actively uses all senses to examine and              3.35             3.08
 explore familiar and unfamiliar objects; shows interest in and understanding
 of the concept of comparing; uses elaborate language to describe objects and
 events; uses language to initiate and maintain interactions with adults and
 peers; uses language to gather information and solve problems; understand and
 uses such concepts as many, more, less, etc.; uses appropriate labels (one,
 two, etc.) when counting objects; uses counting reliably to quantify
 perceptual numbers; uses counting reliably to quantify elementary (5-12)
 numbers; uses counting to quantify larger numbers (20+) objects
Perceptual-Motor Development: demonstrates a positive disposition toward                  3.71             3.55
 movement activities, enjoys, and feels confident during physical activities;
 demonstrates age-appropriate static and dynamic balance; demonstrates age-
 appropriate locomotors patterns; demonstrates age-appropriate fine motor
 movement differentiations; demonstrates age-appropriate eye-hand coordination
----------------------------------------------------------------------------------------------------------------


                   TABLE 3.--TEACHERS' DESCRIPTIONS OF DERF GRADUATES--KINDERGARTEN READINESS
----------------------------------------------------------------------------------------------------------------
                                                                                Ratings
                                                     -----------------------------------------------------------
                        Items                          Far below     Below                   Above     Far above
                                                        average     average     Average     average     average
----------------------------------------------------------------------------------------------------------------
Overall, how would you rate this child's academic        1 (1%)    14 (15%)    47 (49%)    30 (32%)      3 (3%)
 skills?
Some children have an easy time adjusting to                  0    11 (12%)    51 (54%)    27 (28%)      6 (6%)
 kindergarten. In contrast, other children have
 difficulty. Based on your experience, how easy or
 difficult will this adjustment be for this child?
Based on your experience, how intellectually ready       4 (4%)    10 (10%)    50 (53%)    25 (26%)      6 (6%)
 is this child for first grade?
Based on your experience, how socially ready is this          0    12 (13%)    54 (57%)    24 (25%)       5 (5)
 child for first grade?
----------------------------------------------------------------------------------------------------------------


                    TABLE 4.--TEACHERS' DESCRIPTIONS OF DERF GRADUATES--FIRST GRADE READINESS
----------------------------------------------------------------------------------------------------------------
                                                                                Ratings
                                                     -----------------------------------------------------------
                        Items                          Far below     Below                   Above     Far above
                                                        average     average     Average     average     average
----------------------------------------------------------------------------------------------------------------
Overall, how would you rate this child's academic       3 (11%)     7 (25%)    11 (39%)     6 (21%)      1 (4%)
 skills?
Some children have an easy time adjusting to first       1 (4%)     4 (14%)    18 (64%)     4 (14%)      1 (4%)
 grade. In contrast, other children have difficulty.
 Based on your experience, how easy or difficult
 will this adjustment be for this child?
Based on your experience, how intellectually ready       2 (7%)     7 (25%)    12 (43%)     6 (21%)      1 (4%)
 is this child for second grade?
Based on your experience, how socially ready is this     0 (0%)     6 (21%)    17 (61%)     4 (14%)      1 (4%)
 child for second grade?
----------------------------------------------------------------------------------------------------------------


                    TABLE 5.--TEACHERS' DESCRIPTIONS OF DERF GRADUATES--ACADEMIC RATING SCALE
----------------------------------------------------------------------------------------------------------------
                                                                                                   Mean Grade 1
                                     Academic Rating Scale                                           (Maximum
                                                                                                    Rating=5)
----------------------------------------------------------------------------------------------------------------
Language and Literacy: uses complex sentence structures; understands and interprets a story or             3.54
 other texts read to him/her; easily and quickly names all upper- and lower-case letters of the
 alphabet; produces rhyming words; reads simple books independently; uses different strategies
 to read unfamiliar words; composes simple stories; demonstrates an understanding of some of
 the conventions of print; uses the computer for a variety of purposes.
General Knowledge: recognizes distinct differences in habits and living patterns between him/              3.61
 herself and other groups of people he/she knows; recognizes some ways people rely on each
 other for goods and services; uses his/her senses to explore and observe; forms explanations
 bases on observations and explorations; classifies and compares living and non-living things
 in different ways.
Mathematical Thinking: sorts, classifies, and compares math materials by various rules and                 3.65
 attributes; orders a group of objects; shows an understanding of the relationship between
 quantities; solves problems involving numbers using concrete objects; demonstrates an
 understanding of graphing activities; uses instruments accurately for measuring; uses a
 variety of strategies to solve math problems.
----------------------------------------------------------------------------------------------------------------


                         TABLE 6.--DERF GRADUATES' ATTITUDES TOWARD READING AND WRITING
----------------------------------------------------------------------------------------------------------------
                                                                                                   Mean Grade 1
                                                                                                    Full Scale
                         Elementary Reading and Writing Attitude Survey                              (Maximum
                                                                                                   Rating=112)
----------------------------------------------------------------------------------------------------------------
Reading Attitude:                                                                                            60
Writing Attitude:                                                                                            84
----------------------------------------------------------------------------------------------------------------

Conclusions
    As indicated in the demographic table, between kindergarten and 
first grade, a much higher percentage of children whose home language 
is Spanish left the partnering school district. Where at the end-of-
kindergarten, children from English-speaking homes represented only 
about a quarter of the sample, by the end-of-first grade, 50% of the 
sample came from English-speaking homes. However, examination of the 
data reveals few differences in the percentages of children performing 
in the normal and above normal ranges on the various assessments or in 
the percentage of children performing above the 50th percentile. In 
other words, it appears that the children who have departed from the 
sample represent a range of performances; not all are the lowest 
performing or the highest performing children.
    Whitehurst and Lonigan (1998) conceptualize children's emergent 
literacy development as encompassing two separate domains: inside-out 
skills (e.g., code-based skills like print knowledge, phonological 
awareness, and alphabet knowledge) and outside-in skills (e.g., 
comprehension-related and meaning-based skills). At the end-of-
kindergarten, the children did well on all inside-out skills, and they 
continued their high performance on the code-based skill tests (e.g., 
Letter-Word Identification, Word Attack,)as illustrated by the high 
percentage of children performing in the normal and above range and 
above the 50th percentile. The findings were only slightly more mixed 
on the outside-in skills. The children performed well to very well on 
most Woodcock-Johnson III meaning-based subtests (e.g., Story Recall, 
Peabody Picture Vocabulary Test-IV, Reading Fluency), but not as well 
as expected on only one assessment, Understanding Directions.
    Overall, based on the testing data, we conclude that the children 
who graduated from the Delaware Early Reading First project and 
experienced kindergarten and first-grade in our Reading First partner 
district continue to perform as well or better than the general 
population of children their age in language and early reading. Their 
kindergarten teachers thought they were well-prepared for kindergarten, 
and the first-grade teachers who responded similarly viewed the 
children as well-prepared in language and reading for first grade. The 
children's performance is particularly impressive when one remembers 
that these children, by definition, as children from low-income 
families, were eligible for Head Start because they were ``at risk'' 
for academic challenges and failure. Challenges to school success and 
performance in language arts are further possible when one considers 
that in kindergarten the majority of the kindergarten sample and half 
of the first-grade sample were not only low-income but also came from 
homes where English was not the primary language spoken.
    In short, at least a year of Head Start programming that 
implemented systematic, explicit instruction in language and reading 
skills resulted in the vast majority of children arriving in 
kindergarten prepared for the developmental and academic challenges of 
the Reading First school's language arts curriculum. Likewise the Head 
Start DERF experience, plus a year of kindergarten and first-grade 
instruction in a Reading First school's curriculum, appears to have had 
a positive effect on the majority of the children's language and 
reading skill development.
                                 ______
                                 
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
